<html>
<title> - REFORMING FEMA: ARE WE MAKING PROGRESS?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                REFORMING FEMA: ARE WE MAKING PROGRESS?

=======================================================================



                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                     COMMUNICATIONS, PREPAREDNESS,
                              AND RESPONSE

                                with the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2007

                               __________

                           Serial No. 110-10

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] 

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
35-269                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA Jackson Lee, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado
VACANCY

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                        Todd Gee, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

LORETTA SANCHEZ, California          CHARLES W. DENT, Pennsylvania
NORMAN D. DICKS, Washington          MARK E. SOUDER, Indiana
NITA M. LOWEY, New York              MIKE ROGERS, Alabama
ELEANOR HOLMES NORTON, District of   BOBBY JINDAL, Louisiana
Columbia                             DAVID DAVIS, Tennessee
DONNA M. CHRISTENSEN, U.S. Virgin    PETER T. KING, New York (Ex 
Islands                              Officio)
BOB ETHERIDGE, North Carolina
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                        Craig Sharman, Director

                        Nichole Francis, Counsel

                         Brian Turbyfill, Clerk

        Heather Hogg, Minority Senior Professional Staff Member

                                  (ii)


       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             CHRISTOPHER P. CARNEY, Pennsylvania, Chairman

PETER A. DeFAZIO, Oregon             MIKE ROGERS, Alabama
YVETTE D. CLARKE, New York           TOM DAVIS, Virginia
ED PERLMUTTER, Colorado              MICHAEL T. McCAUL, Texas
VACANCY                              PETER T. KING, New York (Ex 
BENNIE G. THOMPSON, Mississippi (Ex  Officio)
Officio)

                    Jeff Greene, Director & Counsel

                         Brian Turbyfill, Clerk

                    Michael Russell, Senior Counsel

                                 (iii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     1
The Honorable Charles W. Dent, a Representative in Congress From 
  the State of Pennsylvania, Ranking Member, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     3
The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     4
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight:
  Oral Statement.................................................     6
  Prepared Statement.............................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, Chairman, Committee on Homeland 
  Security.......................................................    38
The Honorable Yvette D. Clarke, a Representative in Congress From 
  the State of New York..........................................    44
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    51
The Honorable William J. Jefferson, a Representative in Congress 
  From the State of Louisiana....................................    48
The Honorable Bobby Jindal, a Representative in Congress From the 
  State of Louisiana.............................................    40
The Honorable Ed Perlmutter, a Representative in Congress From 
  the State of Colorado..........................................    46
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California........................................    42

                               Witnesses

The Honorable George Foresman, Under Secretary for Preparedness, 
  Department of Homeland Security:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17
The Honorable Matt Jadacki, Deputy Inspector General, Department 
  of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
The Honorable R. David Paulison, Under Secretary for Federal 
  Emergency Management, Federal Emergency Management Agency:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10

                               Appendixes

I. Letter:
  The Honorable Michael Chertoff, Secretary, U.S. Department of 
    Homeland Security............................................    63
II. Questions and Responses:
  Responses from Hon. George W. Foreman..........................    79
  Responses from Hon. R. David Paulison..........................    82
  Responses from Hon. Richard L. Skinner.........................    88


                REFORMING FEMA: ARE WE MAKING PROGRESS?

                              ----------                              


                      Wednesday, February 28, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Emergency Communications, Preparedness and 
                                                  Response,
                                           with the
                Subcommittee on Management, Investigations,
                                             and Oversight,
                                                    Washington, DC.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the Subcommittee on Emergency Communications, 
Preparedness, and Response] presiding.
    Present from the Subcommittee on Emergency Communications, 
Preparedness, and Response: Representatives Cuellar, Sanchez, 
Lowey, Norton, Etheridge, Jefferson, Thompson, Dent, Jindal, 
and Davis.
    Present from the Subcommittee on Management, 
Investigations, and Oversight: Representatives Carney, 
Perlmutter, and Rogers.
    Mr. Cuellar. [Presiding.] The joint hearing on the 
Subcommittee on Emergency Communications and Preparedness and 
Response and the Subcommittee on Management, Investigation and 
Oversight will come to order.
    The subcommittees are meeting jointly today to receive 
testimony regarding the reorganization of FEMA, which was 
mandated by the Post Katrina Emergency Management Reform Act of 
2000.
    The chair also would like to recognize that there might be 
two to four members of the committee who do not sit on either 
of the subcommittees assembled here today, the gentlewoman from 
Texas, Ms. Jackson Lee, and the gentleman from Washington, Mr. 
Reichert.
    And I believe we might have also Mr. Al Green from Texas 
and also Mr. Jefferson from Louisiana that have asked to 
participate in today's hearing. Consistent with the rules and 
the practices of the committee, we are pleased to honor their 
requests.
    I now ask for unanimous consent to allow all four of the 
congressmen and women to sit and question the witness at 
today's hearing. Without objection, it is so ordered.
    I would also note that Ms. Jackson Lee and Mr. Reichert and 
Mr. Jefferson and Mr. Green, they will be recognized for 
questioning, once all the other members have been recognized, 
in accordance with the rules of the committee.
    At this time, my opening statement.
    I want to say, first of all, to the witnesses, thank you 
very much for being here with us. And on behalf of the members 
of both subcommittees, we want to welcome you to our panel. We 
are glad that you are here to share an update to give us a 
status on the FEMA reform.
    As we begin, I would like to highlight the importance of 
this committee's rule that written testimony be received 48 
hours in advance. I do understand that we all have time 
pressures, and they are often precedent. However, to ensure 
that the members are adequately prepared for each of the 
hearing, I would ask that every effort is made to adhere to the 
48-hour rule.
    Mr. Paulison and Mr. Foresman, your leadership in trying to 
reform our federal government, how we respond to disasters and 
to make FEMA a more responsive and effective agency will prove 
critical to our states, our local communities and the nation.
    Hurricane Katrina and the subsequent flooding of New 
Orleans exposed significant flaws in our government's ability 
to prepare for, mitigate against, respond to, and recover from 
this type of event. It is our duty to ensure that this never 
happens again.
    On October 4, 2006, President Bush signed into law the Post 
Katrina Emergency Management Reform Act of 2006, which made 
substantial changes to FEMA and the Department of Homeland 
Security, including making the administrative FEMA responsible 
for all phases of emergency management, effectively rejoining 
all preparedness and response activity within FEMA.
    The purpose of this legislation was to establish FEMA as a 
distinct entity within the Department of Homeland Security, 
create a new leadership positions with clear position 
requirements, new missions that restored some of the 
responsibilities that had been removed. Finally, it enhanced 
the agency's authority to undertake a broad range of activities 
before and after disasters occur.
    The reorganization has an effective date of March 31, 2007, 
which is just around the corner. Efficient, timely and 
effective implementation of the act is critical to homeland 
security, and it is a high priority for our committee and the 
American people.
    The bill also included at least 44 deadlines for reports, 
the development and strategic and plans and the creation of new 
programs. FEMA and the department have already began missing 
those deadlines, a lot of those deadlines that Congress 
mandated in the legislation.
    We certainly want to go into some details in a few minutes, 
and I look forward receiving an update from the witnesses on 
those particular deadlines.
    Finally, we look forward to hearing updates on the 
department's efforts in the following areas: one, the 
restructuring of the emergency communication responsibilities 
in the department; number two, evacuation planning; number 
three, planning to minimize fraud, waste, abuse within FEMA; 
number four, improvements to mass care and housing; number 
five, improvements to help individuals with special needs.
    As our witnesses will explain in details, FEMA and the 
Department of Homeland Security are undergoing massive reforms 
to their emergency management capabilities. While some progress 
has been made, enormous challenges still remain.
    And as members of Congress, we certainly want to work with 
you to address those challenges. We are all in the same team, 
and we certainly want to work with you to make this an 
efficient, and effective, and accountable process, also.
    The committee looks forward working with you during this 
process, and I want to again thank you, thank the witnesses 
again for their testimony.
    Before I recognize the ranking minority member, let me just 
say this. The format that we have here--I just want to make 
sure everybody understands--we do have somebody--Mr. Jadacki, 
thank you very much?this is not a ``gotcha'' type of 
environment we want to set up.
    We are interested in looking at some of the recommendations 
in that way so the members can ask, instead of having somebody 
sit down or walk out of the room, we can have somebody on the 
same table and then ask the questions from the members. So, 
again, this is a process or a stage so we can improve our 
questioning, and that way we can get the questions in and 
improve the process on that.
    So, at this time, the chair now recognizes the ranking 
minority member of the subcommittee, the gentleman from 
Pennsylvania, Mr. Dent, for any statements that he might have.
    Mr. Dent. Thank you, Mr. Chairman. And thank you, too, for 
holding this hearing. I also thank you for the bipartisan 
cooperation you have extended to me. It is very much 
appreciated. And I look forward to working with you over the 
course of this session on these issues.
    First, thanks also to the witnesses. I look forward to 
discussing the department's reorganization proposal and the 
efforts under way to implement the lessons learned from 
Hurricane Katrina.
    Last Congress, this committee played the lead role in 
crafting the Post-Katrina Emergency Reform Act of 2006. This 
legislation includes a number of reforms to strengthen the 
nation's preparedness and response capabilities.
    For instance, this legislation would strengthen the Federal 
Emergency Management Agency, or FEMA, by improving situational 
awareness, incident command structure, ensuring that necessary 
goods and services are procured in advance of an event, 
strengthening operational planning, and improving customer 
service.
    I also understand that FEMA has already taken steps, 
including 18 different assessments of its businesses practices, 
to improve the agency's operations. I look forward to hearing 
more about these improvements and other reform efforts that are 
under way.
    There are three specific areas I would like to discuss 
today: one, FEMA's efforts regarding flood mitigation; two, 
medical preparedness; and, three, evacuation planning.
    First, I am particularly interested in discussing FEMA's 
efforts to control, mitigate, and respond to the flooding of 
local streams. Local authorities have advised me that many of 
FEMA's flood maps are out of date. I am interested to hear how 
FEMA is working to correct this problem, especially coming from 
a state that probably has more flowing water than any of the 
lower 48 states.
    I am also concerned that FEMA is not doing enough to help 
with the local stream remediation. What, if anything, is FEMA 
going to do to coordinate with the Natural Resources 
Conservation Service, an agency within the Department of 
Agriculture, to promote remediation of streams that seem to 
flood year after year?
    In addition, I look forward to discussing the new Office of 
Health Affairs and how this office will strengthen medical 
preparedness. In my home county of Pennsylvania is the state's 
largest hospital, Lehigh Valley Hospital.
    Last Congress, this subcommittee examined the ability of 
the nation's emergency healthcare providers to respond to mass 
casualties from a terrorist attack, natural disaster, or other 
emergency. Through that hearing, we learned that much work 
remains to be done.
    Emergency medical providers and public health providers 
must be included in preparedness and response planning, along 
with police, fire, and other first responders.
    I look forward to hearing from our witnesses how the new 
Office of Health Affairs will ensure that our nation's 
hospitals and doctors' offices are included in preparedness and 
response planning.
    And, finally, I am particularly concerned about FEMA's role 
in evacuation planning for terrorist attacks or natural 
disasters. I am concerned that the need to evacuate a large 
metropolitan area, say New York City, for example, to less 
urbanized areas would quickly overwhelm the resources of the 
host areas, in terms of evacuee housing and treatment.
    I am interested in learning how FEMA can encourage the 
development of local evacuation plans that will incorporate 
host communities, including their municipalities, first 
responders, public and private hospital facilities, and public 
utility companies, as well as the federal government and 
others.
    All of these groups must have a seat at the table to ensure 
that there is a smooth, well-coordinated response to an 
incident.
    And, again, I thank the chairman and look forward to 
today's discussion, and look forward to working in a bipartisan 
manner over the course of the session.
    Thank you, Mr. Chairman. I yield back.
    Mr. Cuellar. Thank you, Mr. Dent.
    And I do want to say that we are going to be doing this 
bipartisan. I think at the very beginning both Mr. Dent and 
myself got together, and we talked about the different issues 
that we are going to cover throughout the hearing process that 
we are going to have.
    And I think we reached an agreement I think on all of them, 
so I certainly look forward to working with you. Thank you, Mr. 
Dent.
    At this time, the chair now recognizes the chairman of the 
Subcommittee of the Management, Investigation and Oversight, 
the gentleman from Pennsylvania, Mr. Carney, for an opening 
statement.
    Mr. Chairman?
    Mr. Carney. Chairman Cuellar, I would like to thank you for 
agreeing to hold today's hearing on the important and ongoing 
reforms at FEMA. Thank you very much.
    I would also like to recognize Chairman Thompson's 
leadership on this issue, as well, even though he is not 
present right now.
    Undersecretary Paulison, thank you for coming in today. We 
do appreciate it. I look forward to hearing your thoughts on 
the new FEMA, on the reorganization of the new FEMA, and on the 
dealings it is had with the upper echelons of DHS. This issue 
has been of obvious concern, since we witnessed the failures 
that took place in the wake of Hurricane Katrina.
    I plan on holding hearings in the Subcommittee on 
Management, Investigations and Oversight to examine post-
Katrina reforms, particularly looking at DHS's headquarters and 
senior management.
    Many predicted that, in the rush to create DHS, the unique 
needs of FEMA would be overshadowed, as it was removed from 
president's cabinet status. Unfortunately, as part of the 
second-stage review at DHS, FEMA was further weakened.
    Secretary Chertoff decided to effectively break FEMA in 
two, separating response from preparedness, and ultimately 
creating a new directorate of preparedness.
    On that note, I would also like to thank Undersecretary for 
Preparedness George Foresman for agreeing to testify before us 
and giving us some insight into the new responsibilities you 
will be undertaking, sir.
    I worry that the new responsibilities of what is now 
referred to as the National Protection and Programs 
Directorate, or NPPD, may not be focused enough.
    For example, I find it perplexing that the new NPPD is 
responsible for the US-VISIT program. It would seem to make 
more sense to group US-VISIT within Customs and Border 
Protection and not in the same directorate as the Office of 
Cybersecurity and Communications or the Office of National 
Capital Regional Coordination.
    I am also looking forward to hearing from deputy inspector 
general from the Office of Disaster Assistance, as well. I hope 
that Mr. Jadacki will provide us with frank answers on the 
deficiencies his investigations have uncovered.
    Additionally, I hope that he will feel comfortable in 
discussing potential shortcomings in the areas of all-hazard 
preparedness and response, based on his experience at DHS thus 
far.
    I know that my colleagues and I plan on ensuring that the 
FEMA reorganization is conducted in a manner that satisfies the 
original intent of last year's Post Katrina Emergency Reform 
Act, as included in part of the fiscal year 2007 Homeland 
Security Appropriations Act.
    I worry that the FEMA leadership in place when Katrina 
struck and the subsequent response placed significant burdens 
on many professional staff. The subsequent exodus of longtime 
FEMA employees and the resulting workload has led to instances 
of waste, fraud and abuse, as well as making FEMA weak in the 
eyes of many Americans.
    I hope that we can use the spotlight on FEMA reform in the 
wake of Katrina to ensure that preparedness and response at the 
federal level can be repopulated with highly professional staff 
and that we can ensure that waste, fraud and abuse is fully 
investigated and prosecuted.
    Further, I am hopeful that the Committee on Homeland 
Security and the various agencies and directorates of DHS can 
continue to work with each other when it comes to oversight. 
Cooperation is essential to ensuring that the needs of 
Americans are met by FEMA in the event of a disaster, be it 
natural or manmade.
    I look forward to working with all of you in the future, 
and I especially look forward to hearing from you today.
    Thank you.
    Mr. Cuellar. Mr. Chairman, thank you very much. And I look 
forward to working with you. I know we will be setting up some 
other hearings together, hearings together to make sure we 
provide that efficiency.
    At this time, the chair now recognizes the ranking member 
of the Subcommittee on Management, Investigations and 
Oversight, the gentleman from Alabama, Mr. Rogers, for an 
opening statement.
    Mr. Rogers?
    Mr. Rogers. Thank you, Chairman Cuellar and Chairman 
Carney, for calling this joint hearing. I appreciate it.
    I want to thank you gentlemen for taking the time out of 
your schedules to be here. I know you have all got your plates 
full, and I do appreciate you taking the time.
    FEMA plays an important role within the Department of 
Homeland Security. The agency employs an all-hazards approach 
to prepare our nation for natural disasters and terrorist 
attacks, and responds to the emergencies when they do occur.
    Last year, Congress passed legislation to reform FEMA and 
on January 18, 2007, Homeland Security Secretary Chertoff 
announced the reorganization plan for FEMA, which will take 
effect on March 31st. We look forward to hearing from our 
witnesses about their plans to implement this reorganization.
    One important result will be the merger of the Noble 
training facility into the Center for Domestic Preparedness. 
The Noble Training Center is a unique federal facility that 
trains medical personnel to respond to incidents with mass 
casualties. The Center for Domestic Preparedness, known as CDP, 
trains first responders with live chemical agents.
    Both facilities are co-located at the former Fort McClellan 
Army Base in Alabama. According to the Secretary's 
reorganization plan, the CDP director will report directly to 
the assistant administrator of the new National Integration 
Center.
    I look forward to hearing from our witnesses about the 
status of this merger and how its placement within FEMA will 
strengthen training for first responders.
    Another key provision of the FEMA reform legislation is the 
creation of the new homeland security education program. The 
academy will leverage existing programs, such as the CDP, and 
Naval Post-Graduate School to provide advance training to 
senior federal, state, and local homeland security officials.
    I am interested to hear from our witnesses where this 
program will be located in the organization and how it will be 
administered.
    Also, in the 109th Congress, our subcommittee reviewed a 
number of federal programs that were riddled with waste, fraud, 
and abuse. For example, the subcommittee found that, if FEMA 
had implemented some of the lessons learned from New York's 
experience with September 11th aid programs, the extent of 
fraud in the aftermath of Hurricane Katrina would not have been 
so great.
    The DHS inspector general also identified numerous examples 
of fraud in federal disaster assistance programs. We will hear 
today what FEMA is doing about this and what more it can do to 
protect taxpayer dollars in the future.
    And with that, Mr. Chairman, I yield back.

   Prepared Statement of the Honorable Mike Rogers, Ranking Member, 
       Subcommittee on Management, Investigations, and Oversight

    Thank you, Chairman Carney. I want to thank you and Chairman 
Cuellar for holding this joint subcommittee hearing on the 
reorganization of the Federal Emergency Management Agency.
    First I would like to welcome our witnesses, and thank them for 
taking time out of their busy schedules to be with us today.
    FEMA plays a vital role within the Department of Homeland Security.
    The agency employs an all-hazards approach to prepare our Nation 
for natural disasters and terrorist attacks, and responds to these 
emergencies when they occur.
    Last year, Congress passed legislation to reform FEMA.
    And, on January 18, 2007, Homeland Security Secretary Chertoff 
announced the reorganization plan for FEMA, which will take effect on 
March 31st.
    We look forward to hearing from our witnesses about their plans to 
implement this reorganization.
    One important result will be the merger of the Noble Training 
Center into the Center for Domestic Preparedness.
    The Nobel Training Center is a unique Federal facility that trains 
medical personnel to respond to incidents with mass casualties.
    The Center for Domestic Preparedness--known as the C--D--P--trains 
first responders with live chemical agents.
    Both facilities are co-located at the former Ft. McClellan military 
base in Alabama.
    According to the Secretary's reorganization plan, the C--D--P 
Director will report to the Assistant Administrator of the new National 
Integration Center.
    I look forward to hearing from our witnesses about the status of 
the merger, and how its placement within FEMA will strengthen training 
for first responders.
    Another key provision of the FEMA reform legislation is the 
creation of the new Homeland Security Education Program.
    This Academy will leverage existing programs, such as the C--D--P 
and Naval Post-Graduate School, to provide advance training to senior 
Federal, state, and local homeland security officials.
    I am interested to hear from our witnesses where this program will 
be located in the reorganization, and how it will be administered.
    Also, in the 109th Congress, our Subcommittee reviewed a number of 
Federal programs that were riddled with waste, fraud, and abuse.
    For example, the Subcommittee found that if FEMA had implemented 
some of the lessons learned from New York's experience with September 
11th aid programs, the extent of fraud in the aftermath of Hurricane 
Katrina would not have been so great.
    The D--H--S Inspector General also has identified numerous examples 
of fraud in Federal disaster assistance programs.
    We will hear today what FEMA is doing--and, what more it can do--to 
protect taxpayers' dollars in the future.
    Thank you, Mr. Chairman. I yield Back.

    Mr. Cuellar. Thank you, sir. Thank you, Mr. Rogers.
    And, again, we want to thank you and thank also the 
chairman of the full committee from Mississippi, the gentleman 
from Mississippi, Mr. Thompson, of course, the ranking member 
from the committee, the gentleman from New York, Mr. King, for 
their leadership that they have provided to the full committee 
and to these subcommittees that we have.
    Other members of the subcommittees are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    And at this time, I think you heard from us, and now we 
would like to welcome the panel of witnesses. Our first witness 
member is Mr. David Paulison, which is the undersecretary for 
federal emergency management at the Department of Homeland 
Security.
    Our second witness will be Mr. George Foresman, which is 
the undersecretary for preparedness at the Department of 
Homeland Security.
    And our third witness is Mr. Matt Jadacki, who is the 
deputy inspector general from the Office of Disaster Assistance 
and Oversight at the Department of Homeland Security.
    And we are all pleased to have you. And, again, I do want 
to emphasize the format is just a way to help us streamline our 
questioning and to help improve the process.
    I know sometimes people feel uncomfortable if you have the 
GAO or the inspector general. Again, this is to help better the 
process itself.
    So without objections, the witnesses' full statements will 
be inserted in the record. And now I ask each witness to 
summarize his statement for 5 minutes, beginning with the 
undersecretary, Mr. Paulison.
    Thank you for being here, sir.

   STATEMENT OF HON. R. DAVID PAULISON, UNDER SECRETARY FOR 
  FEDERAL EMERGENCY MANAGEMENT, FEDERAL EMERGENCY MANAGEMENT 
                             AGENCY

    Mr. Paulison. Chairman Cuellar, thank you very much, 
Chairman Carney, Mr. Rogers, the rest of the committee.
    We appreciate very much the invitation to come. It is my 
first opportunity to testify in front of the new Congress and 
talk about the new FEMA.
    Just before the reorganization was announced in January, 
FEMA had already been making major reforms based on the lessons 
learned from our response to Katrina and the 2005 hurricane 
season.
    It is often said that those who do not learn from the past 
are doomed to repeat it. I am here to tell you that we have 
learned from the past, and we have made major changes already 
in the organization. Today, FEMA is better, it is stronger, and 
it is more nimble than the FEMA of even a year ago.
    Last fall, Congress passed a Post Katrina Emergency 
Management Reform Act to authorize and encourage further 
reforms. The Department of Homeland Security and FEMA took this 
as an opportunity to review operations in the organization.
    We have not just done the bare minimum required by law; 
instead, we have developed a robust organizational structure 
that will be better equipped to serve the American people.
    Under this new structure, FEMA will have a strengthened 
presence within the Department of Homeland Security, and many 
of the functions necessary to prepare for, respond to, and to 
recover from a disaster will be better aligned directly within 
the agency.
    FEMA will be headed by an administrator, two deputy 
administrators, and a number of key assistant administrators. 
And my written testimony includes the organizational chart for 
you to review.
    President Bush and Secretary Chertoff have asked me to 
continue as the new FEMA administrator.
    This new structure takes advantage of this opportunity to 
improve our operations and our business processes. We do not 
just have a deputy of the old FEMA and one for the new process; 
we are truly realigning the functions where it makes sense.
    Some of the existing FEMA offices will fall under the new 
Preparedness Directorate, while some of the moving DHS programs 
will report to a chief operating officer, and a few of those 
offices will report directly to me.
    This new FEMA will consult with and hear from new voices 
that we have not had before. Under our new structure, we will 
have now a disability coordinator, a senior law enforcement 
adviser, a state and rural advocate, and a national advisory 
council here in Washington.
    But changing FEMA in Washington is not enough. This 
reorganization has a major regional component, also. The 
regions are truly where the rubber meets the road.
    For the first time in recent memory, we now have full-time 
regional directors in all 10 of our regions, and all 10 of 
these people come with the years and years of experience in 
emergency management. This new structure will also include 
regional advisory councils and regional grant advocates to help 
improve our communication with our tribal, state and local 
governments, as well as the private sector.
    All of these changes are set to go into effect on March 
31st of this year, and we have been working with preparedness 
to ensure a smooth transition, and we have been working since 
last fall.
    While there will be bumps along the way, we have a clear 
process and clear procedures in place to move these reforms 
forward while maintaining our ability to respond during the 
period of change.
    The president's budget reflects priorities set for this new 
FEMA, incorporates a new structure. It demonstrates President 
Bush's and Secretary Chertoff's commitment to build a strong 
national emergency management system.
    Looking back, it is hard to believe that we allocated only 
$350 million in preparedness grants in 2001. In the last 5 
years, we have allocated more than $16 billion to state and 
local governments. In fiscal year 2008 alone, we have proposed 
an additional $2.2 billion in FEMA grants to state and local 
governments.
    With the new structure and improved financial resources, we 
would ask what the new FEMA means for American public. The new 
FEMA will prove to the public that we are an agency that works 
for all of our citizens. The new FEMA will capitalize on 
partnerships among the federal, tribal, state and local 
authorities, and we will do this because we will bring value to 
them.
    This new FEMA will manage our assets more efficiently and 
effectively than we have in the past. And this new FEMA will 
help the nation continue to build a cultural of preparedness. 
The new FEMA will be ready to take a leadership role where 
needed, provide support where appropriate, and be on hand 
across the country before, during and after any major event.
    I want to thank you for the time you have given me. And we 
look forward to continuing to work with you in the upcoming 
days and years. And I will be happy to answer any questions you 
might have. Thank you.
    [The statement of Mr. Paulison follows:]

Prepared Statement of the Honorable R. David Paulison, Under Secretary, 
   Federal Emergency Management, Federal Emergency Management Agency

    Chairman Cuellar, Ranking Member Dent, Members of the Subcommittee:
    As this is my first opportunity to appear before the 110th 
Congress, let me start by saying that I look forward to working with 
this Subcommittee and the entire Congress in not only reorganizing the 
Federal Emergency Management Agency (FEMA) and building what we are 
calling a ``New'' FEMA, but also in returning later this spring to 
highlight some of the key changes that have occurred in FEMA since 
Hurricane Katrina and to present the President's FY-08 Budget 
submission for FEMA. The budget reflects the President's commitment to 
improving our Nation's response system, and the first step in what will 
be a multi-year effort to significantly increase FEMA's core 
capabilities and our capacity to better serve our Nation.

Background
    Hurricane Katrina made landfall in Florida and the Gulf Coast 
States in late August 2005, and was followed soon afterwards by 
Hurricanes Rita and Wilma. These disasters will long be remembered for 
disrupting families, changing lives, and forcing Americans to rethink 
vulnerability and risk assumptions. In addition to these impacts, the 
hurricanes served as catalysts for significant changes in Federal 
policy and the organization of responsible Federal entities, notably 
within the Department of Homeland Security (DHS) and in particular 
within FEMA.
    Most of those changes were included in Title VI of the FY 2007 
Homeland Security Appropriations Act. Among other provisions, Title VI, 
officially titled the ``Post-Katrina Emergency Management Reform Act of 
2006,'' articulates expectations for FEMA, establishes new leadership 
responsibilities, brings an expanded scope of missions, and allows FEMA 
to undertake a broad range of activities involving prevention, 
protection, response, recovery and mitigation both before and after 
terrorist events, natural and manmade disasters. The Post-Katrina Act 
contains provisions that set out new law, amend the Homeland Security 
Act (HSA), and amend the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act (the Stafford Act).
    I am pleased to appear before the Subcommittee today to describe 
the New FEMA and the reorganization that is presently underway that 
reflects the mandate established by Congress last fall.

The New FEMA
    The Post-Katrina Emergency Management Reform Act reorganizes DHS by 
reconfiguring FEMA with consolidated emergency management functions, 
including national preparedness functions. The newly-constituted FEMA 
will be established as a distinct entity, yet integral to DHS, similar 
to the U.S. Coast Guard and U.S. Secret Service. As required by the 
Act, the New FEMA will include the functions existing within FEMA as of 
June 1, 2006 and those elements of the Preparedness Directorate that 
were in the Preparedness Directorate as of June 1, 2006 and not 
specifically excluded by the Act. The New FEMA will be headed by an 
Administrator, I have been asked to serve in the newly titled position 
of Administrator. As required by the Post-Katrina Act, the 
organizational changes required for New FEMA will be effective on March 
31, 2007.
    Significantly, and consistent with our analysis of Hurricane 
Katrina lessons learned, the New FEMA will not simply tack on new 
programs and responsibilities. The Act clearly invites a thorough 
assessment of the internal FEMA structure to incorporate lessons 
learned from Hurricane Katrina and to integrate systematically new and 
existing assets and responsibilities within FEMA. That is precisely 
what we have done. The new organization reflects the expanded scope of 
FEMA's responsibilities. It supports a more nimble, flexible use of 
resources. It will strengthen coordination among FEMA elements and with 
other DHS components. It will enable FEMA to better coordinate with 
agencies and departments outside of DHS. And it will deliver enhanced 
capabilities to partner at the state and local level with emergency 
management and preparedness organizations and to engage the 
capabilities of the private sector.
    While the Act allows FEMA to be structured with not more than four 
Deputy Administrators, at this time we will establish two Deputy 
Administrators. One will be the Deputy Administrator and Chief 
Operating Officer. This will be the principal deputy, with overall 
operational responsibilities at FEMA. Harvey Johnson, currently the 
Deputy Director and Chief Operating Officer of FEMA, will continue in 
this role. The other will be the Deputy Administrator for National 
Preparedness, a new directorate within FEMA.
    Nine Assistant Administrators will report through one of the two 
Deputy Administrators to the Administrator (see attached organizational 
chart). Seven of the Assistant Administrators will report to the Deputy 
Administrator and Chief Operating Officer for the following 
directorates: Logistics Management, Disaster Assistance, Disaster 
Operations, Grants Management and Operations, U.S. Fire Administration, 
National Continuity Programs, and Mitigation. Two of the Assistant 
Administrators will report to the Deputy Administrator for National 
Preparedness: the National Integration Center (NIC) and the Readiness, 
Prevention, and Planning Directorate.

National Preparedness
    The Deputy Administrator for National Preparedness will head a new 
directorate within FEMA, consolidating FEMA strategic preparedness 
assets. It will include both existing FEMA programs and certain legacy 
Preparedness Directorate programs. It will incorporate functions 
related to preparedness doctrine, policy and contingency planning. It 
will further contain the Department's exercise coordination and 
evaluation program, emergency management training, along with the 
Chemical Stockpile Emergency Preparedness Program and the Radiological 
Emergency Preparedness program.
    The Deputy Administrator for National Preparedness will oversee two 
major functional responsibilities: (1) Readiness, Prevention and 
Planning; and (2) the National Integration Center.
    While we are still working to finalize the organizational structure 
of these divisions within the FEMA National Preparedness Directorate, 
the Readiness, Prevention and Planning division will be the central 
division within FEMA responsible for preparedness policy and planning 
functions. This expanded division will likely include FEMA's 
catastrophic planning activities and the following offices: (1) 
Exercise & Evaluation; (2) Contingency Preparedness; (3) Preparedness 
Doctrine & Policy; (4) Citizen Corps; and (5) the Chemical Stockpile 
Emergency Preparedness Program and the Radiological Emergency 
Preparedness program. The Readiness, Prevention and Planning division 
will be responsible, among other functions, for coordinating HSPD-8 
(National Preparedness) implementation, the National Assessment and 
Reporting System, Nationwide Plan Review, the Federal Preparedness 
Coordinator program, and coordinating with the approximately 2,100 
Citizen Corps Councils in all of the States and territories and the 
numerous governmental and non-governmental Citizen Corps partners. The 
directorate will also work seamlessly with Grants Management and 
Operations to develop the grant policy guidance and management and 
operations metrics for the full spectrum of grants for which FEMA will 
be responsible to administer. We also look to greater involvement in 
the development of grants management and operations guidance from other 
elements of DHS, such as the U.S. Coast Guard, the Transportation 
Security Administration, and the Office of Intelligence & Analysis. 
These components will assist FEMA by using their subject matter 
expertise to develop substantive guidance and accomplish meaningful and 
measurable progress toward our Preparedness goals.
    Within FEMA, the National Integration Center (NIC) will provide 
FEMA with the ability to elevate Preparedness and Emergency Management 
knowledge and capabilities across all jurisdictions: federal, state and 
local. The NIC will serve both as a center for training and doctrine 
development and for the delivery of high quality training to first 
responders from the Fire Academy, Emergency Management Institute, and 
the Noble Center across the full spectrum of preparedness, response, 
recovery and mitigation, as well as prevention in coordination with 
other organizations within DHS. The NIC will also be responsible for 
the National Incident Management System (NIMS) and the National 
Response Plan (NRP), as well as the annexes and supplements to the NRP, 
such as the Catastrophic Incident Annex and the Catastrophic Incident 
Supplement. In addition, the NIC will oversee the Training Division, 
the Systems Support Directorate, the Center for Domestic Preparedness 
and Noble Training Center, the NIMS Integration Center, the Emergency 
Management Institute, and relationships with FEMA's training partners 
and external associations. Working with Citizen Corps, the NIC will 
also coordinate with the Corporation for National and Community Service 
to establish a process to better use volunteers and donations and to 
improve first responder activities with State, local and tribal 
governments, as well as non-governmental organizations.
    In carrying out these responsibilities, the Assistant Administrator 
of the NIC will closely coordinate with the Administrator of the U.S. 
Fire Administration, particularly with regard to efficient utilization 
of the National Fire Academy campus assets in Emmitsburg, Maryland, 
which are also transferred back to FEMA pursuant to the Act. I envision 
that the functions and organization of the U.S. Fire Administration 
will not substantially change with this reorganization. The U.S. Fire 
Administration will remain responsible for the National Fire Academy as 
well as for the data analysis, reporting, training and other 
coordination activities currently being done there.
    The offices currently within the Preparedness Directorate that will 
not be transferred to FEMA are explicitly delineated in the Act and 
include the Office of Infrastructure Protection, the National 
Communications System, the National Cyber Security Division, and the 
Office of the Chief Medical Officer.

Other FEMA Headquarters Elements
    Also under this new organization, the DHS Office of Grants and 
Training will be moved to the New FEMA and reorganized as Grants 
Management and Operations with some elements moving to the National 
Preparedness Directorate. The Training and Systems Support Division of 
the Office of Grants and Training will be transferred to the NIC. The 
Office of the Citizen Corps within the Office of Grants and Training 
will be transferred into the National Preparedness Directorate's Office 
of Readiness, Prevention and Planning. The Public Affairs, Legislative 
Affairs, and Executive Secretary positions within the Office of Grants 
and Training will transfer to their equivalents within Office of 
External Affairs. The current Grants and Training Business Office and 
Preparedness Programs Division will transfer into the immediate Office 
of the Assistant Administrator for Grants Management and Operations. A 
joint missions and planning team in FEMA with full participation of the 
current leadership of the existing DHS Office of Grants and Training 
has been meeting for the past several weeks to develop the mechanisms 
to manage these programs with a view towards enhancing our support of 
State and local partners and to operationalize the national 
preparedness efforts already underway.
    In addition to incorporating the Preparedness elements into FEMA, 
the New FEMA will also sharpen our focus on building core competencies 
in logistics, operational planning, incident management and the 
delivery of disaster assistance. These new core competencies will be 
evident in our organizational structure. For example, we will 
establish: (1) a Logistics Management Directorate to fulfill the 
mandate of the new HSA Section 636; (2) a Disaster Assistance 
Directorate incorporating elements of the current Recovery division; 
and (3) a Disaster Operations Directorate incorporating the existing 
FEMA Response Division and elements from the Preparedness Directorate's 
National Preparedness Task Force. These three entities within FEMA will 
be headed by Assistant Administrators. FEMA will also maintain 
directorates that focus more clearly on broader issues of preparedness, 
protection and mitigation, including the National Continuity Programs 
Directorate (formerly Office of National Security Coordination), and 
the Mitigation Directorate. Both will be headed by Assistant 
Administrators.
    I am also pleased to report that FEMA will establish a Disability 
Coordinator. The new position works with both the Disaster Assistance 
and Disaster Operations Directorate, ensuring that we incorporate 
considerations for the disabled in how we plan, respond and recover 
from disasters. The selection will be made following consultation with 
appropriate groups including disability interest groups as well as 
State, local and tribal groups. The Disability Coordinator is charged 
with assessing the coordination of emergency management policies and 
practices with the needs of individuals with disabilities, including 
training, accessibility of entry, transportation, media outreach, and 
general coordination and dissemination of model best practices, 
including evacuation planning. The Disability Coordinator will work 
closely with the Department's Office of Civil Rights and Civil 
Liberties.
    The Act also requires that a National Advisory Council be created, 
the members of which will be appointed by the FEMA Administrator. The 
Council has already been established and membership is being sought. 
Also to be appointed within FEMA will be a Small State and Rural 
Advocate who will work within the Office of External Affairs. The Small 
State and Rural Advocate will be an advocate for the fair treatment of 
small States and rural communities.
    Under this reorganization, both the DHS Office of State and Local 
Government Coordination and the Office of Faith-Based Initiatives 
transfer to FEMA on March 31, 2007.
    FEMA's headquarters administrative offices, which existed within 
FEMA on the date of enactment of the Post-Katrina Act (October 4, 
2006), including the Executive Secretariat, the Office of Chief 
Counsel, the Office of Management (Human Resources, Information 
Technology, Acquisition and Facilities Management), the Office of the 
Chief Financial Officer, and the Office of Equal Rights, will report to 
the Administrator through the Deputy Administrator/Chief Operating 
Officer. Operational and policy offices, including a new Law 
Enforcement Advisor to the Administrator and the Office of Policy and 
Program Analysis, will also report through the Deputy Administrator/
Chief Operating Officer. FEMA will consolidate several former offices 
into a new Office of External Affairs, which will incorporate the 
Public Affairs, Legislative Affairs, Intergovernmental Affairs, and 
International Affairs offices.
    In the FY07 DHS Appropriations Act, $6.459 million was appropriated 
for the ``National Preparedness Integration Program'' (NPIP). DHS will 
be submitting an expenditure plan describing how the funding will be 
used.

FEMA Regional Offices
    The Act codifies and expands FEMA's regional office structure. The 
ten Regional Administrators provided for in the Act will report 
directly to the Administrator, and will be supported and coordinated by 
an Associate Deputy Administrator at FEMA headquarters. At the regional 
level, the Act provides for the creation of Regional Advisory Councils 
and at least one Regional Office Strike Team. The Regional Advisory 
Councils will provide advice and recommendations to the Regional 
Administrators on regional emergency management issues and identify 
weaknesses or deficiencies in preparedness, protection, response, 
recovery and mitigation for State, local and tribal governments based 
on their specialized knowledge of the region. The statute also 
establishes area offices for the Pacific and Caribbean jurisdictions as 
well as for Alaska in the appropriate regional offices.
    The Act also transfers the DHS Office of National Capital Region 
Coordination (NCRC) to FEMA. NCRC will continue its work with 
stakeholders to address the unique challenge resolving inter-agency and 
multi-jurisdictional issues of the National Capital Region. NCRC will 
report to the Administrator through the Deputy Administrator/Chief 
Operating Officer, but it will be supported as needed by the Associate 
Deputy Administrator who works with the FEMA Regions.

The New FEMA Missions
    As of March 31, 2007, FEMA will have the responsibility to lead and 
support efforts to reduce the loss of life and property and protect the 
nation from all hazards through a risk-based system that focuses on the 
expanded comprehensive emergency management components of preparedness, 
response, recovery, and hazard mitigation. The statute also addresses a 
fifth component--protection; FEMA will work closely with the 
Department's Office of Infrastructure Protection to help fulfill 
protection responsibilities through training, grants, planning, and 
other means.
    Among the specific activities given to FEMA in the Act are the 
following:
        <bullet> leading the nation's comprehensive emergency 
        management efforts (including protection) for all hazards, 
        including catastrophic incidents;
        <bullet> partnering with non-federal entities to build a 
        national emergency management system;
        <bullet> developing federal response capabilities;
        <bullet> integrating FEMA's comprehensive emergency management 
        responsibilities;
        <bullet> building robust regional offices to address regional 
        priorities;
        <bullet> using DHS resources under the Secretary's leadership;
        <bullet> building non-federal emergency management 
        capabilities, including those involving communications; and
        <bullet> developing and coordinating the implementation of a 
        risk-based all hazards preparedness strategy that addresses the 
        unique needs of certain incidents.
    The Act added responsibilities, including ensuring first responder 
effectiveness, supervising grants, administering and implementing the 
NRP, preparing and implementing Federal continuity of government and 
operations plans, and maintaining and operating the National Response 
Coordination Center, among others.

Incorporating Preparedness Into the New FEMA
    FEMA is focused on incorporating the concept of preparedness into 
all of our programs and making the protection and preparedness missions 
an integral part of a new, coherent Agency organization in support of a 
comprehensive National Preparedness and Emergency Management System. 
Given the desire to take advantage of this opportunity to identify and 
incorporate the synergies that Congress envisioned for New FEMA, we 
have established a FEMA--Preparedness--DHS Senior Leadership Team to 
guide this transition effort. We have also established a number of 
functional teams to address the major transition management issues in 
the areas of personnel, finance, and information technology among 
others. We are reaching out for consultation and collaboration to other 
DHS components; the Federal interagency community; Congress; the White 
House; key emergency management, law enforcement and preparedness 
organizations; the policy community; and State, local and private 
sector leaders. We anticipate completing the administrative actions 
needed to integrate FEMA and preparedness organizationally by March 31, 
2007, while full integration of FEMA and preparedness functions will be 
an ongoing effort over the months following.

    Our approach to the creation of the ``New FEMA'' is designed to:
        <bullet> Incorporate lessons learned and best practices into 
        the new organization with a focus on core competencies to build 
        a strong foundation for maximum effectiveness from the start;
        <bullet> Ensure a unified approach to the incorporation of 
        protection, preparedness, response, recovery and mitigation 
        principles in foundational doctrines/documents such as the NRP, 
        NIMS, the National Preparedness Goal, and the Target 
        Capabilities List;
        <bullet> Employ new technologies where appropriate to enhance 
        capabilities and efficiencies of services. In strong 
        partnership with the Science and Technology Directorate using 
        their CAPSTONE IPT process, the new FEMA will provide clear 
        direction on the priority mission capability gaps so as to 
        focus technology solutions to meet the highest priority 
        incident management and first responder emergency 
        communications requirements.
        <bullet> Develop strong partnerships with other DHS components, 
        the Federal interagency community, State, local and private 
        sector leaders, and other non-governmental organizations in 
        support of a comprehensive approach to protection, 
        preparedness, response, recovery and mitigation efforts 
        incorporating performance-based operating principles;
        <bullet> Emphasize increased ability to fully address terrorist 
        and other man-made acts as well as natural disasters - a risk-
        based all-hazards approach;
        <bullet> Strengthen the culture of customer service, reinforced 
        by best in class business practices for internal and external 
        delivery of service;
        <bullet> Support development of a more robust national 
        emergency management system and an expanded and coordinated 
        ``Culture of Preparedness'' to engage all Americans and to 
        build on the efforts of Under Secretary Foresman in helping the 
        Nation address the multitude of challenges we face; and
        <bullet> Build strong regions as the essential field component 
        that engages most directly with State and local partners, 
        disaster victims, and the general public to both increase State 
        and local preparedness and response capabilities to incidents 
        when they occur.

What It All Means
    At the end of the day, one could logically ask the question: What 
does a ``New'' FEMA mean for the American Public?
    In my view, it means that we will offer the American public a FEMA 
that will in fact, become the Nation's preeminent emergency management 
agency. The New FEMA will develop operational core competencies and be 
strengthened by a dedicated and professional workforce that will be 
fully capable of:
        <bullet> Leading the Nation to better prepare against the risk 
        of an all-hazard disaster;
        <bullet> Marshalling an effective national response and 
        recovery effort;
        <bullet> Reducing the vulnerability to life and property;
        <bullet> Speeding the recovery of communities and individual 
        disaster victims; and,
        <bullet> Instilling public confidence at the time that is 
        needed most--in the hours and days following a disaster.
    New FEMA will be in touch with America, and be valued across all 
jurisdictions--Federal, State, local and tribal, and by the private 
sector and other non-governmental organizations, as an engaged, agile 
and responsive leader and partner in preparedness and emergency 
management.
    Should a disaster appear imminent, or even strike without warning, 
we will be prepared to work immediately with State and local officials. 
FEMA senior and regional staff will be in constant contact with our 
partners in State and local government as well as our colleagues in the 
Department and throughout the Federal government. We will preposition 
equipment and supplies and we will know what we have and where it is. 
Items will be moved to disaster scenes even before a request or a 
declaration is made, so that if they are needed, they are ready to 
deploy and use. We will execute the plans that we will have developed 
as collaborative partners in advance.
    When the immediate threat has passed, FEMA will be on the ground 
immediately to assess requirements for Federal assistance and then 
quickly provide that response and recovery assistance to State and 
local governments and individual disaster victims. Mobile facilities 
will arrive to register victims so that an individual assistance can be 
quickly available where needed. We will be able to help more people 
more quickly, and with greater protection against waste, fraud and 
abuse.
    First responders will also be better prepared, as they receive 
additional funds through grants and training that contribute measurably 
to enhanced preparedness, whether through the U.S. Fire Administration 
or by other FEMA staff. Planning for disasters will also improve as 
State and local officials receive hands-on assistance from FEMA staff. 
The public will have greater confidence in the abilities of their 
tribal, State and local officials as they see more and more of their 
leaders trained and certified in emergency management, and more and 
more of their first responders receiving similar and expanded training 
that meets their own needs.
    In short, the ``New'' FEMA will be more agile, significantly 
stronger, and leaning more forward to deliver assistance more 
effectively than before. We have heard you and are acting on what you 
have asked us to do. FEMA will be ready to take a leadership role where 
needed, provide support where appropriate and be on-hand across the 
country before and after any major event--that I commit to you.
    Thank you for your time today and I look forward to answering your 
questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Cuellar. Okay, thank you.
    I am going to ask all of the witnesses to summarize their 
statements, and then after that we will go onto questioning.
    Again, thank you very much, Mr. Paulison, for being here 
with us and for your testimony.
    I now recognize the undersecretary, Mr. Foresman, to 
summarize his statement for 5 minutes. Thank you, and welcome.

    STATEMENT OF HON. GEORGE FORESMAN, UNDER SECRETARY FOR 
         PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Foresman. Thank you, Mr. Chairman and members of the 
committee. Thank you for the opportunity to appear today.
    Clearly, we are here to discuss the department's progress 
in implementing organizational changes directed by Congress 
that reflect both the maturing nature of the Department of 
Homeland Security in the face of a much better understood risk 
environment in the 21st century, as well as the lessons that we 
have all collectively learned from Hurricane Katrina.
    In an interconnected and interdependent global economy, 
managing risk requires adaptability to a wide range of 
individual scenarios. These scenarios unite to create a very 
complex risk environment when it comes to protecting America.
    This risk environment is dynamic. And DHS's approach to 
managing this risk environment must be equally dynamic.
    This means making tough-minded assessments and recognizing 
that it is simply not possible to eliminate every threat, to 
every individual, in every place, at every moment. Simply put, 
we cannot completely eliminate risk in our lives. Therefore, we 
must attempt to manage it in a sensible way that offers the 
best possible level of protection to our citizens, our 
infrastructure, and our economy.
    So how do we do this? Well, I can tell you that there is no 
one action alone that will allow us to effectively manage all 
of America's risk. The work that Chief Paulison and the men and 
women of the new FEMA undertake is a vital component in 
response and recovery when events occur.
    So is the work of the Coast Guard, Customs and Border 
Protection, US-VISIT, our Office of Infrastructure Protection, 
Cybersecurity and Communications, to name just a few, along 
with a host of other DHS and non-DHS entities.
    Fully protecting America, as was envisioned when the 
Department of Homeland Security was created, is about 
understanding current risk and assessing the likely future risk 
in the 21st century.
    It is in this vein that the secretary took the opportunity 
presented by the congressionally directed organizational 
changes that have resulted in the organizational changes that 
Chief Paulison has just talked about, but the secretary also 
used this as an opportunity to assess the overall structure of 
the department, which led to the creation of the National 
Protection and Programs Directorate, or the NPDD, and the 
Office of Health Affairs.
    These changes are illustrative of the continuing maturity 
of DHS, as the threat and the risk environment continues to 
evolve. The National Protection and Programs Directorate 
comprises the Office of Infrastructure Protection, the Office 
of Cybersecurity and Communications, Intergovernmental 
Programs, all legacy preparedness directorate functions, along 
with US-VISIT, and the new Office of Risk Management and 
Analysis.
    The Risk Management and Analysis Office will lead the 
department's efforts to establish a common framework for 
addressing the overall management and analysis of the homeland 
security risk. This program will develop a coordinated, 
collaborative approach to risk management that will allow the 
department to leverage and integrate risk expertise across 
components and external stakeholders.
    Because of the department's exceptional understanding of 
this complex, strategic risk environment, we are developing 
tangible actions in amalgamating activities across the 
continuum of government and private-sector partners, in terms 
of the creation of the NPPD.
    The secretary is placing US-VISIT into this new directorate 
in recognition of the fact that US-VISIT has evolved from 
simply a border control program that addresses a specific, 
congressional mandate to a program that is now an asset for the 
entire department and, frankly, an asset well outside of the 
department.
    Furthermore, US-VISIT will support coordination for the 
directorate's mission and strengthen DHS management oversight 
of its important activities. When one fully considers the 
mission of US-VISIT, it is evident that its movement within the 
NPPD will strengthen the overarching mission of the department: 
to protect our nation from harm and protect our nation from 
those who would seek to do us harm.
    NPPD is a service tool for the entire department, in the 
context of protecting America's critical infrastructure, key 
resources and people, specifically synchronizing these 
activities across the department.
    Mr. Chairman, ranking members, members of the committee, I 
would say to you that progress is being made on many fronts in 
securing our borders, fusing intelligence, improving response 
and recovery, and many other activities. Each continues to 
contribute to protecting our nation.
    However, these achievements represent the obvious steps 
that were recognized in the post-9/11 and post-Katrina 
environments. When our approaches to their implementation was 
virtually ``everything goes'' approach, what we called in the 
old days in the fire service ``surround and drown,'' our 
national resources are not limitless.
    Protecting America is about making wise and informed 
choices. It is about allowing the capabilities of any one part 
of our national homeland security apparatus to be interwoven in 
order to integrate and synchronize our national protection 
efforts.
    In closing, I want to acknowledge the tremendous progress 
that has been made by components of the current Preparedness 
Directorate that will soon realign to FEMA. What is important 
is: They are not leaving the department. Their reporting simply 
will be different within our organizational structure.
    This is purpose for America, because it will allow the 
department to remain united and resolute to address the 
challenges in protecting this nation in the face of a very 
complex and evolving, 21st-century threat environment.
    Thank you for your time this morning, and I look forward to 
your questions.
    [The statement of Mr. Foresman follows:]

Prepared Statement of the Honorable George W. Foresman, Under Secretary 
           for Preparedness, Department of Homeland Security

    Good morning Chairmen Cuellar and Carney, Ranking Members Dent and 
Rogers, Members of the Subcommittee. Thank you for the opportunity to 
appear before you to discuss the National Protection and Programs 
Directorate (NPPD).

    Strategic Risk Environment
    Secretary Chertoff and the Department continue to progress in many 
areas to manage our full environment of 21st century risk. Our mission 
is straightforward and guided by five goals:
        Goal 1. Protect our Nation from Dangerous People
        Goal 2. Protect our Nation from Dangerous Goods
        Goal 3. Protect Critical Infrastructure
        Goal 4. Build a Nimble, Effective Emergency Response System and 
        a Culture of Preparedness
        Goal 5. Strengthen and Unify DHS Operations and Management
    Transforming these broad goals into actual results is a complex 
undertaking. As Congress acknowledged last week with the passage of 
House Resolution 134, more than 200,000 Department of Homeland Security 
(DHS) employees are working tirelessly along with their partners across 
government and the private sector to protect America, its people, and 
its infrastructure.
    The risks that we face come in many forms. Recent attention to the 
lessons of the August '06 British Air plot and Hurricane Katrina remind 
us of the wide range of hazards we face. These were headline grabbing 
events. Equally important but maybe lesser known are situations where 
vulnerabilities of infrastructure and information technology systems 
have manifested themselves.
    In an interconnected and interdependent global economy, managing 
risk requires adaptability to a wide range of individual scenarios. 
These scenarios unite to create a very complex risk environment when it 
comes to protecting America. The risk environment is dynamic and DHS's 
approach to managing this risk environment must be equally dynamic.
    This approach is focused on the most significant risks, we apply 
resources in the most practical way possible to prevent, protect 
against, and respond to manmade and natural hazards. That means making 
tough-minded assessments, and recognizing that it is simply not 
possible to eliminate every threat to every individual in every place 
at every moment.
    The Department manages risk across a broad spectrum transcending 
borders and multiple hazards. Discipline is required to assess threats, 
review vulnerabilities, and weigh consequences; we then have to balance 
and prioritize our resources against those risks so that we can ensure 
that our Nation is protected.
    Throughout our Nation's history, natural disasters have served as 
lessons for how to prepare for and respond to the next earthquake, 
tornado, flood, or hurricane.
    Decades of experience in dealing with a sheer number of natural 
disasters globally, has provided sufficient data to understand their 
risk. By contrast, there have been far fewer terrorist events globally 
making our comprehension of risk less substantial.
    DHS is focused on those possible terrorist events that pose the 
greatest potential consequences to human life and to the continuity of 
our society. At the top of that list is the threat of weapons of mass 
destruction. Weapons of mass destruction are weapons that, if used, 
could have a devastating effect on this country. Preventing the 
introduction and use of those weapons has to be the number one focus in 
the years to come.
    We also must continue to guard against infiltration of this country 
by international terrorists who have the capability and intent to cause 
damage to the functioning of this country by engaging in multiple 
deadly attacks on people and our economy. And the illustration of this 
kind of a scenario is the plot in London that was uncovered last 
summer. Had it been successful, it would have cost the lives of 
thousands of people and had the potential to have raised a significant 
blow against the functioning of our entire system of international 
trade and travel.
    But even as we look at these dangerous threats, we have to be 
mindful of something else: the potential for home-grown acts of 
terrorism. We have to recognize that there are individuals who 
sympathize with terrorist organizations or embrace their ideology, and 
are prepared to use violence as a means to promote a radical, violent 
agenda. To minimize this potential emerging threat, we have to work 
across Federal, State and local jurisdictions to prevent domestic 
radicalization and terrorism.
    Risk is interdependent and interconnected--across communities to 
nations and must be managed accordingly. For example, a port closure or 
multiple port closures will not only have an impact on that port area, 
but also impact manufacturing facilities thousands of miles away that 
depend on the timely delivery of materials. One of the best examples of 
this interdependency is petroleum refinery capacity along the Gulf 
Coast following Hurricane Katrina. The day before Hurricane Katrina, 
Houston, Texas produced 25 percent of the Nation's petroleum. The day 
after Hurricane Katrina, with the facilities closed along the Gulf 
Coast, Houston was forced to produce 47 percent of the nation's 
petroleum. These examples demonstrate how significant supply chain 
interdependencies are in managing a full range of risk. So we 
understand that managing risk requires us to look at a broad continuum 
across a wide geographical area.
    The National Protection and Programs Directorate must be prepared 
to meet these challenges.

    NPPD Mission and Overview
    The NPPD will comprise the Office of Infrastructure Protection 
(IP), the Office of Cyber Security and Communications (CS&C), the 
United States Visitor and Immigrant Status Indicator Technology (US-
VISIT) program, the Office of Intergovernmental Programs, and the 
Office of Risk Management and Analysis. This new Directorate will allow 
the Department to serve as a focal point in enhancing the protection of 
America by interlacing key programs based on risk.
    Currently, there are multiple components within DHS working 
independently to reduce our comprehensive risk. Three of these 
components will be located in NPPD--IP, which addresses physical risks; 
CS&C, which addresses cyber risks; and US-VISIT, which addresses human 
risks. All three of these offices use the same approach in reducing 
risk by utilizing data gathering, data analysis, and dissemination of 
information to operators.
    The overarching responsibilities of NPPD are to enhance the 
protection of national assets, key resources, and people by countering 
threats whether they are physical, cyber or human. This will be 
accomplished by advancing the Department's risk-reduction mission and 
through identification of threats and vulnerabilities to infrastructure 
and people. In addition, NPPD will synchronize risk-mitigation 
strategies and Departmental doctrine for protecting America.

    The NPPD responsibilities include:
        <bullet> Promoting an integrated national approach to homeland 
        security protection activities and verifying the approach and 
        strategy via program metrics to assess performance and outcomes 
        against mission goals;
        <bullet> Protecting people and the Nation's critical 
        infrastructure;
        <bullet> Ensuring operable and interoperable systems and 
        networks to support emergency communications through a full 
        spectrum of conditions;
        <bullet> Promoting cyber security
        <bullet> Standardizing risk management approaches applied 
        across the Department to ensure polices, programs, and 
        resources are driven by a consistent methodology; and
        <bullet> Enhancing the security of citizens and people 
        traveling to the United States through the use of biometric 
        capabilities.

    NPPD will serve the public through these major program activities:
    Infrastructure Protection (IP): IP is focused on securing the 
nation's critical infrastructure through the identification of threats, 
consequences, and vulnerabilities and through the development of 
mitigation strategies. Additionally, this activity provides the primary 
defense against attacks on our nation's critical infrastructure and key 
resources through robust real-time monitoring and incident response.
    Cyber Security and Communications (CS&C): CS&C defends the Nation 
against virtual or cyber attacks, and incorporates cyber security, 
promotes operable and interoperable communications for emergency 
communications. CS&C identifies cyber-based threats, vulnerabilities, 
and the consequences of successful attacks. It also ensures the 
availability and interoperability of information technology (IT) and 
Communications through the National Communications System (NCS) and the 
Office of Emergency Communications (OEC).
    As part of CS&C, the OEC will work closely with NCS, FEMA, other 
DHS components, and our Federal, State, local, and tribal partners to 
improve emergency interoperable communications nationwide. The OEC 
consolidates the Interoperable Communications Technical Assistance 
Program and the Integrated Wireless Network program to better integrate 
the Department's emergency communications planning, preparedness, 
protection, crisis management, and recovery capabilities across the 
Nation.
    United States Visitor and Immigrant Status Indicator Technology 
(US-VISIT): Through its deployment of biometric capture and watch list 
matching capabilities to State Department visa-issuing posts worldwide, 
U.S. air, land, and sea ports of entry, and U.S. Citizenship and 
Immigration Services (USCIS) immigration benefit offices within the 
U.S., US-VISIT supports safe and legitimate travel to the United 
States. It helps prevent document fraud and identity theft that 
threaten the integrity of the immigration process and the safety of 
foreign visitors. US-VISIT also provides key information to law 
enforcement, border officials, and other decision makers about persons 
they may encounter in the line of duty, thus protecting their safety 
and that of U.S. citizens.
    Risk Management and Analysis Office: The Risk Management and 
Analysis Office will lead the Department's efforts to establish a 
common framework to address the overall management and analysis of 
homeland security risk. This program will develop a coordinated, 
collaborative approach to risk management that will allow the 
Department to leverage and integrate risk expertise across components 
and external stakeholders.
    The Office of Intergovernmental Affairs: Handles communications and 
coordination activities among State, local, and tribal disciplines 
across the spectrum of issues confronting all 22 agencies and 
components of DHS. Daily activities regularly involve contact with, for 
example, the Coast Guard, Transportation Security Administration, 
Secret Service, Customs and Border Protection/Border Patrol, USCIS, 
FEMA--the entire gamut of service providers at DHS--on a host of issues 
that impact our State and local partners. The Office of 
Intergovernmental Affairs will liaise with the Secretary, senior DHS 
leadership and their counterparts across the Nation at the State, 
local, tribal and territorial levels.
    National Protection Planning Office (NPPO): The NPPO will develop 
doctrine for synchronization of national and regional-level protection 
plans and actions across Federal, State, local, and private sectors 
regarding the assessment of both physical and cyber critical 
infrastructure and key resources. It will develop and coordinate 
performance metrics to measure progress in reducing the risk to 
critical infrastructure and key resources. The NPPO will work with 
other DHS components to synchronize approaches to methodology and 
develop doctrine for DHS-wide operational planning. This office will 
perform cross-sector analysis, such as understanding the potential 
cascading effects from one sector to another, and recommending 
approaches to reduce impacts. In addition the NPPO will work across 
jurisdictions and across borders.

    Preparedness Progress to Date
    Mr. Chairman I understand the importance of this Subcommittee 
having the most current, up-to-date information and I would like to 
highlight for you some important progress made by the Preparedness 
Directorate as we transition into the NPPD.
    Risk Analysis for Grants Process: The Department has made 
refinements to the data inputs for the risk methodology, taking into 
account expert judgment, and feedback from Federal, State, and local 
partners--all with the goal of better understanding risk associated 
with populations and critical infrastructure.
    For example, for critical infrastructure, we looked at nine 
different variables for each of 260,000 assets in 48 asset classes in 
FY 2006; and in FY 2007 drew upon a comprehensive national process 
involving States and sector-specific agencies to arrive at a much more 
concise list of 2,100 nationally critical assets, streamlining the risk 
analysis used in the grants determination process.
    The National Infrastructure Protection Plan (NIPP): The NIPP is a 
comprehensive risk management framework that clearly defines critical 
infrastructure protection roles and responsibilities for all levels of 
government, private industry, nongovernmental agencies and tribal 
partners. Seventeen Sector Specific Plans have been completed and are 
currently being reviewed by the Department as part of the NIPP 
progress.
    Chemical Regulation Authority: DHS was given the authority by 
Congress to implement risk-based security standards for chemical 
facilities that present high levels of security risk. This new 
authority will allow the Department to recognize the significant 
investments that responsible facilities have made in security, and the 
ability to ensure that high-risk facilities have adequate safeguards in 
place.&
    Buffer Zone Protection Plans: In 2006, 58 percent of identified 
critical infrastructure had implemented Buffer Zone Protection (BZP) 
Plans, up significantly from our FY 2005 percentage of 18 percent. The 
Department worked in collaboration with State, local, and tribal 
entities by providing training workshops, seminars, technical 
assistance and a common template to standardize the BZP plan 
development process.
    Cyber Security and Communications (CS&C): DHS' CS&C is aligning to 
form a cohesive organization to ensure the security, resiliency, and 
reliability of the Nation's cyber and communications infrastructure in 
collaboration with multiple public and private sectors, including 
international partners. Under CS&C the Department has expanded its 
focus on critical cyber exercising, grants, and management activities.
    Interoperability: In December, DHS released the findings of the 
national baseline survey, which was the first-ever nationwide 
assessment of interoperability across our country. We engaged more than 
22,000 State and local law enforcement, fire response, and emergency 
medical service agencies in developing the baseline. The results of the 
survey show that two-thirds of first responder agencies report using 
communications interoperability to some degree in their operations. 
While this is promising, the results also demonstrate that while the 
necessary technology is largely available, much work needs to be done 
in the areas of governance, standard operating procedures, training and 
exercises, and usage. In addition, this baseline survey:
        <bullet> Determined the capacity for interoperable 
        communications among law enforcement, fire, and EMS agencies 
        across the Nation;
        <bullet> Established a process and mechanism to facilitate 
        regular measures of communications interoperability;
        <bullet> Generated data to help emergency response agencies 
        make better-informed decisions about how to most effectively 
        allocate resources for improving communications 
        interoperability; and
        <bullet> Gathered information to inform future efforts for 
        education, incentives, and planning needed to continue 
        improving interoperability capabilities across the country.
    Tactical Interoperable Communication Scorecards: DHS issued 
scorecards for the 75 largest Urban/Metropolitan Areas. These 
scorecards measured the ability of Urban/Metropolitan Areas to provide 
tactical (within one hour) communications capabilities to first 
responders. This process included the creation of a Tactical 
Interoperable Communications Plan peer evaluation, full-scale exercise, 
and after action reports. Key findings include:
        <bullet> Policies for interoperable communications are now in 
        place in all 75 urban and metropolitan areas;
        <bullet> Regular testing and exercises are needed to link 
        disparate systems effectively to allow communications between 
        multi-jurisdictional responders (including State and Federal); 
        and
        <bullet> Cooperation among first responders in the field is 
        strong, but formalized governance (leadership and strategic 
        planning) across regions has lagged.
    The Nationwide Plan Review: DHS completed visits to 131 sites (50 
States, 6 territories, and 75 major urban areas) and reviewed the 
disaster and evacuation plans for each. These reviews will allow DHS, 
States and urban areas to identify deficiencies and improve 
catastrophic planning.
    Collaboration with the Private Sector: DHS has engaged the private 
sector on a number of preparedness and risk mitigation strategies:
    International Cooperation: Partnerships with the World Bank, World 
Economic Forum, and United Nations on forums focused on public-private 
partnerships in disaster risk reduction.
    DHS also engaged with key allies on cyber security information 
sharing, as well as other multilateral and international standards 
organizations such as the Asia Pacific Economic Cooperation, 
Organization of Economic Cooperation and Development, and International 
Telecommunication Union, to raise awareness about cyber security and 
telecommunications standards.
    Ready.gov Business: DHS collaborated with the business community on 
Emergency and Business continuity planning, and on private sector 
preparedness.
    Chief Information Office: Last year the Preparedness Directorate 
was faced with the Department-wide challenge of bringing all of the IT 
systems within the Directorate into compliance with Federal Information 
Security Management Act (FISMA) requirements. The effort to reach FISMA 
compliance required a full-scale remediation effort to achieve security 
certification and accreditation for the complete inventory of 
Preparedness systems. The Preparedness FISMA grade went from being just 
8% compliant in June 2006, to 99 percent compliant in October 2006.
    This type of progress is significant, but I think we all agree that 
there is more to do--as we all desire a safer, more secure America. 
Organizational changes within the Department withstanding, this mission 
remains unchanged.
    Change is never easy and one thing that we intuitively know about 
this environment that we find ourselves in today is it is anything but 
static. We are building on the significant momentum realized and 
progress achieved, to promote the ideals of what the Department was 
established to do--provide for the protection of America and those who 
live within its borders.

    Closing
    Mr. Chairman, events such as Hurricane Andrew, the Midwest Floods, 
the bombings of the World Trade Center and Murrah Federal Building, and 
more recently September 11th and Hurricane Katrina have granted 
professionals across the Federal interagency community, as well as at 
State, and local levels an immense amount of experience in managing 
response and recovery efforts.
    Traditionally, response and recovery involves dealing with defined 
aspects of an emergency, such as location, size and scale of damage, 
number of people involved, facilities and infrastructure affected.
    Prevention and protection present a much more nebulous and 
imprecise environment.
    Therefore, it necessitates an approach to securing our nation that 
includes the broadest range possible for the full 21st century 
continuum of risk. NPPD's strategic risk management responsibility 
encompasses a large spectrum of risk, which includes both economic 
ramifications and risk to human life. It is not confined to physical 
borders or corporeal infrastructure.
    And at the end of the day--whether our threat comes from our 
enemies abroad or at home, or from nature, the American people expect 
that local, State, and Federal government and the private sector are 
going to cooperate to deal with the challenges that confront them. 
These early stages of coordinating the expansive spectrum of risk for 
protecting the Nation will help to catalyze a national transformation 
for how we prepare America for the risks of the 21st century.
    I would like to thank the Subcommittee for its time today and I 
welcome your perspective on the themes I have articulated.

    Mr. Cuellar. Thank you again for your testimony and being 
here with us.
    I now recognize Mr. Matt Jadacki, deputy inspector general 
of the Office of Disaster Assistance Oversight, to summarize 
his statement for 5 minutes.
    And welcome.

STATEMENT OF MATT JADACKI, DEPUTY INSPECTOR GENERAL, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Jadacki. Good morning, Mr. Chairman, members of the 
subcommittee. Thank you for the opportunity to discuss FEMA 
reforms and its major?challenges.
    It was DHS's failures after Hurricane Katrina ravaged the 
Gulf Coast that brought to light to Congress and the general 
public some of the longstanding problems within FEMA. Many of 
the problems existed for years but had not received attention, 
because FEMA had never before dealt with such a devastating 
disaster.
    Today, I will highlight some of the management challenges 
FEMA needs to address in order to successfully implement the 
congressional reforms, improve its response and recovery 
capabilities, and meet the needs of American citizens in times 
of crisis.
    We cannot overlook that FEMA is still recovering from the 
effects of the Gulf Coast hurricanes. As a result of the 
disaster, FEMA's systems were strained and experienced staff 
left in droves, while workloads increased. These strains 
continue today.
    However, FEMA has embarked on a number of internal 
assessments to improve its operations. Staff levels have 
increased, and, more importantly, FEMA is establishing a solid 
management team, with extension emergency management experience 
to implement these reforms.
    Is FEMA making progress? Yes, but much more needs to be 
done.
    The Gulf Coast hurricanes revealed shortcomings in FEMA 
disaster relief operations and programs, including disaster 
housing, mission assignments, grants and acquisition 
management, the National Flood Insurance Program, internal 
controls, fraud detection and prevention programs, and command 
and control issues under the National Response Plan.
    My testimony addresses these areas, but there are many 
additional challenges facing FEMA that will require 
considerable effort and resources.
    One of the most significant problems FEMA faced in the 
aftermath of Hurricane Katrina was assisting, sheltering, and 
evacuating housing evacuees. Never before have so many people 
been displaced for such an extended period of time.
    FEMA's existing programs were inadequate, and efforts to 
house victims in travel trailers and mobile homes were not 
well-managed. The number of victims also overwhelmed FEMA's 
system for verifying identities and providing individual 
assistance payments. The result of FEMA's efforts to speed up 
the process resulted in widespread fraud.
    In February 2006, we reported on weaknesses in FEMA's 
registration intake controls and made recommended actions to 
improve them. FEMA has improved the intake process and 
increased systems capability, but the changes are untested and 
may not be sufficient to address existing deficiencies. We will 
continue to work with FEMA to find solutions to be better 
prepared.
    FEMA also faces significant challenges in management 
oversight of its disaster assistance grants program, as well as 
the DHS grants program that will become part of FEMA on April 
1, 2007. Compounding the challenge or that grant programs of 
other federal agencies that assist states and local governments 
in improving their abilities to prepare for, respond to, and 
recover from acts of terrorism or natural disasters.
    Congress continues to appropriate and authorize funding for 
grant programs within and outside DHS for similar, if not 
identical, purposes. We have identified at least 36 federal 
assistance programs that may duplicate FEMA's grant programs.
    As part of its expanded role and responsibility for grants 
management, FEMA must coordinate and manage grants that are 
stove-piped for specific, but often related, purposes to ensure 
that the grants are contributing to our national preparedness 
goals and recovery from disasters, rather than duplicating one 
another or being wasted on low-priority capabilities.
    Acquisition management involves more than just awarding a 
contract. It is critical to fulfilling a mission need through a 
thoughtful, balanced approach, that considers cost, schedule 
and performance. The urgency of FEMA's mission will continue to 
place demands on its ability to effectively manage 
acquisitions.
    In 2006, FEMA spent a large percentage of its budgets on 
contracts. We have focused substantial efforts on FEMA's 
contracting and have identified numerous problems. FEMA is not 
well-prepared to provide the kind of acquisition support needed 
for a catastrophic disaster, due to inadequate acquisition 
planning and preparation for many critical needs, lack of 
clearly communicated acquisition responsibilities among FEMA 
and other federal agencies, and insufficient numbers of 
acquisition personnel to manage and oversee contracts.
    The National Flood Insurance Program has issues, also. As a 
result of the Gulf Coast flood, the National Flood Insurance 
Program paid claims in excess of $20 billion, most of which was 
borrowed from the Treasury Department. Heavy borrowing, 
financial uncertainty, outdated flood maps, and other problems 
continue to plague the program.
    In addition, the National Flood Insurance Program is now on 
the Government Accountability's high-risk list.
    Fraud prevention and detection, in the wake of Hurricane 
Katrina, information sharing was poor to nonexistent. There is 
a need for data-sharing in three areas: real-time data exchange 
among the agencies to simply the application process to victims 
and to help identify eligibility of applicants for disaster 
assistance; direct access to FEMA data by law enforcement 
agencies to identify and track convicted sex offenders and 
suspected felons, and help locate missing children; and 
computer matching to help prevent duplicative programs and 
identify fraud.
    FEMA is moving in the right direction on these issues. And 
I look forward to talking about that.
    In summary, the management challenge that I have described 
above are not all-inclusive. Integrating the preparedness 
programs, meeting the reporting requirements of Congress, 
improving accountability, increasing transparency, and building 
a solid logistics capability are also critical improvements 
that will require significant resources and effort.
    FEMA leadership is making progress is resolving these 
challenges. We will continue to review FEMA's progress, help it 
focus on critical issues, and facilitate solutions to 
significantly improve its ability to carry out its mission and 
to coordinate disaster response and recovery efforts.
    Mr. Chairman, this concludes my prepared remarks. I will be 
pleased to answer any questions you or other subcommittee 
members may have.
    [The statement of Mr. Jadacki follows:]

                   Prepared Statement of Matt Jadacki

    Good morning, Mr. Chairman and Members of the Subcommittees.
    My name is Matt Jadacki. I am the Deputy Inspector General for 
Disaster Assistance Oversight in the Office of Inspector General for 
the Department of Homeland Security (DHS). Thank you for the 
opportunity to discuss the major management challenges facing the 
reform of the Federal Emergency Management Agency (FEMA).
    With the creation of DHS in 2003, FEMA was absorbed and became part 
of the Emergency Preparedness and Response Directorate. In the 
aftermath of the 2005 Gulf Coast Hurricanes, FEMA received much 
criticism for its handling of the disaster. To address perceived 
deficiencies, Congress passed the Post-Katrina Emergency Management 
Reform Act of 2006 as Title VI of the FY 2007 Homeland Security 
Appropriations Act. These management reforms enhanced FEMA's mission 
and role as the federal government's disaster coordinator.
    The legislation transfers most Preparedness functions and programs 
to FEMA. Preparedness is one of the cornerstones of emergency 
management at the federal, state, and local level. The new legislation 
enables FEMA to restore the nexus between emergency preparedness 
functions, and response, recovery, and mitigation efforts. Together 
with this reorganization, a renewed focus on an all-hazard approach to 
disaster management will strengthen FEMA's ability to effectively 
prepare and respond to future natural or man-made disasters.
    The Reform Act also elevated FEMA's standing in DHS and afforded 
FEMA statutory protections as a distinct entity in the Department by 
preventing transfers of FEMA assets, authorities, personnel, and 
funding. We believe this is a step in the right direction. However, 
along with the increased responsibilities come additional burdens to 
FEMA's infrastructure, particularly its support organizations.
    FEMA is still recovering from the effects of the Gulf Coast 
hurricanes. FEMA's systems were strained as a result of the disaster 
and experienced staff left in droves while workloads increased. These 
strains continue, but FEMA is making progress. FEMA has embarked on a 
number of internal assessments to improve operations. Staff levels have 
increased and, more importantly, FEMA is establishing a solid 
management team with extensive emergency management expertise to 
implement reforms. In addition, improvements to information systems are 
planned and Congress has provided additional funding to enable FEMA to 
carry out its mission.
    My testimony discusses a number of management challenges FEMA needs 
to address in order to successfully implement the reforms, improve its 
response and recovery capabilities, and meet the needs of American 
citizens in times of crisis.

                         Management Challenges

    DHS's failures after Hurricane Katrina ravaged the Gulf Coast on 
August 29, 2005, illuminated longstanding problems within FEMA. Many of 
the problems existed for years, but had not received attention because 
FEMA had never before dealt with such a devastating disaster. The total 
cost of Federal response and recovery efforts could reach $200 billion 
or more. The Gulf Coast hurricanes revealed that FEMA has shortcomings 
in managing assistance and housing for evacuees, information systems, 
contracts and grants, and implementing the National Flood Insurance 
Program. We are planning additional work to assess FEMA's readiness to 
respond to future catastrophic disasters.
    DHS, including FEMA, has learned many lessons from Katrina and has 
taken steps to improve their ability to respond to catastrophic 
disasters in the future. For example, DHS and its Federal partners 
revised the Catastrophic Incident Supplement to the National Response 
Plan to establish a better-coordinated strategy for a federal response 
to a catastrophic disaster. In addition, FEMA is working to improve its 
ability to house large numbers of evacuees and supply commodities to 
disaster victims more quickly. However, these catastrophic housing and 
logistics plans must be thoroughly tested and exercised before the next 
disaster strikes.

                            Disaster Housing

    One of the most significant problems FEMA faced in the aftermath of 
Katrina was assisting, sheltering, and housing evacuees. Never before 
had so many people been displaced for such an extended period of time. 
FEMA's existing programs were inadequate and efforts to house victims 
in travel trailers and mobile homes were not well managed. The number 
of victims also overwhelmed FEMA's system for verifying identities and 
providing individual assistance payments. The result of FEMA's efforts 
to speed up this process resulted in widespread fraud. In February 
2006, we reported on weaknesses in FEMA's registration intake controls 
and recommended actions to improve them. FEMA has improved its intake 
process and increased the system's capacity, but the changes are 
untested and may not be sufficient to address existing deficiencies. We 
will continue to help FEMA find solutions to be better prepared for the 
next catastrophic disaster or even multiple disasters.
    In response to Katrina, FEMA purchased more than 24,000 mobile 
homes, 143,000 travel trailers, and 1,700 modular homes. The current 
inventory at staging areas is 63,597 units. Some of the modular homes 
were not well maintained and deteriorated over time. There are 
currently 91,402 trailers and mobile homes occupied by disaster 
victims. Some of the modular housing units have been sold and FEMA is 
considering selling others through the U.S. General Services 
Administration. As disaster victims return to permanent residences, 
hundreds of mobile homes/travel trailers are returned to FEMA each 
week. Because of the deactivations and excess inventory, FEMA is 
running out of storage space and is considering options to donate and/
or sell the units.

                          Mission Assignments

    To help with response to Hurricane Katrina, FEMA issued 
approximately 2,700 mission assignments totaling about $8.7 billion to 
Federal agencies. FEMA historically has had significant problems 
issuing, tracking, monitoring, and closing mission assignments. FEMA 
guidance on the assignments is often vague, and agencies' accounting 
practices vary significantly, causing problems with reconciling 
agencies' records to FEMA records. FEMA has developed a number of new 
pre-defined mission assignments to expedite some of the initial 
recurring response activities. In addition, FEMA's Disaster Finance 
Center is working to find a consensus among other Federal agencies on 
appropriate supporting documentation for billings. We are conducting a 
review of mission assignments to DHS agencies, and other Inspectors 
General are reviewing mission assignments to their respective agencies.

                           Grants Management

    FEMA faces a significant challenge in management/oversight of its 
disaster assistance grant program as well as the DHS grant programs 
that will become a part of FEMA on April 1, 2007. Compounding the 
challenge are the grant programs of other federal agencies that assist 
states and local governments in improving their abilities to prepare 
for, respond to, and recover from acts of terrorism or natural 
disasters. Congress continues to appropriate and authorize funding for 
grant programs within and outside of DHS for similar, if not identical, 
purposes. We have identified at least 36 federal assistance programs 
that may duplicate FEMA grant programs. As part of its expanded role 
and responsibility for grants management, FEMA must coordinate and 
manage grants that are stovepiped for specific, but often related 
purposes to ensure that these grants are contributing to our national 
preparedness goals and recovery from disasters, rather than duplicating 
one another or being wasted on low-priority capabilities.
    Given the billions of dollars appropriated annually for disaster 
and non-disaster grant programs, FEMA needs to ensure that grants 
management internal controls are in place and adhered to, and that 
grants are sufficiently monitored to achieve successful outcomes. FEMA 
also needs to ensure that, to the maximum extent possible, disaster and 
homeland security assistance goes to those states, local governments, 
private organizations, or individuals eligible to receive such 
assistance and that grantees adhere to the terms and conditions of the 
grants awards. Regarding its management of first responder grants, FEMA 
will need to build upon the Preparedness Directorate's efforts to 
refine risk-based approaches to awarding these grants to ensure that 
areas and assets representing the greatest vulnerability to the public 
are as secure as possible. FEMA must incorporate sound risk management 
principles and methodologies to successfully prepare for, respond to, 
recover from, and mitigate acts of terrorism and natural disasters.

                         Acquisition Management

    Acquisition management involves more than just awarding a contract. 
It is critical to fulfilling a mission need through a thoughtful, 
balanced approach that considers cost, schedule, and performance. The 
urgency of FEMA's mission will continue to place demands on its ability 
to effectively manage acquisitions. In 2006, FEMA spent a large 
percentage of its budget on contracts. We have focused substantial 
effort on FEMA's contracting and have identified numerous problems. 
FEMA is not well prepared to provide the kind of acquisition support 
needed for a catastrophic disaster. FEMA's overall response efforts 
suffer from:
        <bullet> Inadequate acquisition planning and preparation for 
        many crucial needs;
        <bullet> Lack of clearly communicated acquisition 
        responsibilities among FEMA, other federal agencies, and state 
        and local governments; and
        <bullet> Insufficient numbers of acquisition personnel to 
        manage and oversee contracts.
    FEMA is making progress establishing pre-disaster or standby 
contracts for goods and services required in the aftermath of a major 
disaster. When the federal government procures goods and services after 
such an event, opportunities for open competition are limited, as is 
all too often its ability to get the best possible prices. There were 
numerous and widely publicized sole source and limited competition 
contracts after Hurricane Katrina. While FEMA eventually recompeted 
most of the major contracts, it needs to continue its efforts to 
establish competitive contracts for the next catastrophic event.
    We recently reported that FEMA hastily awarded a $100 million 
contract to establish base camps in the gulf area to house and feed 
response workers. Because of a shortage of trained and experienced 
contracting staff, unclear contract terms and conditions, and other 
problems with the contract, there were contractual deficiencies, 
excessive billings, and questionable costs of $16.4 million.
    FEMA did not place enough contracting staff in the field offices to 
handle the enormous workload necessitated by Hurricanes Katrina and 
Rita. Contracting officials were responsible for the administration and 
oversight of numerous large-dollar contracts over a wide geographical 
area. Contracting staff rotated in and out of field offices, resulting 
in inconsistent instructions to contractors and haphazard contract 
administration. Contracting personnel were often inexperienced, and 
their performance reflected the lack of proper training to perform 
assigned responsibilities, especially in a high-volume, emergency 
environment. Some contracting officers were not experienced in writing 
the types of contracts needed and were unable to analyze proposed 
contract costs to ensure reasonableness. Many Contracting Officer's 
Technical Representative, or COTRs, were too inexperienced to recognize 
unauthorized and excessive billings and poor or unauthorized contract 
performance.
    FEMA has already made improvements to their contracting capability, 
such as increasing the number of standby contracts in place and ready 
to be executed when disaster strikes. DHS has also created a Disaster 
Response/Recovery Internal Control Oversight Board to address many of 
the problems. In addition, FEMA has begun a hiring initiative aimed at 
restoring staff levels to 90 percent of capacity. FEMA recently 
reported that it plans on hiring 41 new employees for its procurement 
division.

                   Additional Acquisition Challenges

    We will soon conduct a review of FEMA's overall acquisition 
management structure to identify improvements that can make FEMA better 
prepared for the next catastrophic disaster. Much of our work will 
focus on the following areas:
        <bullet> Organizational Alignment: In the transition into DHS, 
        seven agencies, including FEMA, retained their procurement 
        functions. DHS established an eighth acquisition office, the 
        Office of Procurement Operations, under the direct supervision 
        of the Chief Procurement Officer, to service the other DHS 
        components and manage department-wide procurements. Until 
        recently, FEMA had an unusual procurement structure with two 
        heads of contracting activity. This structure created 
        redundancy and inefficiency.
        <bullet> Policy and Guidance: FEMA has not had an active Policy 
        Office since 1999. This has been a major barrier to the 
        successful, cohesive acquisition operations. Interpreting, 
        implementing, and monitoring acquisition policy are essential 
        functions. They ensure that the organization complies with law 
        and policies. The absence of current policy and standardized 
        performance measures make it difficult to establish where the 
        agency stands when compared to other federal agencies.
        <bullet> Acquisition Workforce: Hundreds of staff left after 
        Hurricane Katrina struck. FEMA now has a campaign to hire a 
        large number of qualified replacements. The individual 
        assistance and technical assistance section of FEMA has 
        recently completed its hiring effort. After such a large 
        expenditure of staff, time, and resources to hire the right 
        individuals, retention is crucial. Hurricane season is 
        approximately 4 months away, and these new employees must be 
        able to function effectively by that time.
        <bullet> Knowledge Management and Information Systems: Outdated 
        and non-existent information technology tools are another of 
        FEMA's management challenges. FEMA does not have an IT strategy 
        that addresses the needs of the agency--particularly with 
        regard to workflow routing, financial management, and document 
        management. The lack of a DHS-wide IT strategy has forced early 
        technology adopters within the acquisition community to create 
        job aids that are not shared and deliver varying levels of 
        support. This situation has forced each DHS Head of Contracting 
        Activity (HCA) to develop an IT standard applicable only at 
        their organization. This allows for discretion, which can be an 
        empowering force yet, at times, can be contrary to overall 
        Department-wide mission and goals.
    To improve the overall acquisition management functions, FEMA needs 
to address the conditions described above. We will advise FEMA as our 
work continues and offer recommendations for improvement.

                    National Flood Insurance Program

    Floods are among the most frequent and costly of all natural 
disasters. They result in the loss of many lives and much property each 
year. FEMA is now faced with National Flood Insurance Program (NFIP) 
issues ranging from outdated flood maps to the question of whether 
damages are the result of flooding from storm surge or hurricane winds. 
Many NFIP related questions need to be addressed before the next 
catastrophic flood.
    As a result of Hurricanes Katrina, Rita, and Wilma, the NFIP paid 
claims in excess of $20 billion most of which was borrowed from the 
Treasury. Heavy borrowing, uncertain financial solvency, outdated flood 
maps, and other problems continue to plague the program. In addition, 
the NFIP is now on the Government Accountability Office's (GAO) high-
risk list. We have several ongoing or planned NFIP reviews and will 
continue to monitor activities under this program.

                         Information Technology

    FEMA made progress in several IT areas, particularly short-term 
adjustments to prepare for the 2006 hurricane season. These 
improvements focused primarily on increasing National Emergency 
Management Information System (NEMIS) capacity and online system access 
and strengthening verification of registration data. NEMIS is the 
enterprise-wide automated system that integrates hardware, software, 
telecommunications, applications software, and operational procedures 
to handle the processing and management of disaster victim assistance 
to individual citizens and public assistance. FEMA and its program 
offices have addressed our recommendations by documenting training 
resources, developing a plan to implement an enterprise architecture 
(EA), gathering requirements for new business tools, and improving 
configuration management.
    Despite these positive steps, FEMA has not documented or 
communicated a strategic direction to guide long-term IT investment and 
system development efforts. FEMA also has not performed crosscutting 
requirements gathering to determine business needs, which would allow 
Information Technology Services Division (ITSD) personnel to analyze 
alternatives to customize NEMIS. We note several resource challenges 
FEMA faces in accomplishing these tasks, including personnel needs, 
time limitations, and funding constraints. For example, high-level 
officials acknowledged the need for staff who can effectively and 
efficiently manage system development efforts, especially as key 
personnel are allocated to assist in disaster and emergency response 
activities. Further, FEMA officials told us that funding constraints 
have also prevented the creation of sufficient training and testing 
environments. Therefore, constrained by limited resources, FEMA focused 
its efforts on short term fixes, e.g., preparing for hurricane season, 
and has made little progress in addressing long-term needs, such as 
updating strategic plans, defining cross-cutting requirements, and 
evaluating systems alternatives.

                     Fraud Detection and Prevention

    In the wake of Hurricane Katrina, information-sharing was poor to 
non-existent. There is a need for data-sharing in three areas: (1) 
real-time data exchange among agencies to simplify the application 
process for victims and to help verify eligibility of applicants for 
disaster assistance; (2) direct access to FEMA data by law enforcement 
agencies to identify and track convicted sex offenders and suspected 
felons, and help locate missing children; and, (3) computer data 
matching to help prevent duplicative payments and identify fraud. FEMA 
is moving in the right directions on these issues. For example, FEMA 
has granted direct access to its data to the Hurricane Katrina Fraud 
Task Force for the purpose of investigating fraud. However, progress is 
slow and much remains to be done. FEMA and the federal community are 
not yet ready to meet the data sharing requirements of the next 
catastrophic disaster.
    Congress provided approximately $85 billion dollars to multiple 
federal agencies for Gulf Coast disaster response and recovery. In the 
area of housing there were four primary agencies that provided housing 
assistance: DHS, U.S. Department of Housing and Urban Development 
(HUD), U.S. Department of Agriculture (USDA), and U.S. Department of 
Health and Human Services (HHS). A recent USDA audit revealed that more 
than 44% of disaster victims received housing assistance from more than 
one federal agency. GAO estimated that DHS improperly disbursed between 
$600 million and $1.4 billion in disaster assistance after Hurricanes 
Katrina and Rita.
    The Computer Matching and Privacy Protection Act, which establishes 
procedural safeguards for computerized matching of Privacy Act-
protected information, impeded federal Inspectors General from 
immediately performing computer matching to identify Hurricane Katrina 
disaster assistance fraud because of the review and approval process. 
Computer matching is the automated comparison of two computerized 
databases. Computer Matching can be used to identify relationships that 
indicate possible instances of fraud. In contrast to manual searches, 
computer matching allows auditors to quickly and inexpensively analyze 
massive volumes of data. If Inspectors General had been empowered to 
match their agency's respective disaster assistance files with those of 
others providing assistance in the aftermath of Hurricane Katrina, they 
could have helped mitigate improper payments and identify and recover 
erroneous payments in a timely manner.
    The President's Council on Integrity and Efficiency/Executive 
Council on Integrity and Efficiency reported to Congress that the 
requirements of the Computer Matching and Privacy Protection Act 
hindered several proactive fraud investigations relating to Hurricane 
Katrina from being initiated. A computer matching agreement generally 
takes several months to execute, thereby forcing law enforcement, 
including the Hurricane Katrina Fraud Task Force, to rely on manual 
searches within numerous disaster assistance databases to help detect 
fraud.
    An exemption for federal law enforcement agencies, including 
Inspectors General, from the Computer Matching and Privacy Protection 
Act to support efforts to identify and prevent fraud, waste, and abuse 
following a disaster should be considered by Congress. Such an 
exemption would greatly facilitate the efforts of the federal law 
enforcement community to obtain and analyze federal disaster assistance 
records for the purpose of promoting integrity in federal disaster 
assistance programs and facilitate the detection, prevention, and 
prosecution of disaster benefit fraud.

           Review and Revision of the National Response Plan

    The National Response Plan (NRP) is being extensively revised to 
incorporate lessons learned from the response to Hurricane Katrina. We 
have observed a genuine effort to reach out to all stakeholders, both 
public and private, to invite participation in the review and revision 
process. Our primary concern, however, is the ambitious timetable to 
complete the revisions by June 2007. Ultimately, the result of this 
effort cannot be measured until the revised NRP is fully exercised or 
used during a large-scale disaster.
    In our Performance Review of FEMA's Disaster Management Activities 
in Response to Hurricane Katrina (OIG-06-32), we reported that there 
was confusion at the Federal, State, and local level regarding the NRP 
and the Incident Command Structure and who was in charge. We 
recommended a clarification of the roles of the Principal Federal 
Official, the Federal Coordinating Officer, the Federal Resource 
Coordinator, and the Disaster Recovery Manager, to provide a clear 
distinction for the types and levels of response activities for each 
position or combination of positions and the type of events that would 
warrant their engagement. Further, we recommended that these officials 
be provided with the necessary training to complement their 
qualifications for serving in these positions. These recommended 
changes are critical to create an efficient and cohesive response to a 
catastrophic event.
    Based upon two recent audits undertaken in relation to Hurricane 
Katrina and the NRP, we offered two primary suggestions to the NRP/NIMS 
Steering Committee:
        <bullet> Address Public Safety and Security in both the 
        Catastrophic Incident Annex and the Catastrophic Incident 
        Supplement to further describe the operational strategy that 
        guides the delivery and application of Federal law enforcement 
        capabilities and resources for public safety and security 
        during disasters.
        <bullet> Describe the role of federal Inspectors General in the 
        NRP's Financial Management Support Annex and note that FEMA may 
        designate as oversight funds up to one percent of the total 
        amount provided to a Federal agency for mission assignment.
    We will continue to monitor and advise FEMA as it makes the 
necessary revisions to the NRP.
    The management challenges I have described above are not all 
inclusive. Integrating Preparedness programs, meeting the reporting 
requirements of Congress, improving accountability, increasing 
transparency, and building a solid logistics capability are also 
critical improvements that will require significant resources and 
effort. FEMA leadership is making progress in resolving these 
challenges. We will continue to review FEMA's progress, help it focus 
on critical issues, and facilitate solutions to significantly improve 
its ability to carry out its mission to coordinate disaster response 
and recovery efforts.
    Mr. Chairman, this concludes my prepared statement.
    I will be pleased to answer any questions you or other Committee 
Members may have.

    Mr. Cuellar. All right, thank you very much for being here, 
for all three of you all.
    Again, I thank all the witnesses for their testimony. I 
will remind each member that he or she will have 5 minutes to 
question the panel to make sure everybody has an opportunity to 
go through the process, including the members that are not part 
of the committees, that we have consented to allow them to ask 
those questions.
    At this time, I will now recognize myself for questions.
    The purpose of the FEMA--this goes to Mr. Paulison?the 
purpose of the FEMA reform legislation enacted last fall was to 
strengthen FEMA's organizational capacity for both preparedness 
and response. Effective preparation and response requires 
effective partnership. The partnerships among federal agencies, 
as outlined in the National Response Plan, and among federal, 
state and local governments, including nonprofit entities such 
as the Red Cross and, of course, the private sector.
    Mr. Paulison, has FEMA clearly defined the roles, the 
responsibilities, and the expected outcomes for each of the 
organizational components, as well as your partners, under this 
new organizational structure that we have set up?
    Mr. Paulison. I think the question you laid out is right on 
target and very apropos for what we are talking about. The 
developing partnership is one of the most important things that 
this organization has to do, and we are in the process of doing 
that.
    The fact that we only had two of our regional directors' 
offices filled when I took over this organization created a 
lack of that partnership-building out in the regions, where, 
like I said earlier, the rubber meets the road.
    The people we brought into manages these regions, people 
have decades of experience in dealing with emergency 
management, and they have very clear direction from me that 
they are to be out on the road developing these partnerships, 
not only with the state organization, but the other federal 
agencies that are in their region.
    And we are doing the same thing here in Washington. We are 
developing partnerships inside of DHS. Mr. Foresman and I have 
been working very closely together in this transition, but also 
with other agencies that have been kind of distant to us in the 
past.
    We have put pre-scripted mission assignments in place with 
the Department of Defense, Health and Human Services, 
Department of Transportation, all those other agencies that we 
have to deal with. We know very clearly that we have to have a 
solid relationship with them.
    The last place you want to develop relationships is in the 
middle of a disaster. They have to be done ahead of time, and 
that is what we are doing.
    Mr. Cuellar. Okay. Thank you very much.
    Mr. Jadacki, I am going to ask you to respond in a second, 
but let me ask my second question. And this goes to the 
undersecretary, again, Mr. Foresman.
    As a former homeland security director for Virginia, you 
served as a member of the Homeland Security Advisory Council 
task force on state and local homeland security funding.
    The task force recommended the department develop an 
automatic grant tracking system that would allow for tracking 
of the distribution and the use of homeland security-related 
funds. And you and I have talked about our state experience. 
And I think some of the members here also have the state 
experience.
    When you testified before this committee last March, you 
mentioned that the department was in the process of creating 
such a system. Can you please tell me if this new grant 
tracking system has been deployed, so we can all see exactly 
where the grant funding is in the allocation process?
    Mr. Foresman. Mr. Chairman, thank you for the question. And 
it has not yet been deployed.
    And one of the things internal to the department and the 
whole idea being amalgamating all of the grant activities 
across the department, Dave experienced prior to moving into 
his current job, when he was the U.S. fire administrator. We 
had fire grants that were administered through a grants 
management activity in the department. We had an existing 
relationship with the Department of Justice to administer many 
of our homeland security grant programs.
    We continue to work the effort with the chief information 
officer inside of the department. But we are not yet ready to 
go primetime with that, and that is one of the things that Dave 
and I have talked about, as we go through this transition.
    There is infrastructure in place. It is just a matter of 
change. Now, this is going to have a big impact on states, too, 
because we have to be able to move the money through the normal 
linkages, down to the state treasuries. And it is not as simple 
as saying we are going to put a new grants management tracking 
system in place and it gets done overnight.
    I will just mention very briefly that the other piece that 
we have is not only at the federal level, but at the state and 
local level, because I think one of our biggest frustrations 
that we probably collectively share between the executive and 
legislative branch is to have real-time data, in terms of the 
actual rate of expenditures and reimbursements, remembering 
that the majority of these are reimbursement-based programs, to 
have an actual level of understanding of where we are on any 
given day.
    Mr. Cuellar. Okay. We certainly want to sit down and talk 
to you, to see what we can do to help you move the process, 
because I think, for a lot of members, especially the ones that 
have served at the state level, understand why this is very 
important. So we do want to follow up.
    And, again, on a comment period from Mr. Jadacki, can you 
just briefly respond on both of the questions that I just gave, 
I mean, I just asked?
    Mr. Jadacki. Yes. First, in my opening statement, my 
written testimony, the concern with the support for the grants 
management, as well as other support organizations, as these 
new programs come in, there is a lot of responsibility on the 
back end.
    Once the grants are awarded, it is a reimbursable process. 
People need to keep an eye on what the money is being spent on, 
looking out for the safeguards, whether there is fraud, waste, 
abuse involved in some of those programs, too. There is 
financial considerations and reconciliations that need to be 
done.
    FEMA currently has, in the disaster area alone, even in the 
Gulf area, about 30,000 new grants for public assistance-type 
activities. You take that and combine it with the new grants 
coming in from the preparedness, it is going to create an 
enormous burden on the staff of FEMA overseeing these grants.
    And, you know, if we don't have those safeguards in place, 
we are not doing the oversight that is needed, then it becomes 
a potential for some problems later on.
    Mr. Cuellar. Okay. I was just asking members, because I do 
want to follow up on this. And we are going to set up a meeting 
later on, on this specific issue, with the indulgence of all 
the members.
    And certainly, Mr. Jadacki, we want to sit down and, again, 
sit down on how we can make this work on this, because this is 
a very important issue to us.
    At this time, I would like to recognize the ranking member 
of the Subcommittee on Emergency Communications, Preparedness 
and Response, the gentleman from Pennsylvania, Mr. Dent, for 
questions.
    And then, after that, instead of going--I am sorry, Mr. 
Dent, but I think you are going to give your time over to Mr. 
Rogers?
    Mr. Dent. We will swap.
    Mr. Cuellar. You are going to switch the time.
    Mr. Rogers. I thank the chairman for accommodating my 
schedule.
    And I thank the gentleman from Pennsylvania, as well.
    Let's cut right to it. You all heard my opening statements. 
I am interested in CDP and Noble training facility merger. Tell 
me about the status, please.
    Mr. Paulison. Actually, the merger will work very well. 
Both of them are on the same campus. The Noble Training Center 
will report into CDP.
    As you know, I put the Noble Training Center together while 
I was the U.S. fire administrator. I also spent quite a bit of 
time at CDP, after touring the site back when I was a fire 
administrator, when we thought we were going to manage that at 
that particular time.
    So the merger is going to go well. They are pretty much 
side by side. There is a lot of economies of scale I think we 
can develop, by using the same contractors, sharing facilities, 
doing things like that.
    They do two different things. One is more of an education 
piece. The other is more of a training piece, like you said, 
with first responder training. But the only live agent training 
place that we have that is as robust as that is, it is being 
funding well, and it is going to operate well. We are excited 
about the merger.
    Mr. Rogers. Do you have any idea about how we can expand 
those services off campus more? Is there any plan in place to 
do that? As you know, my district is very rural, as many 
districts are, and they are primarily covered by volunteer fire 
departments and rescue squads.
    And while the Center for Domestic Preparedness is a 
wonderful resource for professional departments to send 
personnel, a lot of these volunteers can't take time off from 
their cotton mill job to go up there and spend a week for 
training. So are there any plans to be more aggressive in 
outreach?
    Mr. Paulison. There is several plans that have been going 
on for a while, even before we were inheriting some of these 
processes, just at National Fire Academy.
    We know that most of the classes there were two weeks, and 
we know it is extremely difficult, not only for volunteers and 
smaller departments, but even some of the bigger departments, 
to let their officers go for that amount of time, so we have 
cut those classes down to one week, where they do a week at 
home over the Internet, and then come to the campus for a week.
    And then, also, for some of the smaller departments, we 
have what we call weekend classes for the volunteers to come 
in. We will have state classes, where a particular state sends 
people in to train in a very compressed, short amount of time.
    We can take a lot of that on the road. We turned all of our 
training materials over to state agency to train there and 
still get the same credit. The difficult one is going to be 
what CDP does with live agent training. That has to be a very 
controlled environment.
    Mr. Rogers. Yes, I understand that.
    Mr. Paulison. And I am reluctant to take that on the road.
    Mr. Rogers. Tell me about this new National Integration 
Center. How is it going to oversee CDP? How will that work?
    Mr. Paulison. It is just going to be a process of where 
they report through the system. That is where most of our 
training stuff is going to fall, under that area, so I want to 
have all the training systems that we have in one block.
    I think it is going to be helping us to coordinate better, 
making sure that we are not overlapping training issues, that 
we are not duplicating what we are training at emergency 
management institute, at the fire academy, at CDP, at Noble, to 
making sure we are spending our money as wisely as possible. 
That is what the oversight is going to be.
    Mr. Rogers. My last question is money, about money. The 
president's 2008 budget has proposed cutting CDP by $3 million. 
And the $5.5 million that Noble received this year is not even 
included in the new merged budget. How are you going to make 
that work? Is there some effort to change that proposal?
    Mr. Paulison. The $5.5 million for Noble, I understand, was 
in the 2008 budget. I was just looking at it. I was not 
familiar with the CDP issue, but I will look at that, and I 
will brief you privately on that.
    Mr. Rogers. I would love to hear that. Thank you.
    And with that, Mr. Chairman, I would like to yield the 
balance of my time to the gentleman from Pennsylvania as a 
thank you for his courtesy.
    Mr. Dent. Thank you.
    Gentlemen, as was mentioned earlier in my remarks, floods 
cause more damage and economic losses in the United States than 
any other natural disaster. And flood maps are being used to 
identify areas at greatest risk for damage and to support 
mitigation efforts and provide affordable flood insurance.
    It is my understanding that flood plains have changed 
dramatically overtime, but that flood mapping has not kept up 
with that change. And I guess my main question, Mr. Paulison, 
is could you please discuss steps that FEMA is taking to update 
these flood maps?
    Mr. Paulison. Yes, we are very aggressively changing our 
flood mapping and modernizing those flood maps, taking some 
that are accurate and changing them to digital so they can be 
better used on the Internet, and others are actually redoing 
the mapping itself to making sure they are accurate, because 
what you said is right on target. A lot of the flood plains 
have changed.
    The other issue we are dealing with is with the 
certification of a lot of our levees. If a city or area is 
protected by a levee, and that levee is certified, we act as if 
they are not in a flood plain, and then they don't have to have 
insurance or very minimal insurance.
    If that levee is not certified, then our flood management 
system has to respond as if there was no levee at all. So we 
are in the process of working with the Corps of Engineers and 
some of the private levees to make sure those levees are 
certified.
    But I think, to get to your question, we are doing very 
aggressively trying to map this entire country to making sure 
we have at least 80 percent of the United States covered with 
modern flood maps.
    Mr. Dent. Well, thank you, and I will save my questions for 
the next round.
    Mr. Cuellar. Okay. All right. Thank you, Mr. Dent.
    This time, I recognize the chairman of the Subcommittee of 
Management, Investigation, Mr. Carney, for questions.
    Mr. Carney. Thank you, Mr. Chairman.
    Mr. Paulison, if another Hurricane Katrina were to strike 
today, God forbid, what is FEMA certain it could do well, and 
why? And what key gaps remain, and why?
    For example, some problem areas in Katrina were mass care 
and shelter, evacuation of special needs populations, operable 
and interoperable communications logistics, and reconciling the 
need for quick assistance, while protecting against fraudulent 
claims. How are we coming there?
    Mr. Paulison. We very carefully looked at what didn't work 
well during Katrina. Based on what I personally saw, my 
experience dealing with hurricanes over the last 30 years, the 
reports that came out of Congress, out of the White House, out 
of the I.G.'s office, our of the GAO--and I could go on for 
probably several more--but the themes were consistent.
    Communications break down, not so much equipment, but 
processes in place, logistics, not having the right things at 
the right place at the right time, victim registration, having 
people in every state in this country, not knowing who they 
were, where they were, or what their needs were.
    So we have looked at those very carefully. The 
communication piece, we have worked very hard to put together 
what we call a unified command system, where we will work out 
of our joint field office to make sure we are all sharing 
information, and not just at the state and local level, but 
also inside the federal government itself.
    So I know what HHS is doing; they know what we are doing; 
we know what the Department of Transportation is doing. So if 
we order buses, we know if they are going to show up or not.
    Working with our logistics system, FEMA did not have the 
right amount of supplies. We now have enough supplies in place 
in our warehouses to take care of a million people for a week. 
We have also signed an MOU with the Defense Logistics Agency, 
which is our back up.
    We are also bringing in logistics experts to manage 
logistics. I am taking it out of operations and having a 
standalone division. I think it is that important.
    We didn't have the ability to track our supplies. I bought 
20,000 GPS units and put a tracking system in place, so I can 
tell the governor, right down to the very street corner, where 
their supplies are, and that is an important business tool for 
that governor to have and those local communities to have.
    And then victim registration. We could not register people 
as quickly as they were coming out of the city. We now have the 
capacity to register over 200,000 people a day.
    We took five of our mobile command posts and turned those 
into registration units, where we can out to where people are, 
instead of expecting them to try to find us. And they are 
equipped with satellite-based laptop computers, satellite-based 
cell phones.
    So we can actually sit down and say, ``Here, call the 1-
800-621-FEMA number, and register, or sit down at this table 
and we will register you for you on this laptop computer.'' 
Those are some of the things we have put in place that did not 
work well at all.
    So if we have another Katrina, you are going to see a 
different type of response. And I know I am taking up a lot of 
your time, and I think this is important.
    The system that we have used in the past of waiting for 
local government to become overwhelmed before the state steps 
in and waiting for the state to become overwhelmed before the 
federal government steps in doesn't work.
    We have to go in as partners, and that is what we did in 
the last?now, the hurricanes in Florida this last month was not 
a Hurricane Katrina, but we were in that state with supplies 
before the governor even picked up the phone and asked for 
them, and that is what we are going to do.
    We are going to be a much more nimble, much more leaning-
forward organization than we have in the past. Now, we are 
raising some eyebrows with that, but it is the right thing to 
do, and that is the way we are going to operate.
    Mr. Carney. I appreciate the agility with which you are 
approaching this problem. Mr. Foresman, could you comment on 
that question, as well? How are we doing?
    Mr. Foresman. Mr. Chairman, I think we are doing quite 
well. And, you know, I think the one thing that we get 
confronted with sometimes is we look insular inside of the 
beltway to what we are doing to change the organizational 
structure in the department, realign FEMA.
    But I think the broader piece of the challenge that we are 
going to face over the next 10 years is: What are we doing to 
reform the whole national approach to how we manage emergencies 
and disasters?
    You know, as Dave has acknowledged, they have made 
tremendous progress with logistics management, with their 
coordination structures. But, ultimately, events such as 
Katrina, several thousand FEMA employees, tens of thousands of 
federal employees, are not going to replicate or replace nearly 
15 million state and local government officials who are out 
there on the ground.
    So I think that, as we continue the national dialogue, we 
have to look at our whole approach beyond just organizational 
changes in Washington. And what is it that we want a 21st-
century environment to look like?
    And then, what are expectations that we are going to set 
for our partners at the state and local level, as well as the 
private sector? Because, frankly, a lot of issues that we have 
traditionally seen over the years is not because of the 
inability of government to respond; it is because of the 
inability of the populace to be prepared so that government 
doesn't always have to be everything to everybody in the midst 
of a catastrophic event.
    Mr. Carney. Thank you. I yield back, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Carney--go on next, but I do 
want to recognize the chairman of the full committee, Mr. 
Thompson, for him to speak. Thank you.
    Mr. Dent?
    Mr. Dent. Thanks, Mr. Chairman.
    Just to follow up, Mr. Paulison, on the flood maps, when do 
you expect the flood maps, that they will be accurate, that 
they will accurately reflect the flood plains? Can you give us 
some kind of a time line on that?
    Mr. Paulison. I am trying to think--I think it was 2010, 
but let me get the accurate date for you. And what I would 
really like to do is to bring our flood mitigation people into 
your office, and sit down--
    Mr. Dent. That is fine.
    Mr. Paulison. --and give you a briefing on where we are on 
that. And I think it was 2010. My staff are sitting behind me. 
And correct me if I am wrong. That was our goal, to have about 
80 percent of the country finished.
    Mr. Dent. I think they are nodding 2010. Okay.
    Mr. Paulison. Again, if that is incorrect, I will get back 
with you on that.
    Mr. Dent. All right.
    Mr. Cuellar. Could you, when you set that up, because I am 
also interested on this, could you just let us know, so we can 
at least somebody from my office there?
    Mr. Dent. Sure. We would love to have a joint meeting.
    Mr. Paulison. I couldn't hear that.
    Mr. Dent. The chairman just asked if his office could be 
included in that discussion. That is certainly--
    Mr. Cuellar. And any other members--yes, just let the staff 
work out, and we will--because I think there are a lot of 
members who are very--
    Mr. Paulison. The more information we can give you, the 
better. We want this organization to be very transparent, so I 
would be happy--even coming back in front of the committee, if 
you would like.
    Mr. Dent. Because this is such an enormous issue in my 
state. Flooding is just huge.
    And, also, how is FEMA working with the Natural Resources 
Conservation Service of the Department of Agriculture to 
promote the remediation of local streams that flood on a 
recurring basis?
    Mr. Paulison. Yes, that is one of the groups we are working 
with, along with the Corps of Engineers and others, as we go 
through this flood mapping, to make sure that we are working in 
concert with the flooding issue.
    And I think you said it very correctly, that one of our 
biggest disasters that we have across this country every year 
is flooding, you know, trying to move people out of the flood 
plain, trying to better mitigate those flood issues, dealing 
with the streams and rivers that we have. It is a big issue. 
And we all need to work together. And we are working with them.
    Mr. Dent. And it is also my understanding that, while FEMA 
may have the funds available for stream remediation, it is 
unable to fix flood damage. And, meanwhile, the National 
Resources Conservation Service is authorized to fix the damage, 
but lacks the funding.
    And I guess the question is, is that true? And, if so, what 
can the two agencies do to negotiate an agreement to allow an 
exchange of funds? And do we need legislation to require that, 
to enable that kind of cooperation?
    Mr. Paulison. Again, I am not familiar with their budgeting 
and what funding they have or don't have, but I will get that 
information to you.
    Mr. Dent. That would be great. And I would like to find 
out, too, if we would actually need legislation--
    Mr. Paulison. Absolutely.
    Mr. Dent. --to allow that type of cooperation to occur. And 
on the issue of medical preparedness, in addition to 
implementing the reforms in the Post-Katrina Emergency 
Management Reform Act of 2006, the department's restructuring 
proposal would also create a new Office of Health Affairs.
    What will be the role of the new Office of Health Affairs? 
And how does this expand upon the current role and 
responsibilities of--Mr. Foresman, actually, this question is 
for you.
    Mr. Foresman. Congressman, two things. One, when we created 
the chief medical office--when Secretary Chertoff created the 
chief medical officer's role as part of the 2SR process, it was 
in clear recognition that there are probably three buckets of 
medical activity.
    Bucket number one is simply occupational health for more 
than 270,000 federal employees, including law enforcement 
officers and TSA screeners who are getting hurt every day, and 
getting this level of consistency across the department on 
that.
    The second piece and the more complex piece of it is, when 
you look at health and medical preparedness, HHS has a role in 
it. You talk about pandemic. DHS has the overarching national 
incident management responsibilities, but HHS is the lead 
health and medical issues.
    Making sure that the coordination between what we do in the 
department, what other federal agencies, state and local 
agencies do is absolutely critical. And this office will 
address that.
    And then the third piece, and probably one of the more 
critical pieces, the grant programs that are administered by 
the Department of Homeland Security that will now be 
administered through FEMA, the $16 billion that they have 
talked about, a large percentage of those have activities that 
are complementary to the many billions of dollars being 
administered through Health and Human Services.
    So the Office of Health Affairs is really designed to make 
sure that there is coordination on grants, there is operational 
coordination between what our programs are doing, and, frankly, 
gives the secretary, in his overall incident management role, 
the capability to have scientific expertise to translate 
medical speak into incident management speak, when we have an 
event going on.
    Mr. Dent. Thank you. And I will yield back.
    Mr. Cuellar. Thank you. Thank you, Mr. Dent.
    At this time, the chair would like to recognize the 
chairman of the full committee, the gentleman from Mississippi, 
Mr. Thompson, for a statement or questions.
    Mr. Chairman?
    Mr. Thompson. Well, I have a full statement for the record, 
Mr. Chairman. I appreciate your indulgence.
    Let me welcome our three guests. Some I see weekly almost.
    Mr. Paulison--I have a question, if I might, Mr. Chairman. 
It speaks to whether or not we have any FEMA contracts with 
ambulance providers as a backup to any potential emergency over 
and above the normal response patterns?
    Mr. Paulison. If you recall, we had one last year in 
Louisiana. That contract has expired. And we are working to 
look at what we need in place, not only for the southeast 
United States, but also, do we need something like that for the 
rest of the country?
    I don't want to get into contract specifics right now, to 
give some stuff away, but we are working on that issue. And it 
is an issue that we--you know, I can brief you privately 
instead of publicly on where we are with that particular--what 
we are going to do with that contract.
    Mr. Thompson. Well, if you would--
    Mr. Paulison. Yes, sir.
    Mr. Thompson. --at whatever venue you can provide that, 
because, if we had the need today, we would not be able to do 
that.
    Mr. Paulison. I think we would. I know there is no contract 
in place. But with the relationships that we have with the 
major ambulance suppliers around the country and the ability to 
move those resources, I think we could respond.
    It is not like we want it to be. We would rather have 
something solid in place. And that is what we are going to--and 
we will have something in place before hurricane season.
    Mr. Thompson. Okay. A couple other issues. One of the 
issues was that, when people were told after Hurricane Katrina, 
``Call FEMA, here is the 800 number,'' they would call, and the 
line would be busy. How have we resolved that issue?
    Mr. Paulison. That was say a major problem that--and I 
briefed the committee just before you stepped in.
    What we have done, we increased the capacity of our call 
centers to handle 200,000 people a day, 200,000 calls a day. We 
would be able to register that many. We have also put systems 
in place where, if we have a known disaster coming in, like a 
major hurricane or Katrina, we will preposition people in the 
congregate shelters to register people as they come in.
    But, also, we have taken five of our mobile command posts 
and turned those into mobile registration centers, where they 
can literally go out to where people are and register them, if 
there is no phone service. And like we found out during 
Katrina, people couldn't get in their cars and drive, because 
they were underwater.
    So we have taken major steps to solve that problem, and it 
was a big issue.
    Mr. Thompson. Let me give you a current issue that is 
happening in both Mississippi and Louisiana. I am being told 
that there is a housing initiative being put forth that says, 
in essence, for those people living in travel trailers, the 
next step is to put you in some other temporary housing, but it 
has to be on wheels, rather than a permanent structure. Are you 
aware of any of that?
    Mr. Paulison. No, sir, I am not. There is nothing inside of 
FEMA doing that.
    Right now, we have about 90,000 families in travel trailers 
and mobile homes across the Southeast, Alabama, Mississippi, 
Louisiana, primarily the bulk of those. But there is no plan in 
place--
    Mr. Thompson. So beyond the travel trailer situation, FEMA 
is not involved in any housing initiative.
    Mr. Paulison. The only thing we are doing is working with 
HUD to find out what we are going to do with people in the long 
term. You know, we have the people in Houston and the rest of 
the country that are in apartments. We would like to turn that 
over to HUD. And we are working to do that.
    The ones in the travel trailers, yes, we would like to get 
them out of there, but there is simply no housing in a lot of 
those areas. But there is nothing that I am aware of like you 
are talking about.
    Mr. Thompson. Well, Mr. Chairman, if I would, Congress 
allocated a significant amount of money. Are you familiar with 
the Katrina cottage concept?
    Mr. Paulison. Yes, sir. There was $400 million that 
Congress allocated. We have put that out for bid, so to speak, 
amongst the states, and we are working with them now. We picked 
those projects that we want to fund, and we are working with 
primarily Alabama and Mississippi.
    Mr. Thompson. So that is a FEMA project, right?
    Mr. Paulison. That is correct. That is a FEMA fund, yes, 
sir.
    Mr. Thompson. All right. That is what I have reference to.
    Mr. Paulison. But it has nothing to do with wheels. It is 
the projects the state has submitted--
    Mr. Thompson. I understand. But what I am told is that 
product that is on the street is proposed as temporary housing, 
that actually costs more than comparable, permanent housing.
    I hope you will look at whatever comes in and make a 
determination that we are not putting on the street another 
travel trailer elite, rather than something that taxpayers can 
get a better bang for their buck. I am told that part of the 
reference is that this Katrina cottage has to have the ability 
to have wheels and axels, or something like that, on it.
    Mr. Paulison. That would not be a FEMA initiative at all. 
If there is anything like that, that would come from the locals 
or the state that is building whatever they are going to be 
building. There were several different projects--
    Mr. Thompson. Well, but it is FEMA money. And if we are 
going to put another travel trailer situation in, and it cost 
more than a permanent structure, we have a problem.
    And I want you to understand that I am being told in my 
state that that is what is forthcoming, that it will basically 
be a glorified travel trailer called the Katrina cottage. As 
the head of the agency, I would really want you to look into 
that and report back to this committee what your findings are.
    Mr. Paulison. Yes, sir. We will do that.
    Mr. Thompson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Chairman.
    At this time, the chair will recognize other members for 
questions that they may wish to ask the witnesses.
    In accordance with our committee rules and practice, I will 
recognize members who were present at the start of the hearing 
based on the seniority on the subcommittees, alternating 
between the subcommittee and between the majority and the 
minority. Those members coming in later will be recognized in 
the order of their arrival.
    At this time, the chair will recognize for 5 minutes a 
gentlewoman from California, Ms.--oh, I am sorry, the gentleman 
from Louisiana, Mr. Jindal?
    Mr. Jindal. Thank you, Mr. Chairman. And I thank the 
chairman of the overall committee, as well, for conducting this 
hearing.
    I want to thank our witnesses, as well. It doesn't surprise 
anybody, I don't think, that we in Mississippi or Louisiana are 
intensely interested in the topics raised today. Mr. Paulison, 
I certainly appreciate your being here and sharing your time, 
as well as your colleagues.
    I have several questions. In my given time, I will try to 
get through as many of them as I can. I will start first, 
Secretary Paulison.
    To date, FEMA has paid about $4.5 billion in public 
assistance to Louisiana. Of that, $2.69 billion has gone to the 
hardest-hit areas, yet there is still $2.4 billion that has not 
yet been allocated by the state.
    I know there are a couple of different types of 
bottlenecks, one in terms of getting public work orders 
approved by FEMA, and then secondly getting that money, once it 
has been sent to the state, to the actual agencies and 
individuals on the ground.
    I know these dollars sound like a lot. On one hand, we can 
say it is great $2.69 billion has been paid out. On the other 
hand, there are tremendous needs, whether it is rebuilding 
schools, whether it is rebuilding public parks and other 
facilities, whether it is rebuilding a crime lab in New Orleans 
and facilities, and I suspect my colleague from Louisiana may 
follow up with some of these examples, as well.
    My first question is, what can be done to break both of 
these bottlenecks so these funds, first, get to the state and 
then, secondly, from the state to these impacted agencies even 
more quickly?
    Mr. Paulison. We put an expedited process in place to make 
sure the public worksheets move much more quickly than they 
have in the past.
    We put a tracking system in place, a Gantt chart-type 
system, where we can actually track where those public 
worksheets are. So we move them through our system quickly. And 
then we allocate the dollars to the state.
    Once the state get those dollars, it is up to them to then 
process it for the local communities, either the cities or the 
parishes, wherever the project is going on.
    We have tried to work with them to help them expedite that 
process. I know it has been slow. But, again, once we allocate 
those dollars to the state, it is--and I am not going to say, 
``It is not my fault.'' We are not going to do that. We are 
going to continue to work with them. But it is much more 
difficult once we give the dollars to them.
    Now, the state is being very careful. I mean, they know 
that my friend sitting next to met at I.G. and the GAO is going 
to be watching very carefully of how they spend those dollars, 
so the state is making sure that the dollars are being spent 
properly, being allocated properly, and being accounted for 
properly.
    And that is, I think, part of the slowdown of the system, 
from my observation.
    Mr. Jindal. Well, and I don't think any of us certainly 
wants to encourage fraud or misspending of these dollars. But 
one of the things we strongly encourage, maybe some kind of 
combination of you and the I.G.'s offices providing those 
assurances to the state.
    One of the things we continue to hear as their concerns, 
but what we feel from local officials is they feel like they 
are duplicating a lot of effort, that they are having to fill 
out the same forms more than once, and they had assumed, once 
they had gotten approvals from FEMA, once they negotiated the 
cost estimates and gotten the preliminary work done, they 
thought they were done, only to learn they had to start all 
over.
    Once the money had been released to the state, they learned 
they had to start--and my understanding is that some of these 
processes are new since Katrina. They weren't in place before 
Katrina. And, again, none of us wants to see these dollars 
wasted or abused, because these are dollars that we need to 
rebuild our state.
    And I understand that there is a limit on what you can do 
once the dollars get obligated. I also encourage you to try to 
expedite the public worksheets. I know, at one point, 
everything above a million dollars was coming back to D.C. And 
I know you all have done some things to expedite that.
    I know my time is running short. My next question for 
Secretary Foresman involves--my next question involves the 
Urban Area Security Initiative. My understanding is the 
department decided to cut four cities, including Baton Rouge, 
from the list of 35 metropolitan areas eligible to share $747 
million in the Urban Area Initiative grants.
    The department said that they made their recommendations 
based on the 2000 census estimates, but that they did not take 
into account the post-Katrina population surge. Baton Rouge is 
now, by some estimates, the largest city in Louisiana, and 
certainly I would encourage you to look at that new data.
    One question is whether the department will allow the Urban 
Area Security Initiative to adjust their risk assessment 
boundaries to look at local or operational or key regional 
infrastructure that falls just outside that 10-mile attachment 
area.
    I know there were a lot of us that were shocked that Baton 
Rouge wouldn't make that cut. If anything, it seems like it 
took on even greater importance, not a decreased importance, 
after the storm.
    Mr. Foresman. Congressman, let me address both parts there. 
First, in the context of some reasonable level of adjustment, 
where we found this past year--and there were a number of 
jurisdictions that applied, too, in the 2006 process that were 
so-called sustainment communities--where there were major 
facilities outside of that radius that had an significant 
impact, such as a large dam that would flood an entire city, 
something of that nature, we did show the common sense 
flexibility, in terms of doing the analytical work for 2007.
    You asked a very reasonable question, in terms of the 
population. It is one that actually the secretary also asked. 
So what I would offer to you, in terms of the official 
assessment, the population and the combination of threat and 
the vulnerability assessments didn't raise the profile of Baton 
Rouge to the level for inclusion in the program.
    I asked the team to run it unofficially, and they put in 
the best numbers that we had, based on our discussions with the 
local officials when we had the meetings that you helped 
organize and others, the information that we were able to get 
from Dave and the team. And it still would not have gotten them 
into the urban area program.
    Mr. Jindal. I might follow up with you. I know my time is 
running short. I will come back in my next round of question--
Chief Paulison, just one of the things that you may want to 
think about before we get to our next round is just--I have 
some follow-up questions. I have some concerns about some of 
the money we saw spent in contracts. I just want to make sure 
we have those safeguards going forward.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Jindal.
    At this time, I would like to recognize for 5 minutes the 
gentlewoman from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And thank you to both 
of the chairmen for calling this I think what is a very 
important follow-up, so we can ensure that, when we have 
natural disasters, things are taken care of.
    I come from the state of California. As you know, most 
people usually worry about earthquakes when it comes to 
Californians, but we really worry about the fires that come. 
And I think our state, at in Southern California, has been in a 
drought for the last 6 years or so, so we are very concerned 
that we will have natural disasters.
    Just as we had a slide the day before yesterday in San 
Francisco, in a very--what is concerned a very urban area, all 
of a sudden we find people out on the streets.
    So very concerned about the whole issue of all-hazard and 
disasters. And it seems to me that having FEMA, quite frankly, 
in the Department of Homeland Security, I have seen so many 
situations where everybody is telling me, ``We are so focused 
on terrorism, we may not be focused on the reality of all these 
hazards.''
    Mr. Jadacki, do you believe that there has been a problem 
in focusing on all-hazard missions in the department?
    Mr. Jadacki. I think initially, when the department did 
start back in 2003, there was a focus on terrorism. You know, 
we are right in the heels of the 9/11 event. And I personally 
worked for FEMA and sort of--and their chief financial--money.
    And I know, working with the?when the department was 
forming, that there was a lot of emphasis on the terrorism-type 
attacks, and there was less emphasis placed on the all-hazards, 
the earthquakes, the floods, the hurricanes, and those types of 
things.
    So, yes, I did see a focus more on terrorism.
    Ms. Sanchez. Was this the case prior to Hurricane Katrina, 
or was that being fixed at that point? And has it been fixed 
since? Or do you still think we need more to do? And what would 
those improvements look like, to make sure that this 
department, in particular, is taken a look at?
    Mr. Jadacki. I think that the hurricanes in Florida after 
2004, and then subsequent Hurricane Katrina and the other 
hurricanes, were a wakeup call. I think everybody recognizes 
now that we can't just focus on?you know, a natural disaster, 
whether it is a natural disaster or a manmade disaster, it is 
still going to result in a response effort, a recovery effort, 
and it is still going to need the resources of the federal 
government.
    So I think they were a strong wakeup call. I think some of 
the FEMA reforms that were put out last year recognized that, 
the merger of some of the preparedness functions as a 
cornerstone of sound emergency management is a step in the 
right direction. I think the focus is where it should be, on an 
all-hazards approach right now.
    Ms. Sanchez. I get very worried about that issue. And I 
know, as Californians, we are considered one of the most 
prepared areas, having always thought about the earthquake. And 
I know, in my car, I have my little emergency kit in case I am 
in my car when something strikes, or you go home, and I have 
the big trash can that has everything in it.
    But I just worry that somehow--and walking, even doing the 
walk around my district these days, people aren't focused on 
the fact that we may not get to them in the first 3 or 4 days. 
And I think just a real focus on getting back to, ``Everybody 
has to take care of themselves for the first few hours,'' is 
important for all hazards.
    As the chairwoman of the subcommittee with jurisdiction 
over border security, Mr. Foresman, I am very interested in the 
progress of US-VISIT. And, quite frankly, I am surprised to see 
that the US-VISIT program was moved into the National 
Protection and Programs Directorate within the department.
    Why was that moved? And wouldn't it make more sense to have 
US-VISIT somehow closer to the operational piece of Customs and 
Border Protection or maybe a policy office on border programs? 
It just seems like it is sort of removed. And we have been 
having so many problems with the US-VISIT.
    Mr. Foresman. Congresswoman, thank you for the question.
    Really, I think there are three pieces to this. First, when 
the initial startup of US-VISIT, when it was envisioned, it was 
very much of a border activity, and I think US-VISIT is, in 
many ways, one of the great successes of the department.
    US-VISIT has emerged from being simply a border management 
tool to being an identity-and information-sharing tool that has 
utility, not only for Customs and Border Protection, but the 
more than 700 million prints, for instance, that they have in 
that US-VISIT database, are prints that are important to the 
FBI, as they do investigations.
    They are important to Immigration and Customs Enforcement. 
We have a pilot project where the Coast Guard is doing some 
validation and taking some prints down in some of the water 
patrol areas.
    So, as we look at the organizational structure of the 
department, the decision was made that it is a service provider 
across the entire department. And it is not simply a border 
management tool. It is an identity management tool.
    And, in the same way that the infrastructure protection 
directorate services all aspects of the department, whether it 
is Dave and the folks at FEMA, Thad Allen and the Coast Guard, 
or our state and local partners, we wanted to make sure that we 
had it at a department-level function.
    Now, the second, more practical piece of it--and is 
straightforward--is that US-VISIT needs to--we need to ensure 
their full integration in department activities.
    We continue to go through a wide-ranging maturity process 
in the department. And this gives us a better ability to ensure 
its representation of issues, its recognition of issues, its 
issues are being adjudicated at the senior levels of the 
department, but the primary reason being that it is a service 
provision organization.
    Ms. Sanchez. Thank you. And I see, Mr. Chairman, that I 
have run out of time, so I will wait for the next round. Thank 
you.
    Mr. Cuellar. Thank you very much. Thank you again.
    At this time, the chair will recognize for 5 minutes the 
gentlewoman from New York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chair, and to both 
chairman, for holding this very important hearing today.
    In the last Congress, we took the very strong and necessary 
step of reforming the management of FEMA and, along with it, 
the entire Preparedness Directorate of the Department of 
Homeland Security. While I was not a member of Congress at the 
time, I wholeheartedly support these actions as vital to the 
overall process of fixing the tragic failures of the federal 
response to Hurricane Katrina.
    Among the greatest decisions was to improve FEMA status 
within the DHS and move preparedness functions under their 
management. This will allow FEMA to focus on how best to 
prepare our cities and states to avoid the worst in disastrous 
situations, before they begin, rather than starting from 
scratch when reacting to rapidly deteriorating situations.
    However, when major functions of government are moved from 
one area to another, oftentimes confusion ensues. And it is 
nearly inevitable. And important programs sometimes have great 
difficulty in coming up to speed.
    As part of the department shifting of programs, it is 
transferred the Office of Grants and Training to FEMA, while 
creating the new Office of Risk Assessment and the newly named 
National Protection and Programs Directorate.
    Which of your offices will oversee important, risk-based 
grant programs, like the Urban Area Security Initiative, the 
State Homeland Security Grant Program, and the other grant 
programs for first responders? That is sort of my first 
question.
    Mr. Paulison. Each of the departments inside Homeland 
Security has a risk area to do that. Undersecretary Foresman's 
side will be that agency that makes sure all of those are 
blended together and oversee all of the risk-based assessment. 
So we will be kind of a customer of theirs, but yet we will do 
a lot of our own risk assessment.
    We are in one department, and we do work very closely 
together. And this department is finally starting to gel into 
one agency. So, yes, we have risk-based areas. The Coast Guard 
does some of their risk, Border Patrol, all of them do that.
    And I don't want to speak for you, George, but they are 
going to be the blender of all of this, kind of synthesizing 
all of the risk-based stuff to make sure we are all on the same 
page.
    Mr. Foresman. Congresswoman, let me just briefly follow up 
for you. You know, I think the one clear picture is that--and 
the chief talked about this--the grant programs will realign 
into FEMA. And they, in essence, are becoming the service 
provider for the provision and the administration of these DHS 
grant programs that have been in place for a number of years.
    We have made significant improvements over the course of 
the past year in terms of our grant activities, but one of the 
big things that we have found is we went through the grant 
process. How we assess risk for port security and how we did it 
for the Urban Area Security Initiative, and how we were 
applying it to transit security were dramatically different.
    We were using dramatically different databases. And that 
doesn't allow us to do apples-to-apples comparison. And what we 
need to be able to provide to you all, as our overseers, is the 
ability to come in and say, ``There are tough choices that have 
to be made. We have done a quantitative risk assessment. The 
level of risk for this is this; the level of risk is this for 
this. We need to make hard choices about where we are going to 
put your resources.''
    So this doesn't diminish anybody's role in risk, but rather 
it creates a coalesced picture across the department.
    Ms. Clarke. Thank you for your response to that. And I just 
wanted to sort of touch on the issue that was raised by 
Congresswoman Sanchez, the US-VISIT program.
    And I can understand the whole security aspect of it, but I 
think some of what gets lost--because I represent a 
constituency where you have a lot of first-and second-
generation Americans with roots outside of the U.S., and they 
just want to see their families.
    And what I didn't hear in your response was that part of 
the US-VISIT. You know, how are we really facilitating those 
who are lawfully coming to the United States--I mean, New York 
City, that is a major way for us to raise revenue and tourism 
and things of that--and I am sure across this nation.
    I didn't hear anything in your response about the 
visitation aspect of it. Could you give us some insight into 
that, please?
    Mr. Foresman. Congresswoman, yes, I can. And, you know, 
part of the challenge we run into is we have a lot of names for 
things that leave a little bit of a misnomer.
    But US-VISIT is the program by which we inform the ability 
of Customs and Border Protection and Immigration and Customs 
Enforcement to make a wide range of decisions. And as a 
practical matter, what US-VISIT does is it gives us the ability 
to bring people in to an overseas location, issue a travel 
document for them to be able to lawfully come to the United 
States.
    It gives us the ability to validate that they are not on a 
terrorist watch list somewhere, so that, when they get to this 
country, they can get entry into this country quickly, and they 
go see their family. Our number-one objective is to ensure the 
free and appropriate movement of people inside and outside of 
the United States, but with an eye towards a much higher level 
of security than we had prior to 9/11.
    Ms. Clarke. Thank you, Mr. Chairman. I have run out of 
time. If you have time later, thank you.
    Mr. Cuellar. Yes. And I believe we asked and we will be 
probably going into a second round for additional questions on 
that. But at this time, thank you, Ms. Clarke.
    And at this time, the chair will recognize for 5 minutes 
the gentleman from Colorado, Mr. Perlmutter.
    Thank you for being here with us.
    Mr. Perlmutter. Good morning, Mr. Chair. And I apologize, 
because some of these questions you may have already answered, 
and I have been going in and out.
    But the first question really sort of adds onto the US-
VISIT questions that you have been getting. I mean, my 
understanding of US-VISIT was to track who is coming and who is 
going from this country. Is that a fair statement?
    Mr. Foresman. Yes, sir, it is.
    Mr. Perlmutter. Okay. How are we doing on the who is 
leaving the country side of the equation, in terms of tracking 
people who, you know, have a visa for a year, or three months, 
or whatever, and then they overstay their welcome? How are we 
doing on that side of it?
    Mr. Foresman. Congressman, we have still more progress to 
go, in terms of doing that, but our number-one objective is to 
keep bad people out of the country so that we don't have to 
respond to an event.
    Having said that, we have a number of pilot projects that 
we have been doing in selected airports with the US-VISIT from 
an exit standpoint. As we look down the road to the exit 
program and broader implementation of the exit program, we are 
going to look at it in the context of the three modes.
    Air, which is going to be organizational and structurally 
reasonable easy to do; maritime, in terms of those folks who 
are leaving through maritime ports. But in the context of land 
exit, that is particularly difficult, because, you know, about 
80 percent of the people who exit the United States exit the 
United States by land border crossings, and then they enter the 
next morning when they come back to work.
    And so this is going to be a little bit of a challenge, and 
we continue to look at the technology issues, the governance 
issues. But as we are moving forward, we are looking at some of 
the pilot projects so we can beta test some processes and 
procedures and technologies.
    But as we have had discussions, as the secretary said very 
clearly, we have not abandoned exit. But what we have done is 
put in place a strategy that will allow us to get there without 
spending a whole lot of dollars without getting the desired end 
result.
    Mr. Perlmutter. Okay, I guess, you know, there are sort of 
two parts, who is coming, who is going. Part of that is, you 
know, we want--under homeland security, you know, the missions 
are, you know, stop attacks, respond to disasters, and then 
immigration, kind of, you know, who is coming and who is going 
from this country.
    And part of the immigration question is?you know, in 
Colorado, we talk about 11 million people who are here without 
proper documentation. And, you know, some of my fellow 
congressmen and women fall down on the subject on one side, and 
others fall the other way.
    But a big chunk of those 11 million people are people who 
have overstayed their visas. And so, you know, I guess what I 
am saying, both from an immigration standpoint, plus we just 
need to know who is in our country, you have to finish that 
exit side of this thing.
    And, you know, otherwise, it is not finished and it is not 
a complete project. And I still sort of question why US-VISIT 
is sort of in the FEMA part, you know, of all of your agencies. 
You know, why isn't it more over on the immigration kind of 
section of the--now, maybe that is for you guys to decide how 
you want to have your organization, but it just didn't really 
make sense to me.
    Mr. Foresman. Congressman, let me just clarify. It is not 
in the FEMA part of the organization.
    Mr. Perlmutter. Where is it?
    Mr. Foresman. It is in the National Protection and Programs 
Directorate. And the preparedness functions that were 
previously under my domain, some of those activities, such as 
the fire administration and the grants and training activities, 
are going to be realigned to FEMA, but the National Protection 
and Programs Directorate includes things like infrastructure 
protection, cybersecurity, risk management.
    And so, again, as I had said in my opening statement, this 
is about how we managed risk. No one thing manages the full 
spectrum of risk. This will allow us to use US-VISIT across a 
wide range of activities in the department.
    Mr. Perlmutter. Okay.
    I mean, I have a whole bunch of questions. You had 
questions about dams--Mr. Dent was asking you about in 
Pennsylvania. One of the things that came up a lot last year, 
that some of our dams across the country are aging, you know, 
particularly in the Northeast, what kinds of steps is FEMA or 
DHS taking to work with the Army Corps of Engineers to go in 
and check all of these, whether they are old, kind of earthen 
dams, or, you know, dams from the 1930s that were part of the, 
you know, the various projects that were going on?
    Mr. Paulison. FEMA doesn't have direct responsibility over 
the dams themselves, but we do cover the flood plains that are 
around the dams. If a dam or levee is certified, then for 
insurance purposes those people are not required to have flood 
insurance, because they are considered not to be in the 100-
year flood plain.
    If, however, as we are seeing now more often, because, like 
you mentioned earlier, a lot of the dams are getting very old, 
a lot of levees are getting old, we are finding out that some 
of them cannot be certified, but we are working with the 
states, and with the local communities, and with the corps to 
give them time to inspect the levees, bring them up to speed 
before we put a requirement in that people buy flood insurance.
    I think we are giving them up to 2 years to do that, to 
come up with those reports, to make sure that we are making the 
right decisions. But we don't work with them very closely. We 
don't have direct responsibility over repairing the dams or 
anything like that, but we do work with them to make sure that 
the people around there are protected and understand exactly 
what the risks are for living inside of a levee or inside of a 
dam situation.
    Mr. Perlmutter. Okay, thank you.
    Mr. Cuellar. Thank you, Mr. Perlmutter.
    At this time, the chair will recognize for 5 minutes the 
gentleman from Louisiana, Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman. Good morning.
    We live with a lot of the problems that others are talking 
about here every day. And I want to talk to you about four or 
five different areas in the short time that I have.
    The most important is the flexibility of the Stafford Act, 
with respect to the various ranges of assistance that are 
provided there. The travel trailers that we so much sought for 
temporary, transitional housing now themselves present a hazard 
because they have been around so long, and no one believes that 
they could ever withstand a hurricane season themselves.
    We just saw the tragic loss of life of a woman there?a 
tornado that came through in the travel trailer. She died. 
There are 60,000 more families in our state that are living in 
travel trailers now.
    And there have been all sorts of ideas about how we could 
make the transitional housing more flexible, but they aren't 
allowed under the Stafford Act. For instance, many of the 
people who had apartments or buildings that were damaged during 
the storm have requested--came to us with ideas about how they 
could use their own money to get their places back in shape, 
and then have a lease agreement with FEMA to house people, to 
help them to restore their investment.
    They would have been in regular housing then. It would have 
restored a long range of--hopefully, rental housing in the 
area, but that wasn't possible, because of the Stafford Act. It 
didn't--the flexibility for it.
    The second is the individual assistance limits now are 
$26,200. I don't know how they arrived at that number or how 
long it has been in place, how long it should be in place, but 
I would like to know how you feel about that, because a lot of 
us are bumping up against that now. And the 18-month 
requirement also is there, which also is an issue of 
flexibility.
    The issue of whether the assistance goes directly to the 
states or whether parishes--in our case, parishes; other 
places, counties--ought to be to let you deal with that. I know 
there is a concern about how many entities you deal with, how 
many entities report to you. And the states are more 
conveniently able to do that, just one entity to report.
    But there is always this tension between the seat of state 
government and the effects in places out there, usually large 
cities, and it is just a tough thing. And the real desire to 
fix things is on a local level more than any other place, and 
there aren't other competing claims.
    The last thing, outside of staff, I just--I did my--is the 
issue of prepositioning, or let's call it advance contracting 
issues. We had this big concern about all these outside, big 
contractors coming in.
    And the issue wasn't just about recovery. It was about 
recovery for whom and also by whom. And so there is a big 
concern about our local Louisiana folks, and getting work down 
there, and going forward with all this recovery, in the early 
part, debris removal, all that was very much a concern of ours.
    And we had the big non-compete contract folks who had been 
apparently prepared for this sort of thing. What is FEMA doing 
to think about the local folks getting prepared on a list--be 
called upon when these disasters strike?
    I will leave it there for the moment. And if you are able 
to get through those, maybe I will get back to another one. But 
if I can just leave--the three Stafford Act issues, and the 
last one is on the issue of advanced contracting for small 
business.
    Mr. Paulison. Yes, a lot of questions there. I will try to 
remember all of them.
    Your observation of the travel trailers is right on target. 
It is one of those things that keeps me awake at night. These 
travel trailers that we use, FEMA used to house people in right 
after Katrina, was the only tool they had in their toolbox to 
use.
    However, they are not designed for long-term living. And 
now families have been in there for 18 months, some a little 
less, but most around--18 months for round numbers. It concerns 
me about some of the issues you have talked about, about storms 
coming through, tornadoes.
    We have had several fires in them, some at no fault 
whatsoever to the trailer itself, but just the fact that they 
are living in very small quarters. It makes it very difficult.
    The travel trailers that we have are not the right answer. 
But, again, it is the only tool we have for people who wanted 
to live there in Louisiana, in Mississippi, and to a lesser 
extent Alabama and Texas.
    The problem with--and particularly with Louisiana--is there 
is no place for them to go if they want to stay in the state. 
There is no public housing available; there is no low-income 
housing available.
    I was in one of the travel trailers the last time I was 
down there, visited with a woman, her daughter. I went inside 
and sat down in those very small quarters.
    She was telling me the story where they were in an 
apartment. They were getting by. She works full-time. Her 
daughter works after school. She is in high school. And they 
were able to make their payments. They were paying $600-a-month 
rent.
    So the hurricane came through, destroyed their apartment. 
They moved into one of our travel trailers in Acongria Park. 
Her apartment has been rebuilt, and she wants to move back. But 
now the landlord is charging $1,800 a month. And can't afford 
to do that.
    And she said, ``I am ready to be on my own. I have a job. 
My daughter has a job, and there is no place to go.'' So the 
answer is find some type of housing for them to go into.
    Mr. Jefferson. --if an apartment owner was now able to say, 
``I will fix back my place, and I will keep my rent such and 
such, if you will give me a lease for these folks,'' isn't that 
a partial answer to this issue, of getting folks out of 
dangerous, temporary housing?
    Mr. Paulison. Part of the 80 percent of the people we have 
in travel trailers are in their own driveway, backed up while 
they are rebuilding their house. But we have a 20 percent 
portion that are in our congregate trailer parks, so to speak.
    And those are the ones that I am concerned about, because I 
am not sure what the answer is for them right now, quite 
frankly. This is going to be a longer conversation, and I don't 
want to use up all your time.
    The individual assistance is set by you, by Congress, by 
law, and it is the $28,200, I believe, right in there, for that 
particular type of thing. That amount of money is not under our 
control.
    However, what we have done is, the people in the travel 
trailers and mobile homes, that money is not decremented off of 
their $28,2000. And so we are putting a lot of people into the 
403 program that would normally have been in the 408, which 
comes off of that piece of it.
    The Stafford Act directs us to go through the state and not 
directly to locals with the dollars. It has to flow through the 
state, because the state does pick up the cost share for that 
particular piece.
    What we have done with the contracts--and we did not have a 
place before, and I know we are already over time, but I think 
this is an important issue.
    The contracts, particularly the IE tact contracts that were 
put in place quickly after Katrina, the contracts were not 
written as we would have written them if we had more time. They 
should have been in place ahead of time. They were not.
    However, all those contracts have been redone. There is now 
significant guidelines in there for local contractors and small 
business and women contractors to use. And the tornadoes in 
Florida we just had, 90 percent of the work went to local 
contractors.
    And that is the process we want to use, because I agree 
with you 100 percent, based on what I learned in hurricanes, 
particularly through Andrew. The quicker you can get businesses 
back up and running, and get people jobs, the quicker the 
community is going to come back. And that is what we want to 
do, also.
    Mr. Jefferson. Thank you, Mr. Chairman.
    Mr. Cuellar. Yes, sir, Mr. Jefferson.
    This time, the chair will recognize for 5 minutes the 
gentleman from North Carolina, Mr. Etheridge.
    Mr. Etheridge. Mr. Chairman, thank you.
    And, gentlemen, thank you for being here.
    This is a critical time and an important issue, because we 
are now approaching March the 1st. And within 90 days, we will 
be in hurricane season. And, you know, when people have major 
disasters, as far as they are concerned, and you have just been 
talking about Katrina, and that will continue to be a topic for 
a good while, it doesn't matter to them whether it is manmade 
or natural.
    They are more likely to be hit by a natural disaster, 
whether it be a hurricane, tornadoes we have had this year, 
floods, or earthquakes, in a large extent, than for a manmade 
one.
    I still remember President Bush in New Orleans saying to 
then-FEMA Director Brown, ``You are doing a heck of a job.'' 
And I think then we all pretty much understood somebody didn't 
get it, and we weren't prepared, and we weren't ready.
    So my question--and I think the American people have 
figured it out. And Congress has stepped in and tried to help 
with resources and reordering some of the--Mr. Paulison, we are 
glad to have you aboard, because you understand it, and you 
have been there.
    So my question, as you know, a lot of hurricanes tend to 
land in two or three places in this country. One is in Florida; 
the other is in North Carolina.
    And I understand that planning is going on in FEMA to 
develop procedures for a response from recovery of disasters, 
whether it be tornadoes, et cetera. And you know, as I do, that 
we had a plan on paper before Katrina. And all of a sudden, it 
was on paper, and that is all it was.
    My question to you is, now, lessons learned thus far from 
Katrina, and you remember as I do that, in the 1990s, FEMA was 
a very proud agency in this federal government, and I want to 
see it get back to that, because we had our hits in the 1990s, 
and we have been fortunate the last couple of years.
    What steps are you taking to restore the professionalism 
within FEMA, which I think is a critical piece? And, secondly, 
can you describe some of the efforts being made at FEMA to 
ensure that the plans are put in place that are actually 
workable?
    For example, have there been dry runs for new practices and 
procedures to ensure that they will work in a real disaster? 
Because, you know, one of the things that we talk about--plans, 
and, you know, historically, we used to do a lot of dry runs. 
And I think that is absolutely imperative at the state level, 
if they are going to be our partners, and the local level, 
because many of those folks, as you and I know, are volunteers.
    Mr. Paulison. First of all, I agree with you 100 percent. I 
want to make this agency an agency that America is proud of 
again, and that is what we are going to do.
    The first question you asked was about professionalism. I 
am bringing in the most professional, experienced people that I 
possibly can into this organization. I mentioned earlier, the 
10 regional directors that we have in place--actually, I have 
nine in place. The other one will be in place in a couple of 
weeks. We have already hired him; we are just going through the 
background checks right now.
    We will have all 10 regions in place, regional directors in 
place, the first time anybody is in our memory that we had all 
10 of them filled, and not just filled, but filled with people 
who have 20 and 30 years of experience dealing with disasters.
    I am also bringing that same type of expertise into the 
FEMA headquarters, into the management here, to make sure that 
we have people who understand what is going on, people who get 
it, who have been there and done that.
    The second thing is, on that piece of it, is making sure I 
have a very strong mix of career people inside this 
organization, so as we go from administration to 
administration, we don't have the ups and downs we have seen in 
the past.
    My staff meetings, for instance, sir, are about two-thirds 
career people and one-third politicals, to make sure that they 
are involved in making the decisions for this organization, 
because they are the ones that understand what is really 
happening.
    There are no guarantees in life. But at the same time, I 
believe that exercises, especially particular hurricane areas, 
are extremely important, and that is what we have been doing. 
Undersecretary Foresman's shop that part of we are inheriting 
is doing it, doing an unbelievable job of making sure we are 
out there, doing exercises, working with the states.
    I have personally attended exercises all up and down the 
East Coast and also in the Gulf Coast, to sit down with the 
governors to walk through those hurricane plans, to make sure 
that each department head understands what their 
responsibilities are.
    I think that is the key: having a good, solid plan in 
place, to exercise that plan, and train on that plan. And that 
is all we can do right now, until we are actually tested.
    Mr. Etheridge. Have we had an exercise this year yet?
    Mr. Paulison. We have not had the national exercise yet, 
but the states have already started doing those, doing their--
that was then they are start doing those exercises.
    Katrina was a wakeup call for everyone, not only in the 
federal government, but also all the state emergency managers. 
If you talk with them--and I meet with them on a regular basis, 
and I know Undersecretary Foresman does, also--they are asking 
themselves, ``What if that was my state? What if that was my 
city? What would I have done? And how would we have 
performed?''
    Mr. Etheridge. Well, I thank you.
    And, Mr. Chairman, I would say that the situation, as it 
relates to the aftermath of Katrina and Rita, are still a 
challenge for this country and a natural disaster, and it will 
be until it is fixed. Thank you.
    Thank you.
    Mr. Cuellar. Thank you, Mr. Etheridge.
    At this time, members, we do have--we are going to do a 
short round of second questions, so, even though you do have 
your 5 minutes, if you can keep it within 5 minutes--make sure 
you keep it under 5 minutes.
    But let me go ahead. I will go ahead and recognize myself 
for one question, and then I will have a couple questions, real 
short ones. But instead of responding, if you can just get that 
in writing, unless the members are interested. They might be 
interested, also, in copies of that.
    Mr. Jadacki, the inspector general has focused on 
substantial work on FEMA contracting and has identified 
numerous problems. And what we are looking at is, of course, 
the acquisition issues that have come up, whether there has 
been clearly communicated acquisition responsibilities among 
FEMA, other federal agencies, state, local governments, whether 
there has been sufficient numbers of acquisition personnel to 
manage and oversee this type of contracts.
    In your opinion, has FEMA made--what sort of strides has 
FEMA made in addressing those shortfalls, when we talk about 
contracting and acquisitions? And I think you are familiar with 
reports and articles, et cetera, et cetera.
    Mr. Jadacki. Yes, right, painfully familiar. We believe 
FEMA's--they are going in the right direction.
    One of the outcomes of Hurricane Katrina was the obviously 
lack of staff, the lack of attention to procurements in a 
couple different areas. Obviously, there was not enough 
contracting officers to get the required number of contracts 
out on the streets.
    The other issue that was discussed earlier is the fact that 
there weren't pre-scripted, you know, contracts in place before 
the disaster occurred, so, as a result, a lot of ad hoc 
contracting was taking place, sole-source-type things, limited 
competition, letter contracts, authorizations--
    Mr. Cuellar. And have they now developed those--and I don't 
want to say I am an attorney, but I want to say form contracts, 
that basically you can use?
    Mr. Jadacki. Right. For the major contracts, they have gone 
back and re-competed those. And we understand now there is a 
number of contracts in place with the requirements, with 
pricing, some of those types of things in place, with a normal, 
typical, after-disaster activities, like ice water, logistics, 
some of those types of things.
    We understand that they are making great strides in 
attracting and hiring procurement staff. As a matter of fact, I 
sit on a board that meets every two weeks just to go over the 
capabilities. We also have a group under my office that is 
dedicated to reviewing contracting activities. And we are with 
them on a weekly basis.
    So one of the big issues that we have, though, is defining 
the requirements. Like, what exactly do we need? And do we have 
the people trained to identify those needs?
    For example, base camps. We identified a need early on that 
there is a big need for base camps to house either the disaster 
victims or the response workers. Now, we can do the contract, 
but somebody familiar, you know, that needs to be familiar with 
how base camp works, what the types of supplies you need to 
have, and those types of things.
    So it is not only the acquisition process of signing a 
contract. It is the oversight; it is defining the requirements 
and those types of things, too.
    FEMA is making great progress in doing that, as well as the 
department And, currently, we are in process, and we hope to 
have something out by the end of March. We are actually going 
to provide a scorecard and assessment of where we are right 
now, because we think it is important to establish a baseline, 
so when you ask the same question next year, ``Where are we 
at,'' we have that baseline, we can assess the capabilities.
    Mr. Cuellar. Will you get that status report to both 
committees?
    Mr. Jadacki. Right. We are shooting to get something out by 
the end of March, so it will be included in our semi-annual 
report, but we will make sure we get that report.
    Mr. Cuellar. All right, thank you.
    I have two questions, Mr. Paulison, but if you can just--
because I want to certainly keep this under time. But what are 
your thoughts on FEMA's practice of decertifying levees?
    And I know Mr. Dent asked about this and another member, 
for the new digital flood maps and it is economic impact on 
communities throughout the country, including I know one 
country that I represent in my congressional district. They 
brought this up more than once.
    And, again, the second part of a question is, can you tell 
me what programs FEMA has within its resources to assist 
communities that have leveraged local funding for the 
production of this maps, in addition to, I believe the $1.5 
billion allocated by the federal government for this program?
    And I believe--you know, the Texas-Mexico border, where I 
am at, I think they have about $9 million alone. I just want to 
see those--you know, I have a little question on the 
certifiable infrastructure that is currently being developed 
and not going to be included in these new maps, which will 
require, in the opinion of a lot of my constituents, remapping 
an additional federal and local funding in the coming years.
    In other words, can we get it right the first time, instead 
of having to go back again?
    Mr. Paulison. The issue of decertifying levees is a 
significant issue, because it does put a financial burden on 
those people who are now required to have flood insurance.
    However, the whole idea of the flood insurance program is 
to protect people and to make sure that they can get some type 
of reimbursement if their home is destroyed. So not having 
flood insurance, when they are inside of a levee system that is 
not certified, it is much cheaper to have the flood insurance 
than to not have any afterwards.
    What we saw during what happened in Louisiana and New 
Orleans, where a lot of people did not have flood insurance, 
and the insurance companies went through there and said, ``Hey, 
the damage was not wind, it was flood,'' they ended up with 
nothing.
    So, yes, it is difficult. It does cost money. But at the 
same time, it is the right thing to do to have that flood 
insurance. And I know it puts a burden on people.
    As far as programs, we do have programs that can?we have 
pre-mitigation dollars that communities can apply for. We also 
have it across the board, where every state gets the same 
amount of money. And then we have the post-disaster mitigation 
funds that they can apply for after there is a disaster to help 
them with that.
    And that, generally, if a state gets a declaration, that 
generally applies to all the counties, and the states can apply 
for those dollars.
    Mr. Cuellar. Could you just give us?provide an outline to 
the committee staff so we can?all the members get a copy of the 
outline?
    Mr. Paulison. Absolutely, yes.
    Mr. Cuellar. And so that we could have a checklist, and we 
can go back to our communities and say, ``This is what we have, 
and this is what is available.''
    Mr. Paulison. We can do that. And, also, again, I would 
like to repeat, I would like to have the opportunity to come 
back or to meet with your group here or in your office or 
something and bring our flood mitigation people in to walk 
through all the programs, because it does get complicated.
    Mr. Cuellar. Right. Why don't we go ahead and work that 
with--I know Charlie--Mr. Dent had asked that question, and we 
will follow up on that.
    Mr. Paulison. We would love to do that, yes, sir.
    Mr. Cuellar. Yes, sir. Thank you, sir.
    At this time, I will recognize Mr. Carney from 
Pennsylvania.
    Mr. Carney. Thank you, Mr. Chair.
    In testimony before this committee last year, the 
International Association for Firefights discussed how FEMA 
called up over 1,000 firefighters to serve as, ``community 
relations officers,'' tasking them with the distribution of 
informational flyers.
    According to their testimony, ``Rather than deploy these 
highly skilled and highly trained professionals to relieve 
local first responders, our members sat in hotel rooms in 
Atlanta.''
    Mr. Paulison, what are we doing to ensure that we use first 
responders in the best way possible?
    Mr. Paulison. And we did that. We had plenty of first 
responders responding as firefights. What we didn't have was 
people who could go out with public relation people to talk to 
people, to tell them what the issues were, where to go to get 
help.
    In the past, we have hired people to do that. And we ended 
up with people we didn't really want going to people's homes. 
And this was my idea, so I will take the heat for it. My idea 
was to go out and solicit firefighters, who already have 
background checks--we know what their characters are--and ask 
them to come in, not to do firefighting work, but to come in 
and help us with the public relations people, with the public 
assistance people, to go out and go to where people are.
    They are used to sleeping on the ground. They are used to 
being under some very difficult conditions. And we actually got 
4,000 volunteers that we put in there.
    And, yes, they had to go through sexual harassment 
training. They had to get trained on what to do and what not to 
say, and to get some basic training on FEMA programs. I think 
the program was a success.
    Now, firefighters being firefighters--and I was one for 30 
years--they wanted to do more than that, and they wanted to go 
out there with their turnout gear, and they wanted to go out 
there with their medical kits. But we had people to do that. I 
needed people to do a certain job, and I couldn't think of a 
better group to ask to come in and do that than firefighters.
    Mr. Carney. Did they know they were going to do that before 
they came down?
    Mr. Paulison. Oh, absolutely. It was so clear. And we made 
it clear to their chiefs; we made it clear to the firefighters 
exactly what they were asked to come in to do.
    We paid them. We reimbursed their department, paid them if 
they were volunteer firefighters. We reimbursed their 
departments if they were on a paid department, to make sure 
there was no loss of income from the individual communities 
that donated those firefighters.
    But they were asked to come in to do a specific job, and I 
asked them to do that because of the character of that group of 
people. So I didn't have to go out and just hire people off the 
street that I had no idea what their backgrounds were.
    Mr. Carney. I don't dispute the character of these first 
responders at all.
    Mr. Paulison. And I will do it again, despite the heat that 
I know I will get if I do.
    Mr. Carney. Yes, I am a former first responder myself, back 
in the day. What are we doing to make sure we have these folks 
credentialed?
    Mr. Paulison. As far as--
    Mr. Carney. Do we have a national credentialing system in 
place?
    Mr. Paulison. It is a system we--it is not totally in 
place. It is a system we are working on. We know it is an 
issue.
    When you asked for mutual aid, as particularly when you go 
through the IMAC system and you are getting somebody from 
another state, you need to know that the person you are getting 
does have the qualifications to do the job and has some basic 
certifications.
    During Hurricane Andrew, I had 3,500 people show up at my 
doorstep and said they were firefighters. I didn't have a clue 
whether they were or not. We have put people on the street. I 
did not know. On September 11, 2001, we had the same thing in 
New York City.
    We had people crawling on that rubble pile, we didn't know 
who they were. We can't allow that to go on. So we are working 
on, not only credentialing some type of system--and every state 
has different credentials. What does it mean to be a police 
officer? What does it mean to be a paramedic? What does it mean 
to be a firefighter?
    So we have to come to some consensus on what is going to be 
acceptable in the middle of a disaster, of who can come into 
help, so you know who they are, and they know they can do their 
jobs.
    Mr. Carney. Do you have a sense of time frame when that 
might be completed? How far along are we in this process?
    Mr. Paulison. I think we are pretty far along in the 
process. It is getting everybody to buy into it. I can't give 
you a time frame right now.
    I can tell you that we are working on, also, on making sure 
what you order is what you get. If you order a fire truck, you 
know what you are going to get. If you order a water tanker, 
you know what you are going to get. So those types of things 
are in place.
    Mr. Carney. Good. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Carney.
    This time, gentlewoman from New York, Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman. I wanted to 
revisit with you, Mr. Foresman, the whole issue of the US-VISIT 
within the National Protection Directorate, and get a sense of 
whether, in fact--with the Customs and Border Protection 
segment of homeland security and what that means.
    And I am going to give us a scenario to you. It has to do 
with people who want to have their visitation expedited. And 
there are a whole host of reasons, but many that I hear about 
are medical emergencies or weddings or funerals. And if, for 
instance, in my district, your name happens to be Muhammad, 
there is this lag time.
    So I want to get a sense of, is that due to scrutiny that 
comes from your end? Or is it due to scrutiny that happens in 
some other part of the agency? But what is the lazing? And how 
do we facilitate visitation, entrance and exit from the United 
States of America?
    Mr. Foresman. Congresswoman, thank you. Part of what I 
would offer to you, that when an individual who is not a U.S. 
citizen lives outside the borders of the United States chooses 
to make a visit to the United States, they are?not only is the 
Department of Homeland Security involved, but the Department of 
State is involved.
    The role of US-VISIT is to provide the backbone so that, 
when that person presents themselves overseas to a U.S. 
official and says, ``There is a wedding that has come up. There 
has been a death in the family. I want to go see Washington, 
D.C.,'' the US-VISIT responsibility in that process is to be 
able, as they capture those prints from that individual, to get 
it into the database, to retain it in the database, and make 
sure that we have the opportunity, if you will, to run it 
against the database to make sure that, frankly, it is not 
someone using it as a pretext to get into the country.
    You know, one of the great advantages that the secretary 
talks about is, when terrorists are planning to commit an 
attack overseas, and they are sitting in a safe house in 
Afghanistan or Iraq, when our forces go in there, they are 
dusting those computers. And those prints are going into that 
VISIT database.
    And we want every terrorist to think about that, if they 
are going to try to come to the United States, are they going 
to get caught because their print is on file? But, conversely, 
I would offer to you that the process by which we adjudicate 
the prints process, when a person presents themselves overseas, 
is typically less than a day and, in some cases, it is much 
quicker than that.
    Ms. Clarke. And then the second part is, do you interact 
with the portion of Homeland Security that is CPB?
    Mr. Foresman. I apologize for not addressing that. 
Absolutely. But we actually interact with a wide range of 
stakeholders, in terms of Customs and Border Protection and 
Immigration and
Customs Enforcement, Coast Guard, and, frankly, a whole host of 
non-DHS entities, as well.
    And what I was saying earlier is that US-VISIT has become 
an identity management resource as much as it was designed to 
be a border security measure.
    Mr. Cuellar. Thank you, Ms. Clarke.
    This time, the chair will recognize for 5 minutes the 
gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thank you, Mr. Chairman.
    I met with--we had a big meeting of first responders, and 
FEMA, and DHS Friday, this past Friday when I was back in my 
district. And one of the--just as Mr. Carney was asking you 
questions about credentialing, that came up in our meeting, 
about there seems to be difficulty in developing some kind of 
protocol, so that, you know, our first responders or, you know, 
the right people can get through the perimeter, you know, of a 
disaster area, a disaster zone.
    So what, if you could sort of go through that with me 
again, what is being done to sort of--to develop a protocol so 
that we don't have, you know, confusion--there is always going 
to be some level of confusion at a disaster, and I am not 
asking for perfection.
    But how are we dealing with credentialing so that, you 
know, legitimate first responders can get to the site to help 
people?
    Mr. Paulison. There are a couple things. One is the issue 
of self-dispatching, which causes 90 percent of the confusion.
    When people start coming into a disaster area, and they 
have not been invited in, they just feel like it is the right 
thing to do, one, you don't know they are coming in, two, you 
may not have the wherewithal to even take care of them.
    But I mentioned Hurricane Andrew, I had 3,500 firefighters 
show up. I couldn't even feed my own firefighters, much less 
the 3,500. We have to house them. You have to find a place to 
store their equipment, to dispatch them, to deploy them, you 
know, there is a whole series of things.
    How do you get them radios where they are all on the same 
frequency? It takes a tremendous amount of resources away from 
the local community, if they don't come in self-sustaining. So 
that is an education issue that we have been working on with 
the first responder community that, unless you are invited in, 
you don't just show up because you feel like you want to do a 
good thing.
    The second is--
    Mr. Perlmutter. Let me stop you for a second. But don't 
you?I mean, and I understand, you need to have order. You know, 
you have to bring some order to the chaos that exists when 
something like this happens.
    But on the other hand, you want all hands on deck. And so, 
I mean, you have to balance, develop some general protocol so 
that those people who want to come in and help you?you know, 
let's say in Denver. We have the national convention, 
Democratic National Convention coming. So, you know, hopefully 
we are not going to be a target. We have to prepare as if we 
are going to be.
    But we want all hands on deck to be available from every 
part of the Denver metropolitan area, in case there was 
something bad happens. So, I mean, that is the kind of thing I 
am talking about. I want you to be able to reach out to as many 
people to get as much help as you can.
    Mr. Paulison. But If you get too much help, they get in 
each other's way. And I know this is a debate we could probably 
have, but what your area is doing right now is making sure that 
those processes are in place ahead of time.
    They are doing a great job of--they will be working out of 
a united command post. All of the departments around that area 
that would normally respond in are a part of that process, are 
being kept informed. And if there is something that happens, 
they know that they are going to respond and where they are 
going to report to.
    And that works very well when you have a noticed event like 
you are talking about, where we know there is an event 
happening, and something could go wrong, so we are going to be 
prepared for it.
    It is the no-notice events we have difficulties with and 
are not prepared like we should have been, like in Hurricane 
Katrina. We didn't have those systems in place. A lot of the 
communities are now putting those in place.
    Right now, we don't have a credentialing system, per se. If 
you show up in uniform with a fire truck or with a police car, 
you are pretty much going to get in. What we want to do is make 
sure, if you do come in like that, you have some kind of card 
or some way to identify that you are who you say you are and 
you do have the training and the credentials to do the job you 
have come in to do. And that is the system just not in place 
yet.
    Mr. Foresman. Congressman, if I might, let me just maybe 
put two points behind what Dave has talked about.
    From a practical matter--and, you know, I just talk with 
this, with 25 years perspective in the business. Dave and I 
have been doing this our whole lives.
    You know, some issues are not federal issues, and 
credentialing is one of those issues where, are we giving the 
tools to the states and the communities to do it? And, 
absolutely, we are.
    Here in the national capital region, one of the offices 
that we will transition out of the Preparedness Directorate's 
office to the Office of National Capital Region Coordination, 
we have been working on a broad-based credentialing program 
across the national capital region, so that a firefighter from 
Montgomery County, Maryland, and a firefighter from Fairfax 
County, Virginia, will have a common credential, a common set 
of standards.
    And so what I think I would offer as maybe the second part 
to it is, there is a lot of work that is being done at the 
state and local level. A lot of the $16 billion in grant funds 
that DHS has given out since its inception have been targeted 
towards developing credentialing programs.
    And the Emergency Management Assistance Compact that 
provides for interstate and mutual aid, you know, we started 
this process 10 years ago, when I was in my other life. And I 
would just offer to you that there is good progress being made.
    It is not only about identification. It is about tracking. 
I mean, we have a tremendous issue with first responders out of 
New York City, about whether they were at the site of the World 
Trade Center, when they were at the site, what they were 
exposed to at the site, and when we talk about first responder 
safety, credentialing, and the backbone to doing it.
    High priority, this pilot project inside the national 
capital region, is helping our efforts elsewhere, and this fits 
into the broader national effort.
    Mr. Perlmutter. Thank you very much.
    Mr. Cuellar. Thank you, Mr. Perlmutter.
    At this time, I would recognize for 5 minutes the gentleman 
from Louisiana, Mr. Jefferson.
    Mr. Jefferson. Thank you, Mr. Chairman.
    With respect to the issues I explored with you earlier, I 
really wasn't--I know what the law is on those things. My 
question really was whether, with respect to the limitation on 
individual assistance, with respect to--amount $26,200 in the 
18 months, whether now, looking back over everything, and--of 
the size and scope that we have had here, one of the--with some 
internal review, help us to understand whether or not that is a 
good number now. That is the one thing.
    The second thing was, with respect to the flexibility of 
the Stafford Act, it wasn't so much that I didn't understand 
that the states--that the law now says you will do it with the 
states, but whether you would not, under some circumstances, be 
more expeditious to get aid to people, if we could not do every 
little town that was affected, but the counties or parish 
governments, when you deal with one entity there, as opposed to 
all the numerous towns that might be in a parish in a country, 
and therefore still have less folks to talk to and get answers 
from, but to whether--because we saw some things take place 
down there, in St. Bernard and other places, where people tried 
to self-help early on, get involved, and solve some problems, 
and then they ran up against the issues with reimbursement and 
everything else.
    So it wouldn't make sense to think about it being done in 
the most affected areas, as opposed to--maybe way up in some 
other place, where there are a lot of competing legislative 
interests that take place, and everyone tried to grab onto some 
part of the other sources.
    And so I was really asking--I would really like you to 
think about that and help us to work through it and maybe 
submit something to the committee on that, so we could get some 
ideas about it. And in each one of those instances that I 
mentioned before, and particularly--and you answered the 
contract issue, I think.
    On the technical assistance on evacuation, I would like to 
know what you are doing, as you take a re-look at everything, 
to--I know evacuation--state and local responsibility, or the 
planning of it. But you can help with technical assistance, to 
make sure that they are doing the best job they can.
    I would like to know what you are doing in that area now 
that is new and different from what was done before.
    And the last thing is, with respect to HUD, and the 
coordination between HUD and your office, a lot of folks who 
think that, particularly for the longer-term recovery, when it 
comes to housing, most of the responsibility with HUD rather 
than with FEMA. I would like to know how you feel about that, 
if you feel it is just a coordination issue, or whether it 
really ought--responsibility ought to fall somewhere else.
    Mr. Paulison. Excellent questions. On the individual 
assistance, Congress did raise the amount last year to--I think 
it is $28,200 or $28,300. So Congress did raise that.
    Whether that is the right amount or not, you know, I guess 
it depends on the disaster. There are a lot of programs, things 
like Mr. Jadacki pointed out, that perhaps overlap what FEMA 
does, and we are trying to look at all of those programs and 
provide dollars to people and help to get them back on their 
feet again.
    FEMA's job isn't to make people whole. It is to get them 
through this disaster and back on their feet, to give them a 
few dollars in their pocket. I mean, $28,000 is not going to go 
a long way towards rebuilding your house, if you don't have 
insurance or no other program.
    So, you know, I am not a social expert, so I can't tell you 
whether that is the right amount or not. That is why Congress 
sets those dollars for us.
    On HUD, FEMA should not be in long-term housing business. 
That is not where our expertise is. That is not one of our core 
competencies. That is a HUD issue, as far as I am concerned. 
And we have been working with them.
    How do we put a program in place or use their existing 
programs to take on that long-term housing piece, what we 
consider long-term? You know, anything more than a few months 
should not belong to FEMA. That is not what we do. We are to 
respond to an emergency, help the state, help the local 
communities get through that thing, get some people some 
temporary housing.
    And then, if there are longer-term needs, it needs to be 
somebody else. But that is not a FEMA core competency.
    On the evacuations, a major issue. I think that, like I 
said earlier, Katrina was a wakeup call for everyone. Hurricane 
Rita going into Houston, when they did the major evacuations, 
Houston did the right thing. They got people out. It was ugly, 
but it worked.
    They learned a lot of questions from that, how to do 
contraflow better, how to move more quickly and where to put 
people.
    We are now in the process of looking at each of the states' 
evacuation plans and how they are going to work. New York City 
just did a tremendous, comprehensive disaster plan for the city 
of New York, probably 300 and some-odd pages.
    We are working with them to take that plan and make a 
template that we can use with other communities, not 
necessarily to follow New York's plan, but I guess more than a 
checklist, more of a template, that they can follow down to 
make sure they have all the t's crossed and all the i's dotted 
for their disaster plan.
    But we do review evacuation plans. We do review disaster 
plans. And we do provide technical assistance for state and 
local communities to help develop those plans. We do work with 
them to make sure that they are the plans that they need for 
that particular community.
    Mr. Cuellar. All right. Thank you, Mr. Jefferson.
    And, again, I want to thank all the witnesses for being 
here and, of course, all the staff that helped you get ready 
for this?a little bit of background work on this.
    So I want to thank all the witnesses for their time. And I 
hope you all appreciate the little format that we are using. It 
is not adversary nature; it is just trying to see how we can 
improve the process.
    We look forward working with you. And one of the things I 
do want to ask you all is, if there is something that we can 
work with--I know Mr. Foresman were talking about sometimes 
there might be different committees, you know, with similar 
jurisdictions. But if there are issues like that that we need 
to clarify on behalf of our congressional role, please let us 
know.
    And, you know, just be straightforward with us, and see how 
we can work together, because I certainly feel that we are--it 
is not you versus us or anything like that. You know, we are 
all part of the same team. So I certainly want to thank you.
    So I want to thank the witnesses for their valuable 
testimony and the members for their questions. The members of 
the subcommittees may have additional questions for the 
witnesses, and we ask that you respond to them as soon as 
possible, in writing, to any of those questions that they 
provide.
    Hearing no further business, the hearing is adjourned at 
this time. Thank you very much.
    [Whereupon, at 12:13 p.m., the subcommittees were 
adjourned.]


                           Appendix I: Letter

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  Appendix II: Questions and Responses

                              ----------                              


Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

  Responses from the Honorable George W. Foreman, Under Secretary for 
             Preparedness, Department of Homeland Security

    Question 1.: Can you assure this Committee that all of the support 
positions relating to preparedness programs that are moving from the 
Preparedness Directorate to FEMA, including all of the grants, training 
and exercise programs, are also being transferred to FEMA?
    Response: In planning this reorganization, the Federal Emergency 
Management Agency (FEMA) has undertaken efforts to capture and 
integrate the preparedness concept into programs, mission, and 
enterprise culture. Shortly following enactment, FEMA leadership 
reached out to the Preparedness Directorate to identify and incorporate 
the synergies that Congress envisioned for the new FEMA. A ``FEMA-
Preparedness-DHS Senior Leadership Team'' was assembled to guide the 
overall transition effort. This team established several FEMA/
Preparedness functional teams that have been working for several months 
to address major transition management issues in the areas of 
personnel, finance, grants, procurement, facilities and security, 
communications, and information technology.
    Recognizing the need to focus on mission-essential program 
integration, FEMA also assembled an integrated team of senior managers 
from Preparedness Directorate programs and offices that were 
transferring to FEMA. The purpose of this mission-oriented team was to 
help educate, inform, collaborate with, and advise FEMA leadership on 
the most programmatically sound organizational structure. As a result 
of these deliberations, the Department split the functions of the 
Office of Grants and Training (G&T) among an FEMA's Grants Programs 
directorate and National Preparedness directorate, which will integrate 
the preparedness, doctrine, training and exercise functions that 
previously resided in FEMA and the Preparedness Directorate.
    Accordingly, the administrative actions needed to integrate the G&T 
staff, resources, assets, programs, and mission into FEMA met the 
mandated transition date of March 31, 2007. The full integration of 
G&T's programs, policy, and doctrine will be an ongoing effort to 
continue to evolve over the next several months.

    Question 2.: What will the Risk Assessment office's role be in 
determining the allocation of homeland security grants? Will the office 
of Grants and Training be stripped of its role in creating grant policy 
and guidance?
    Response: The Office of Risk Management and Analysis will ensure 
that all individual risk programs, which include the risk analysis-
driven DHS grant programs, are synchronized, integrated, and use a 
common approach. The Department's common risk framework will be based 
on developing and embedding a standardized and consistent national 
approach to risk that is coordinated and collaborative, and will share 
risk expertise across the Department's components and external 
stakeholders.
    Under the Departmen's original organizational structure, the Office 
of Grants and Training (G&T) did not include an independent risk 
analysis component. Consequently, G&T has always relied heavily upon 
the essential coordination and integration of other departmental 
components in developing a comprehensive grant allocation methodology 
based on risk. FEMA's Office of Grants will retain responsibility 
formerly in G&T for administering the Department's Homeland Security 
grant programs and ensuring that all relevant data sets are represented 
as the Department establishes a common risk methodology. It will 
continue to draw from the expertise of relevant components in 
determining the priorities and risk formula for deciding grant 
allocations as part of a comprehensively informed grant process.
    For example, in the fiscal year 2007 Infrastructure Protection 
Programs grant cycle, G&T relied upon the expertise of the DHS Office 
of Intelligence and Analysis to provide current threat data, the Office 
of Infrastructure Protection to provide risk and vulnerability data (in 
the form of our critical asset lists), and the United States Coast 
Guard for data relating to ports and waterways. It is by relying on 
component strengths and expertise through this highly collaborative 
internal process that the Department is able to make informed 
allocation decisions to better secure the homeland.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

  Responses from the Honorable George W. Foreman, Under Secretary for 
             Preparedness, Department of Homeland Security

    Question: What are the principal internal DHS coordination 
challenges that the National Protection and Programs Directorate faces? 
For example, how will you coordinate emergency communications, risk 
analysis, and infrastructure protection responsibilities with the grant 
programs that will be located within FEMA?
    Response: The principal coordination challenges that the National 
Protection and Programs Directorate (NPPD) face are related to 
emergency communications, risk analysis, and infrastructure protection.
    Emergency Communications: The Office of Emergency Communications 
(OEC), located within NPPD, is responsible for interoperable emergency 
communications that support the Department of Homeland Security (DHS) 
grant programs and will continue to coordinate with the Federal 
Emergency Management Agency's (FEMA) newly formed Office of Grants and 
Office of Training and Exercises. Specifically, OEC will help these 
offices develop grant guidance related to interoperable communications. 
Additionally, OEC will directly support the efforts of these offices, 
as well as our State and local partners in the development and 
implementation of their Statewide Communications Interoperable Plans 
through the Interoperable Communications Technical Assistance Program.
    Risk Analysis: The Office of Risk Management and Analysis (RMA), 
established by the Secretary as a result of the Post-Katrina Emergency 
Management Reform Act passed as part of the Fiscal Year 2007 DHS 
appropriations Act, will lead the Department's efforts to establish a 
common framework to address the overall management and analysis of 
homeland security risk. Within this capacity, RMA will ensure that 
Department component risk programs are synchronized and integrated, and 
use a common approach/lexicon.
    Currently, there are multiple components within DHS working to 
reduce our comprehensive risk. RMA will leverage and integrate risk 
expertise across the Department's components and external stakeholders 
to establish a common framework to address the overall analysis and 
management of homeland security risk. The Department components with 
risk programs will retain operational control of their specific 
programs.
    G&T will continue to develop grant policy and guidance under FEMA's 
new structure. It will continue to take a collaborative approach in 
doing so, soliciting multiple inputs from numerous parts of DHS, 
including the Office of Policy, Preparedness Directorate, Domestic 
Nuclear Detection Office, and Customs and Border Protection, as well as 
other departments and agencies such as Heath and Human Services.
    Infrastructure Protection: The DHS Office of Infrastructure 
Protection (OIP) has provided Critical Infrastructure/Key Resources 
(CI/KR) risk input to support the grant determination process since 
2003. Previously, this input was provided directly to the Office of 
Grants and Training, but, moving forward, it will be provided to the 
Office of Grant Programs within FEMA. The Homeland Infrastructure 
Threat and Risk Analysis Center (HITRAC), the joint center established 
by OIP and Office of Intelligence and Analysis, has the primary 
responsibility within DHS to provide CI/KR risk information to support 
the grant determination process.
    HITRAC supports the grant process in two primary ways. First, it 
develops the methodology used to calculate the threat component of risk 
and through the compilation of required threat data. Second, HITRAC 
provides the list of Tier 1 and Tier 2 assets used by the Office of 
Grant Programs to support eligibility determinations for Urban Areas 
Security Initiative, State Homeland Security, and Buffer Zone 
Protection grant programs. Providing the Tier 1 and Tier 2 assets to 
this process ensures that those assets and systems capable of creating 
nationally significant consequences are one focus of DHS's ongoing 
protective efforts.

    Question 4.: What will the role of the intergovernmental unit in 
the new Protection and Programs Directorate be and how will it interact 
with efforts of other intergovernmental offices in the Department?
    Response: The Department of Homeland Security has one of the most 
diverse constituencies of any Federal agency. States, municipalities, 
and relevant associations interact daily with our components on a range 
of issues including border security, critical infrastructure 
protection, information and intelligence sharing, emergency management, 
immigration, and transportation security. The Office of 
Intergovernmental Programs (OGP) within the National Programs and 
Protection Directorate will serve as the Department-level focal point 
for coordinating related communications and policies with Department 
leadership, and ensuring consistent and coordinated component-level 
interactions. This office will provide constituents a clear pathway for 
communication with Department leadership and vice-versa.
    The OGP was established under Section 872 authority by the January 
18, 2007 notice to Congress. The January 18 notice stated that OIP 
would be supported by shifting resources from the Office of Legislative 
and Intergovernmental Affairs (LIA) to the NPPD M&A appropriation to 
support the stand up of the OIP.
    In addition, DHS has requested a legislative change to allow the 
personnel and assets of the former Office of State and Local Government 
Coordination (SLGC), which were transferred to FEMA as required by the 
Post Katrina Emergency Reform Act, to support OIP. The reason we have 
asked for this adjustment is that the functions of the SLGC are not 
FEMA functions, but rather department-level communication functions.
    The OIP office will coordinate with other components 
intergovernmental affairs offices, such as the External Affairs Office 
in FEMA, to leverage assets to enhance coordination across the 
Department.
    FEMA's Office of Intergovernmental Affairs will support the DHS 
Office of Intergovernmental Programs on FEMA related inquiries 
addressed to DHS leadership. FEMA's Office of Intergovernmental Affairs 
will serve as the primary point of contact for State, local and Tribal 
officials on all other FEMA related issues.

    Question 5.: Can you please tell the Committee exactly when the 
Department plans to deploy the automated grant tracking system that 
would allow for tracking of the distribution and use of homeland 
security-related funds?
    Answer: DHS has been working diligently on the requirements for a 
DHS-wide electronic grant management system. Because of the recent 
transfer of the Office of Grant and Training preparedness programs into 
FEMA, this effort has been intensified. FEMA has a robust life-cycle 
grant management system that was developed for the Assistance for 
Firefighter Grant Program. This e-Grants system will be enhanced to add 
the application/award processing and report functions for all of the 
DHS non-disaster assistance programs. It is anticipated that the DHS-
wide e-Grants system will be operational beginning FY 2008, with the 
phasing of programs into the system accomplished over a three-year 
period.

    Question 6.: Do you believe the Department of Homeland Security has 
done a sufficient job training its personnel on the NRP and NIMS?
    Response: The Department has made important progress on training 
its personnel on the NRP and NIMS, but Department leadership will not 
be satisfied until all employees are trained on the basics of emergency 
preparedness and response.
    The Department requires training on both the NRP and NIMS for all 
employees, and provides a number of online independent study courses. 
The courses are available online for both the NRP and NIMS, and 
certificates of completion are issued to employees to verify that they 
have received training. As of March 25, 2007, over 16,000 full and part 
time FEMA employees had completed the NIMS introduction course; and 
over 13,000 full and part time FEMA employees had completed the NRP 
introduction course.
    With regard to the training of the PFO/JFO staffs, as part of 
FEMA's implementation of NIMS, all FEMA full-time employees and 
reservists are required to complete four independent study (IS) 
courses:IS-100, Introduction to Incident Command System; IS-200, Basic 
Incident Command System for Federal Disaster Workers; IS-700, National 
Incident Management System: An Introduction; and IS-800, National 
Response Plan: An Introduction. All new hires post-Katrina are required 
to complete this mandatory training. Federal officials who were named 
by Secretary Chertoff in support of State and local governments in 
preparing for, and responding to, major natural disasters this past 
storm season, participated in a training exercise in early May of 2006 
where roles and responsibilities were reviewed.

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

  Responses from the Honorable R. David Paulison, Under Secretary for 
   Federal Emergency Management, Federal Emergency Management Agency

 Question: Does FEMA plan to initiate a long-term nationwide, Federal 
  ambulance support contract to evacuate patients and provide EMS to 
  disaster areas when state and local resources become depleted? When 
                    will that contract be in place?

    Will a long term, Federal ambulance support contract that is in 
place prior to the next large national disaster enable the government 
to negotiate lower pricing than if FEMA tries to negotiate such a 
contract in the midst of the disaster?
    Response: FEMA is working diligently with the Department of Health 
and Human Services (HHS) to award national ambulance contracts on a 
regional basis for high risk areas of the country. The first contract 
in place will be for the six potentially hurricane impacted states in 
the Gulf Coast from Texas to Florida. A competitive solicitation will 
be issued and advertised using FedBizOpps.gov. This initial contract 
should be in place by June 1, 2007. The second regional contract will 
be awarded shortly after for the Atlantic Coast states from South 
Carolina to Maine. The third area will involve the West Coast and the 
fourth will be for those states within and around the New Madrid 
Seismic Zone. Regionalizing the contract should allow for increased 
competition, reduce costs, lessen the impact on the nation's local 
emergency ambulance service, and enhance the Agency's ability to 
quickly mobilize resources to the scene of an event by markedly 
reducing travel times.
    Reducing costs and enhancing the Agency's ability to mobilize 
resources quickly in the aftermath of a disaster are the key 
motivations for establishing pre-negotiated regional ambulance 
contracts for our Nation's high risk areas. Having these contracts in 
place prior to an event will eliminate the need for trying to 
accomplish the contracting task during an event, which always drives up 
the cost. Further, advanced contracts allow FEMA to develop more robust 
response plans based upon a resource pool that we know will be 
available at the outset.

    Question 2: As your agency fills vacancies, what training is to be 
provided for these recent hires and when?
    What are the most critical skills that FEMA needs and why?
    Response: FEMA's new hires receive training in several areas 
shortly after coming on board with the Agency. Briefings on Security 
and Ethics are provided the day new employees report for duty. Upon 
reporting to their hiring organization, and prior to receiving access 
to an email account, new employees must complete the Rules of Behavior 
Computer Security Awareness Training.
    A full day of FEMA-specific training is provided within 30 days of 
entrance on duty. Topics include: FEMA's mission, history, values; 
mitigation; continuity of operations planning; response and recovery 
operations; National Incident Management System integration; public 
affairs; ethics; equal rights; information systems security; 
alternative dispute resolution; and workplace safety and security, 
including a discussion on violence in the workplace.
    Employees are also shown how to access the FEMA Emergency 
Management Institute's (EMI) web page (http://training.fema.gov/) to 
locate training opportunities and are advised of the great value of 
training with our State and local partners. They are further advised to 
take advantage of experiential learning opportunities by working in 
teams with experienced FEMA employees, to seek various professional 
training opportunities provided by the Agency, and to participate in 
deployments for disaster operations where they will gain frontline 
experience and knowledge about FEMA and its core mission. Employees are 
also given a copy of an Individual Development Plan (IDP) form and 
advised to meet with their supervisors to develop their IDP.

    During the FEMA Mission, History and Values segment, employees are 
specifically advised of the requirement to complete the following EMI 
Independent Study courses:
        IS-100 Introduction to Incident Command System, I-100
        IS-200 ICS for Single Resources and Initial Action Incidents
        IS-700 National Incident Management System (NIMS), An 
        Introduction
        IS-800.A National Response Plan (NRP), An Introduction
    Mission Critical Occupations, those required to support and ensure 
the success of FEMA's Strategic Plan and commitment to our Country, 
include:

 GS-0301 --  Fire Program Specialist
------------------------------------------------------------------------
 GS-0301 --  Program Specialist (National Security)
------------------------------------------------------------------------
 GS-0301 --  Program Specialist (Response)
------------------------------------------------------------------------
 GS-0301 --  Program Specialist (Recovery)
------------------------------------------------------------------------
 GS-0301 --  Program Specialist (Mitigation
------------------------------------------------------------------------
 GS-0301 --  Program Specialist (Preparedness)
------------------------------------------------------------------------
 GS-0801 --  Engineers
------------------------------------------------------------------------
 GS-0808 --  Engineers
------------------------------------------------------------------------
 GS-0810 --  Engineers
------------------------------------------------------------------------
 GS-1163 --  Insurance Examiner
------------------------------------------------------------------------
 GS-1712 --  Training Specialist
------------------------------------------------------------------------
 GS-0201 --  Human Resources Management Specialist
------------------------------------------------------------------------
 GS-2210 --  IT Specialists
------------------------------------------------------------------------
 GS-0391 --  Telecommunications Specialist
------------------------------------------------------------------------
 GS-0505 --  Budget/Financial Management
------------------------------------------------------------------------
 GS-1102 --  Contract Specialist
------------------------------------------------------------------------

    Generally speaking, mission critical occupations (MCO) are the job 
series, as defined by the Office of Personnel Management (OPM), 
critical to the success of any department or agency achieving its 
mission. As part of the Department of Homeland Security's (DHS) ``One 
DHS'' Workforce Plan, components were required to identify MCOs by 
conducting supply, demand, and gap analysis and developing strategies 
to overcome workforce issues in these key occupational series. A team 
of senior Human Resources Division managers and subject matter experts 
worked diligently to determine FEMA MCOs.
    In addition to identifying MCOs, DHS adopted OPM's definition of 
mission critical competencies, which is: a competency most central to 
an organization's core business, reflected in an organization's 
mission, vision, and strategy, and which can arise as a result of new 
challenges and business trends affecting the agency. Cross-cutting and 
high profile MCOs were identified across the Department, where DHS can 
track gaps in competencies significant throughout the Department and 
leverage resources to address workforce gaps. MCOs and their related 
competencies will serve as a resource for FEMA, and the Department to 
use in planning, managing, and developing skills to ensure that the 
Agency can meet core mission goals and objectives.
    FEMA and Department leaders now have a clear picture of MCOs and 
the necessary competencies they represent, providing the Agency with a 
clear vision that guides the planning, investment, and management of 
human capital, tools to achieve performance improvements, and a guide 
to identifying Agency competencies and the training needed to 
successfully achieve the Agency's mission.

    Question 3.: Exactly what assistance is HUD providing you in your 
continuing efforts to provide housing for the victims of Hurricane 
Katrina?
    Response: FEMA and HUD began collaborating immediately following 
Hurricane Katrina and continue coordinating the provision of temporary 
housing for disaster victims both nationwide and in the impacted areas 
in direct support of ongoing disaster recovery operations. Examples of 
this collaboration include:
    <bullet> FEMA and HUD are working closely with the Housing 
Authority of New Orleans on outreach efforts to ensure that all pre-
Katrina HUD households are appropriately referred back to HUD for 
continued housing assistance.
    <bullet> HUD's Katrina Disaster Housing Assistance Program (HUD 
KDHAP), under which FEMA reimbursed HUD for the cost of providing 
disaster housing vouchers to pre-disaster HUD housed families that were 
displaced from HUD housing due to Hurricane Katrina. This arrangement 
continued until HUD received its own supplemental funding and 
transitioned this population to the HUD Disaster Voucher Program (DVP).
    <bullet> FEMA and HUD modified an existing interagency agreement 
shortly after the disaster that enabled HUD to provide eligible 
Hurricane Katrina disaster victims with HUD single family housing 
resources.
    <bullet> FEMA and HUD continue to exchange applicant data in order 
to identify applicants receiving excess or duplicate housing benefits 
from our respective agencies.
    <bullet> HUD is a key partner in FEMA's Joint Housing Solutions 
Group to identify, evaluate and test alternative housing solutions for 
large numbers of disaster victims.
    <bullet> HUD is a key partner in FEMA's interagency Disaster 
Housing Task Force. This task force also includes Veterans Affairs, the 
United States Department of Agriculture, the Internal Revenue Service 
and the United States Army Corps of Engineers, the Access Board, and 
internal DHS support entities.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness and Response

  Responses from the Honorable R. David Paulison, Under Secretary for 
    FEderal Emergency Management, Federal Emegency Mangement Agency

    Question 4.: Has the Department taken any steps to create a 
national credentialing system for first responders?
    Response: The National Credentialing System will enhance the 
ability of Federal, State, Tribal, and local jurisdictions to locate 
and obtain appropriate emergency responders from other jurisdictions 
when needed for Inter-State Mutual Aid. The NIMS Integration Center 
(NIC) is working with existing State, Territory, or discipline-specific 
credentialing bodies toward national recognition for multi-
jurisdictional response under mutual aid agreements. Working groups 
will identify the positions that should be credentialed and establish 
the minimum qualification, certification, training, and education 
requirements for each position. The NIC is developing guidance and best 
practices to ensure uniformity of process for credentialing. The NIC 
does not issue credentials or determine the job skills needed to be 
eligible for credentials, which is the role of local jurisdictions.
    The EMS, Search and Rescue, Fire/Hazmat, Incident Management and 
Public Works working groups have produced 99 positions for 
credentialing. These positions are available for review and comment on 
the National Incident Management System website at http://www.fema.gov/
emergency/nims/whats--new.shtm.
    Additional credentialing efforts are being supported by the 
Association of State and Territorial Health Officials, Public Health, 
National Emergency Number Association, and the Association of Public 
Safety Communications Officials. Also, the DHS Science and Technology 
Directorate and the National Institute for Standards and Technology 
(NIST) are working to establish a working group to extend the FIPS-201 
SmartCard standard to address more than identity vetting by specifying 
the storage allocation of data features, data structures and essential 
information such as affiliations, qualifications etc. to ensure the 
various FIPS-201 implementations will be interoperable nationally.

    Question: Has FEMA created a language access plan which outlines 
how FEMA will provide meaningful access by Limited English Proficient 
(LEP) persons to services provided by FEMA?
    Response: Sec. 689e of the Post-Katrina Emergency Management Reform 
Act of 2006 (PKEMRA) amends the Stafford Act to require that FEMA work 
with state and local governments to identify population groups with 
limited English proficiency and to take them into account in planning 
for emergencies or major disasters. Furthermore, Sec. 689e of the Post-
Katrina Emergency Management Reform Act requires FEMA to ensure that 
information made available to individuals affected by emergencies and 
disasters also is made available in formats that can be understood by 
persons with limited English proficiency and individuals with 
disabilities and special needs.
    To implement this and other requirements of the Post-Katrina Reform 
Act, FEMA has established a Legislation Implementation Action Team to 
develop implementation plans and recommended policy changes. The 
strategies under consideration to provide meaningful access to persons 
with limited English proficiency as well as those with disabilities and 
other special needs include the following:
        <bullet> Integrating the PKEMRA Sec 689e requirements into and 
        throughout FEMA programs and operations. This effort entails 
        identifying omissions in operations plans and SOPs and updating 
        procedures to address the new Stafford Act requirements that 
        the communications needs of these populations be taken into 
        account in emergency and disaster operations.
        Translating disaster assistance information into frequently 
        encountered languages in the U.S. and providing the same 
        materials in formats accessible to persons with disabilities or 
        special needs. Posting the materials on the FEMA Intranet and 
        Internet sites and providing on CD and DVD for use in emergency 
        and disaster operations.
        <bullet> Providing information in appropriate formats in 
        cooperation with state and local governments through Community 
        Relations teams and FEMA-trained inspectors and contractors; 
        and Congressional district offices, Disaster Recovery Centers, 
        congregate shelters, feeding and first-aid stations, voluntary 
        agencies, government agencies and more.
        <bullet> Mandatory training for all personnel who encounter or 
        communicate with or work directly with disaster victims, 
        including headquarters, regional and JFO personnel; inspectors 
        and contractors, DRC personnel, and personnel at shelters and 
        feeding stations.
        <bullet> Using hardware/software solutions to augment 
        translating capabilities and providing alternative 
        communications such as touch screens, electronic pointing 
        devices, alternative keyboards, video relay, reading tools, 
        screen enlargers, text-to-speech synthesizers, voice browsers 
        and virtual computers that project computer screens onto walls 
        and large screens.

    Question 6.: Why did the Administration decide to keep the Ready 
program within in the Office of Public Affairs while Citizen Corps is 
moving into FEMA? How will all of the citizen preparedness programs in 
the Federal government be coordinated?
    Response: The Ready Campaign, which was launched in February 2003, 
is the U.S. Department of Homeland Security's national effort designed 
to educate and empower Americans to prepare for and respond to 
emergencies including natural disasters and potential terrorist 
attacks. The goal of the Ready Campaign is to encourage our citizens 
who can prepare to do so, freeing up valuable response resources and 
helping make our Nation more secure, strong and resilient. Because 
public communications and outreach are at the core of the Ready 
Campaign, it makes sense to house it within the Office of Public 
Affairs.
    Ready asks individuals to do three key things to prepare: get an 
emergency supply kit, make a family emergency plan, and be informed 
about the different types of emergencies that could occur and their 
appropriate responses. The campaign also includes several extensions 
for specific audiences. Ready Business helps owners and managers of 
small- to medium-sized businesses prepare their employees, operations 
and assets in the event of an emergency. Ready Kids is a tool to help 
parents and teachers educate children ages 8--12 about emergencies and 
how they can help get their family prepared. Listo, Listo Negocios and 
Listo Ninos are Spanish language versions of these efforts.
    Inherently a communications effort, the Ready Campaign's messages 
have been distributed through: television, radio, print, outdoor and 
Internet public service advertisements (PSAs) developed and produced by 
the Advertising Council; brochures; www.ready.gov and www.listo.gov Web 
sites; toll-free phone lines 1-800-BE-READY and 1-888-SE-LISTO; and 
partnerships with a wide variety of public and private sector 
organizations.
    Thus far, Ready has been a success. Since its launch the campaign 
has generated more than $618 million in donated media support; its Web 
site has received more than 2 billion hits and 25.7 million unique 
visitors; and more than 12 million Ready materials have been 
distributed. In addition, a national survey conducted by The Ad Council 
in June 2006 found that from 2005 to 2006, the proportion of Americans 
who said they have taken any steps to prepare rose 10 points, from 45 
percent to 55 percent.
    With regards to Citizen Corps, the Citizen Corps program addresses 
each aspect of the emergency management cycle through all-hazards and 
as such, the program fits well within the FEMA mission. Citizen Corps 
is a National hands-on, grassroots effort that improves individual and 
community preparedness and resilience through information, training, 
and active engagement through our program partners and affiliates. 
Citizen Corps and Ready work in tandem to promote community 
preparedness. In addition, Citizen Corps maintains a close, well-
established relationship with the FEMA Office of Public Affairs. This 
relationship will ensure that all Citizen Corps activities and outreach 
will be coordinated with the activities through the DHS Office of 
Public Affairs.

    Question 7.: In a disaster situation, what decisions can you make 
as FEMA Administrator on you own and what decisions have to be approved 
by either the Secretary or Deputy Secretary of the Department of 
Homeland Security?
    Response: As FEMA Administrator, I will be able to exercise all 
authorities given to me by statute and through delegations of 
authority. Currently, under Delegation Number 9001, the Secretary of 
Homeland Security has specifically delegated to me the authority to 
provide oversight and responsibility for disaster-related activities, 
including:
        <bullet> Helping to ensure the effectiveness of emergency 
        response providers to terrorist attacks, major disasters, and 
        other emergencies
        <bullet> Providing the Federal Government's response to 
        terrorist attacks, major disasters, and other emergencies
        <bullet> Coordinating other Federal response resources in the 
        event of a terrorist attack or major disaster
        <bullet> Assigning disaster response-related duties or tasks to 
        DHS organizations elements or offices, or to other Federal 
        agencies, and arranging for appropriate reimbursement from the 
        Disaster Relief Fund of other available funds to DHS 
        organizational elements or offices, or to other Federal 
        agencies performing disaster-related assignments
        <bullet> Aiding the recovery from terrorist attacks, major 
        disasters and other emergencies
    The existing delegations of authority from the Secretary are being 
revised to reflect the new scope of authorities provided to the 
Administrator of FEMA by statute.

    Question 8.: Could you give us your thoughts on the respective 
roles the Principal Federal Official and the Federal Coordinating 
Official should play in the preparation for and response to an 
incident, and how we can clarify the two?
    Response: As a part of the National Response Plan review process, 
the Department continues to work on defining and clarifying the role of 
the Principal Federal Official (PFO) and the Federal Coordinating 
Officer (FCO). A goal of the process is to incorporate language 
regarding the national response structures at the field-level within 
the NRP during a domestic incident response and to include discussions 
on the role of the PFO and FCO. The revised NRP will be released in the 
Summer of 2007.

Questions from the Honorable Christoper Carney, Chairman, Subcommittee 
              on Mangement, Investigations, and Oversight

  Responses from the Honorable R. David Paulison, Under Secretary for 
   Federal Emergency Management, Federal Emergency Management Agency

    Question 9.: Has FEMA clearly defined the roles, responsibilities, 
and expected outcomes for each of its organizational components under 
its new organizational structure? If not, what is the status of those 
efforts?
    Response: As part of the FEMA re-tooling and reform efforts, FEMA 
is currently in the process of a full transformation process. This 
process has included several senior leadership sessions and working 
group function and mission sessions to re-align FEMA organizational 
components, address system concerns, and upgrade FEMA's ability to 
quickly respond and recover from future events. Also, FEMA and the 
former Preparedness (PREP) directorate's leadership teams have met 
regularly since January 2007 to ensure a smooth transition of all 
preparedness functions and missions. One of the senior leadership teams 
is specifically reviewing the missions and functions and roles and 
responsibilities of the PREP programs to ensure optimal integration 
into FEMA. The approach has been used to identify the best practices of 
both FEMA and PREP, with the ultimate goal of strengthening national 
preparedness through our State and local partners.
    The focus of the transition through March 31 is on the tactical and 
operational activities necessary to complete administrative transfers 
so that there is a seamless transition for our transferring employees, 
as well as our State and local partners. The new FEMA organizational 
structure has been in place since March 31, 2007. For the remainder of 
FY 2007, FEMA will be focusing on complete integration of PREP 
functions and mission into FEMA, moving the balance of FEMA into the 
new organizational structure, and determining the best structure for 
the Regions. That will allow identification of specific missions and 
functions for all components of the New FEMA, and position the Agency 
to begin full implementation of the transition in FY 2008.

    Question 10.: If another Hurricane Katrina were to strike today, 
what is FEMA certain it could do well (and why), and what key gaps 
remain (and why)? For example, some key problem areas in Katrina were 
mass care and shelter, evacuation of special needs populations, 
operable and interoperable communications, logistics, and reconciling 
the need for quick assistance while protecting against fraudulent 
claims.
    Response: FEMA has been building increased management and resource 
capacity to address all the major recommendations coming out of the 
post-Katrina analysis and reports. We are confident the Agency can 
perform at much higher levels in the response and recovery areas you 
identify as well as in additional areas. DHS and FEMA have also worked 
closely with their Federal, State and local partners to build increased 
response and recovery capacity at all levels in anticipation of 
possible future catastrophic incidents. While FEMA and its partners 
have taken great strides to be better prepared to address any and all 
disaster response and recovery needs, it must be recognized that our 
ability to be effective is tied to a certain extent to how much the 
capabilities of our State and local partners have been affected by the 
incident. It must also be understood that if another incident of the 
magnitude of Katrina took place, while our response and recovery 
efforts would be much more effective, we would not be able to address 
all disaster victim needs immediately. The sheer magnitude of such an 
event would still be challenging to the collective immediate response 
ability of FEMA and our Federal, State and local partners.
    As we approach the 2007 hurricane season, FEMA is more ready than 
at any time in its history to work with State and local partners. 
Further, FEMA has assisted many more disaster victims in a shorter 
period of time, with greater accuracy and improved protection against 
waste, fraud and abuse, and adopted new policies and procedures 
developed post-Katrina to support State and local efforts as they 
transition to longer-term recovery solutions.

    Question 11.: Does FEMA have the authority it needs to fully 
perform its roles and responsibilities? If not, what areas need to be 
addressed?
    Response: FEMA maximizes the authorities that are available and 
looks forward to continuing to work with Congress as it develops 
proposed legislation relating to all of FEMA's authorities.

    Question 12.: What are the principal internal coordination 
challenges that FEMA faces with DHS under its new organization? How 
does FEMA plan to address those challenges?
    Response: The Preparedness Directorate Components that are now part 
of FEMA provide an opportunity to implement and integrate the best 
practices of both organizations to build a better, more efficient, more 
capable and more coordinated preparedness and emergency response 
agency. The Preparedness Components have been completely integrated 
into FEMA and will partner with other FEMA directorates to leverage 
assets and resources. Some of the other major benefits of this new 
organization include:
        <bullet> Integrating the innovative national preparedness 
        system and the agile, adaptive emergency response system 
        represents a cultural shift for FEMA and the Department that 
        will strengthen the Nation's resilience, improve service to our 
        stakeholders, and empower our employees;
        <bullet> Presenting a comprehensive, strengthened and 
        coordinated preparedness and emergency response regional 
        structure that presents the full range of FEMA missions will 
        support a more effective partnership with our State, local, and 
        other stakeholders to ensure a more prepared national response 
        capability;
        <bullet> Strengthening expanded training and exercise programs 
        that incorporate elements of the full range of emergency 
        management disciplines including preparedness, protection, 
        response, recovery and mitigation for increased capabilities at 
        the Federal, State and local levels; and
        <bullet> Increasing collaboration with the Department and its 
        many components is accelerating integration of our capabilities 
        with those of our Departmental partners under the new DHS 
        organization. FEMA benefits greatly from the support and 
        cooperation received from DHS Components we have traditionally 
        worked with, such as Operations and Infrastructure Protection, 
        and relatively new partners such as the Domestic Nuclear 
        Detection Office (DNDO), Health Affairs and the Secret Service.
    The net result of the implementation of the new FEMA organization 
is the development of a more robust emergency management system and an 
expanded and more closely coordinated ``culture of preparedness'' to 
engage all Americans in helping the Nation address the continuing 
challenges we face.

    Question 13: GAO has reported that FEMA has not had good 
information on the resources needed for its day-to-day operations 
compared to the additional resources it needs to assist state and local 
governments respond to major disasters. What is FEMA doing to determine 
its ``baseline'' operational resource needs? What assumptions and 
analyses are being used to identify those needs?
    Response: With the transition of the Preparedness Directorate to 
FEMA and as part of the Department's FY 2009--2013 Programming and 
Budget activities, FEMA is revalidating and adjusting our baseline 
dollars to ensure that money is available to accomplish Agency 
priorities and to determine any new or additional requirements. To 
identify these needs the agency is using accepted management 
engineering practices and tools for data collection and resource 
validation.

 Questions from the Honorable Henry Cuellar, Chairman, Subcommittee on 
          Emergency Communications, Preparedness, and Response

  Responses from the Honorable Richard L. Skinner, Inspector General, 
                    Departement of Homeland Security

    Question 1.: What would you consider to be the largest acquisition 
related problems that FEMA and other federal agencies encounter when it 
comes to disaster contracts?

    Response: There are three areas, which FEMA or any other federal 
agency needs to address regarding disaster contracts:
    (1) Tracking and Reporting Contract Information: In responding to 
Hurricane Katrina, federal agencies awarded numerous contracts to 
respond in the immediate aftermath of the hurricane. However, adequate 
contract information was not readily available. A common database and 
electronic copies of documents are needed for all agencies to 
facilitate the dissemination of contract data as well as the oversight 
of contractors.
    (2) Better Strategic Planning to Address Disaster Acquisitions: The 
federal government should develop better contracting strategies that 
maximize the use of advance contracts to the extent practical and cost-
effective. Pre-existing contracts that are negotiated before disasters 
strike and coordinated with state and local governments could help 
mitigate the numerous problems we cited last year.
    (3) Lack of Good Contract Monitoring to Help Minimize Fraud, Waste, 
and Abuse: Agencies must be able to provide sufficient numbers of 
trained field-level contracting staff and to meet mission requirements. 
should also establish an assessment process to monitor planning efforts 
for disaster-related procurement needs and to monitor and maintain 
surge capacity for disaster contracting.,
    Question 2.: Is FEMA making any strides in addressing the lack of 
clearly communicated acquisition responsibilities among FEMA, other 
federal agencies, and state and local governments and the insufficient 
numbers of acquisition personnel to manage and oversee contracts?

    Response: FEMA has committed to a number of initiatives including:
        <bullet> Self-assessments and retooling their procurement 
        organization
        <bullet> Over 200 new readiness contracts
        <bullet> Better contract tracking and reporting procedures
        <bullet> A concerted effort to fully staff desperately needed 
        procurement positions
    They have made progress so far and these measures should help 
significantly, but the actions taken so far are clearly not enough to 
ensure that FEMA is prepared for the next catastrophic event. The 
acquisition management reforms that need to occur throughout DHS, 
including FEMA, will take several years.
    Additionally, FEMA has developed a National Contingency Plan, which 
will help the Agency prepare for the 2007 Hurricane season. As part of 
this plan, an acquisition tracker has been developed which identifies 
procurements to support the 2007 Hurricane Year.
    This tracker is a tool, which is prioritized by three tiers:
        <bullet> Type of goods or services
        <bullet> Projected dollar value, and
        <bullet> Acquisition strategy.
    The tracker helps to support the contingency plan to compete 
contracts for requirements, which may be needed in the future. By 
aiding FEMA in competing contracts prior to the advent, this 
acquisition tracker should reduce the need to procure items required to 
support the disaster relief and recovery assistance in an urgent and 
compelling environment. In addition, the contingency plan will ensure 
contractor support is in place to help FEMA quickly mobilize resources 
in immediate response to disasters.

                                 <all>

</pre></body></html>
